U.S. Department of Justice
Office of the Inspector General




The FBI DNA Laboratory:
A Review of Protocol and Practice
Vulnerabilities




                    DRAFT



                                  Office of the Inspector General
                                                       May 2004
                                   TABLE OF CONTENTS

EXECUTIVE SUMMARY .................................................................................. i

        I.      Background .................................................................................. i

        II.     Methodology of the OIG’s Vulnerability Assessment ..................... iii

        III.    Summary of Findings and Recommendations .............................. iii
                A.  Protocol Vulnerabilities .......................................................iv
                B.  Practice Vulnerabilities .......................................................vi
                C   FBI Response to Blake’s Misconduct ..................................vii

CHAPTER ONE: INTRODUCTION ................................................................. 1

CHAPTER TWO: THE ANALYSIS OF DNA..................................................... 4

        I.      General Principles of DNA Analysis............................................... 4
                A.   The Structure of DNA.......................................................... 4
                B.   Overview of the DNA Testing Process .................................. 6
                C.   Short Tandem Repeat (STR) Analysis................................... 9
                D.   Capillary Electrophoresis .................................................. 11

        II.     Standards Governing Forensic DNA Analysis .............................. 14
                A.   Sources of DNA Standards ................................................ 15
                B.   Overview of Applicable DNA Standards.............................. 17
                     1.    Quality Assurance Standards .................................. 17
                     2.    NDIS Requirements ................................................. 19
                     3.    Accreditation Requirements ..................................... 19

        III.    Accreditation and Standards Compliance ................................... 19

CHAPTER THREE: THE FBI’s DNA LABORATORY AND
DNA PROTOCOLS ........................................................................................ 22

        I.      The FBI Laboratory Division ....................................................... 22
                A.   Structure of the Laboratory Division ................................. 23
                B.   DNA Analysis Unit I .......................................................... 25
                     1.    Organization and Functions .................................... 25
                     2.    Operations .............................................................. 27

        II.     The FBI’s DNA Protocols ............................................................. 33
                A.   Overview of Existing Protocols........................................... 33
                     1.    FBI Laboratory Division Quality Assurance Manual . 33
                     2.    DNA Analysis Unit I Quality Assurance Manual ....... 33
                    3.    FBI Laboratory Division Caseworking
                          Procedures Manual.................................................. 34
                    4.    Procedures for the Serological Identification of
                          Biological Substances on Evidentiary Materials ....... 34
                    5.    Short Tandem Repeat Analysis Protocol ................... 34
            B.      Protocols Designed to Protect the Integrity of the
                    STR Process ...................................................................... 35
                    1.    Quality Controls ...................................................... 35
                    2.    Cleaning and Decontamination................................ 36
                    3.    Separation of Sample Sources and of Stages in the
                          DNA Analysis Process .............................................. 37

CHAPTER FOUR: JACQUELINE BLAKE’S MISCONDUCT...........................39

     I.     Blake’s Career With the FBI........................................................ 39

     II.    Blake’s Misconduct .................................................................... 42
            A.    Incompletely Processed Controls ....................................... 42
            B.    Falsification of Laboratory Documents .............................. 47
            C.    The Impact of Blake’s Misconduct ..................................... 47
            D.    Why Blake Was Not Caught Earlier ................................... 49
                  1.     The Detection of Blake’s Misconduct........................ 49
                  2.     How Blake Avoided Detection................................... 50

     III.   The FBI’s Response .................................................................... 51
            A.   Initial Remedial Actions at the Laboratory ......................... 52
            B.   Identification and Processing of Cases That Required
                 Corrective Action............................................................... 55
                 1.     Early Reaction and Planning.................................... 55
                 2.     Notifications ............................................................ 57
                 3.     Evidence Retesting .................................................. 59

     IV.    OIG Analysis .............................................................................. 60
            A.   Timeliness of Evidence Retesting and Notifications ............ 61
            B.   The Sufficiency of Legal Services Provided to the Laboratory
                 in the Month’s Following Blake’s Detection........................ 65
            C.   The Scope of the Laboratory’s Remedial Actions ................ 66
            D.   Oversight of Blake’s PCR Qualification Testing and Early
                 PCR Work ......................................................................... 68

     V.     Recommendations ...................................................................... 68
CHAPTER FIVE: OIG ASSESSMENT OF THE FBI’s DNA PROTOCOLS AND
PRACTICES..................................................................................................70

       I.       Assessment Foundation and Process .......................................... 70
                A.   Objectives ......................................................................... 70
                B.   Selection of Consulting Experts......................................... 71
                C.   Expert Introduction to the Work of the FBI Laboratory ...... 71
                D.   The Assessment Process .................................................. 74

       II.      DNA Unit I Protocols and Practices Identified as Vulnerable to
                Abuse ........................................................................................ 77
                A.   Types of Vulnerabilities Examined..................................... 77
                B.   Analysis of Protocol Vulnerabilities.................................... 77
                     1.       Protocols That Lack Sufficient Detail........................ 80
                     2.       Protocols That Fail to Inform the Exercise of
                              Staff Discretion...................................................... 105
                     3.       Protocols That Fail to Ensure the Precision of
                              Notetaking............................................................. 107
                     4.       Outdated Protocols ................................................ 109
                     5.       Summary of Protocol Vulnerabilities ...................... 110
                     6.       Implications of DNA Analysis Unit I Protocol
                              Vulnerabilities for DNA Analysis Unit II ................. 112
                C.   Analysis of Practice Vulnerabilities.................................. 112
                     1.       Variations in Team Operations .............................. 113
                     2.       Training and the DNA Analysis Unit I’s
                              “Oral Tradition” ..................................................... 114
                     3.       Communication and Operational Inefficiencies ...... 116

CHAPTER SIX: OIG RECOMMENDATIONS...............................................119

       I.       Management Response Recommendations................................ 119

       II.      Remedy Protocol Vulnerabilities ............................................... 120
                A.  Eliminate Text Vagueness ............................................... 120
                B.  Incorporate Decision Aids .............................................. 125
                C.  Enhance Notetaking Requirements ................................. 125
                D.  Update Protocols............................................................. 126
                E.  Implications for the DNA Analysis Unit II ........................ 126

       III.     Remedy Practice Vulnerabilities................................................ 127
                A.  Promote Greater Consistency in Team Operations ........... 127
                B.  Formalize Training .......................................................... 128
                C.  Improve Information Dissemination ................................ 128
                D.  Implement a Laboratory Information
                    Management System ....................................................... 129
CONCLUSION ............................................................................................. 130

GLOSSARY OF TERMS AND ACRONYMS .................................................. 132

LIST OF APPENDICIES

Appendix     I:     Complete DNA Profile........................................................... 139
Appendix     II:    Interpretation of DNA Analysis Data .................................... 144
Appendix     III:   Forensic and Offender Quality Assurance Standards ........... 147
Appendix     IV:    NDIS Requirements ............................................................. 177
Appendix     V:     Scientist Biographies ........................................................... 180
Appendix     VI:    Checklist and Guidance for Scientists.................................. 182
       THE FBI DNA LABORATORY: A REVIEW OF
      PROTOCOL AND PRACTICE VULNERABILITIES
                         EXECUTIVE SUMMARY

I.    BACKGROUND

       Deoxyribonucleic acid, or DNA, is a molecule that contains the genetic
code for living organisms. Within the last 15 years, researchers gained the
ability to produce a computerized record containing a person’s DNA
characteristics (a DNA profile), a development with far-reaching forensic
implications. Through comparison of DNA samples, investigators now reliably
can conclude whether a particular suspect is or is not the source of DNA found
at a crime scene. The Federal Bureau of Investigation’s (FBI) Laboratory
Division has played an important role in the development of DNA science to
solve crimes.

        From August 1988 to June 2002, Jacqueline M. Blake was employed in a
DNA analysis unit of the FBI Laboratory. Starting in March 2000, she worked
as a Polymerase Chain Reaction (PCR) Biologist and was responsible for
performing tests on DNA from crime scenes and convicted offenders.
Laboratory Examiners used her analyses to reach conclusions regarding the
characteristics and sources of DNA profiles obtained from evidence items, and
testified in court in reliance on the integrity of the procedures that she
employed. During her tenure as a PCR Biologist, Blake performed analyses on
evidence from crime scenes in slightly more than 100 cases.

        An important step in the DNA testing procedures that Blake was
obligated to follow is the processing of control samples that identify whether
contamination has been introduced during the testing process, called negative
control tests. Starting in the late stages of her training to become a PCR
Biologist and for more than two years thereafter, Blake consistently failed to
complete these control tests. Her omissions rendered her work scientifically
invalid and unusable in court. Without proper processing of the negative
controls, a Laboratory Examiner is not able to rule out the possibility that
contamination, rather than the evidence under examination, is the source of
the testing results. By itself, however, the failure to process the negative
controls does not change the test results or lead to a particular testing outcome
(e.g., creating a match between a known and unknown evidence sample). The
retesting of evidence in Blake’s cases to date indicates that, while she did not
properly conduct the contamination testing, the DNA profiles that she
generated were accurate.

      In addition to omitting the negative control tests, Blake falsified her
laboratory documentation to conceal the shortcut she was taking to generate
contamination-free testing results. Blake later told the Office of the Inspector
General (OIG) investigators: “I knew that when I did not properly prepare the
negative control samples for injection but initialed the related injection sheet
anyway, I was misrepresenting that the negative control samples were properly
prepared. . . .”

       Blake generated more than two years’ worth of testing results before her
omissions were finally caught, and even then her discovery was accidental. In
April 2002, a colleague of Blake was working late one evening after Blake had
left the Laboratory for the day, and noticed that the testing results displayed on
Blake’s computer were inconsistent with the proper processing of the control
samples. Further inquiry by Laboratory personnel led to the discovery that
Blake had failed to complete the negative control testing in the vast majority of
her cases. Blake later resigned from the Laboratory and was investigated by
the Department of Justice (DOJ or Department) for her misconduct. On May
18, 2004, Blake pled guilty in the United States District Court for the District
of Columbia to a misdemeanor charge of providing false statements in her
laboratory reports.

       Blake’s actions have caused many problems. Although the FBI
Laboratory has not identified a case where Blake’s misconduct interfered with
the content of a DNA profile, Blake’s failure to process the negative controls
rendered all of her DNA analyses scientifically invalid. We found that her
actions caused substantial adverse effects in at least five respects. First, it
required the removal of 29 DNA profiles from the national registry of DNA
profiles, known as NDIS, 20 of which have yet to be restored as of March
2004.1 Until these profiles are restored there will be an ongoing risk that an
investigative agency will submit a DNA profile and not generate a match with a
corresponding Blake profile because the Blake profile has been removed from
NDIS. Past crimes thus may remain unsolved. Second, Blake’s misconduct
has delayed the delivery of reliable DNA reports to contributors of DNA
evidence. Retesting in many of Blake’s cases has taken upwards of two years
to complete, leaving evidence contributors without information that they
should have had long ago. Third, in a limited number of cases, Blake’s faulty
analysis is the only DNA information that is available. The previously
submitted evidence was consumed in the testing process and new evidence
samples cannot be obtained. Fourth, Blake’s misconduct has adversely
impacted the resources of the FBI and DOJ. The efforts that the FBI
Laboratory and DOJ have had to expend on the corrective measures needed to
address Blake’s actions have been substantial. Both organizations have
devoted thousands of hours of work to deal with the consequences of Blake’s

       1  Of the 20 cases for which profiles have yet to be restored, no DNA remains for
retesting in 2 cases, the Laboratory is awaiting the resubmission of evidence for reanalysis in
13 cases, and the Laboratory states it has completed reanalysis on an additional 4 cases.
Reanalysis is being completed in one case.


                                                ii
failure to comply with the FBI Laboratory’s DNA protocols, a cost that does not
include the funding expended for contractor support to retest evidence. State
and local investigators and prosecutors who were notified of Blake’s
misconduct and instituted corrective measures in their cases also have had to
expend additional resources. And lastly, we believe that Blake’s misconduct,
and the Laboratory’s failure to detect it for a period exceeding two years, has
damaged intangibly the credibility of the FBI Laboratory. The Blake
controversy has fed into a perception that the Laboratory has unresolved
management and employee oversight issues.

       The FBI’s Office of Professional Responsibility notified the OIG
approximately one month after the FBI discovered Blake’s omission of the
control tests. The OIG began an investigation of Blake and interviewed
Laboratory staff members, analyzed documents, and met with representatives
of the FBI’s Office of General Counsel. The OIG investigation resulted in Blake
signing an affidavit confessing to her misconduct. In addition, because the FBI
Laboratory’s application of its protocols did not lead to Blake’s early detection,
the OIG initiated this review of the FBI Laboratory’s DNA protocols to assess
whether the protocols were vulnerable to other abuse and instances of
noncompliance.

      This report describes the results of the OIG’s review. Our objectives were
twofold: 1) to analyze the vulnerability of the protocols in the FBI Laboratory’s
DNA Analysis Unit I (DNAUI) – the unit where Blake worked – to undetected
inadvertent or willful noncompliance by DNAUI staff members; and 2) to assess
the DNAUI’s application of the protocols identified as vulnerable.2 The report
also examines and notes several areas of concern with regard to FBI
management’s response to Blake’s misconduct.


II.    METHODOLOGY OF THE OIG’S VULNERABILITY ASSESSMENT

     The OIG’s vulnerability assessment proceeded in two phases. In the first
phase, the OIG team reviewed the DNAUI’s protocols for vulnerabilities. The
second phase consisted of OIG fieldwork at the DNAUI laboratory.

      To facilitate our examination, particularly the review of the protocols, we
recruited three scientists from the national DNA community to consult with
our assessment team. OIG staff provided the scientists with the most current
version of each of the written protocols governing DNAUI activities and
requested that they identify any weaknesses in them that would render the
Unit vulnerable to undetected wrongdoing by staff members. The scientists

       2 The DNAUI identifies and characterizes body fluids and body fluid stains recovered as
evidence in crimes using traditional serological techniques and related biochemical analysis. It
generates DNA profiles from the nuclei of cells recovered from such evidence.


                                               iii
reviewed the protocol documents and then met with the OIG assessment team
to discuss the vulnerabilities identified.

       With input from the scientists, OIG staff members then designed
fieldwork to verify actual laboratory practices for the protocols deemed
problematic, and to assess whether these practices served to mitigate any of
the vulnerabilities identified. Our fieldwork consisted of interviews of more
than 20 staff members within the DNAUI and the Laboratory Division and
tours of the DNAUI facility, first at FBI Headquarters in Washington, D.C., and
later at the new DNAUI facility in Quantico, Virginia. In addition to interviews,
we also reviewed FBI documentation regarding: 1) the factors considered in the
design of the new DNA facility; 2) the training curriculum and methods used
within the DNAUI, along with various staff training records; and 3) the status
of development of a computerized tracking system to be used by the Laboratory
for evidence, samples, and other information. We also examined documents
and interviewed personnel from the Laboratory, FBI OGC, and the
Counterterrorism Section at the Department regarding FBI management’s
response to Blake’s misconduct.

      We compared the results of our fieldwork with the vulnerabilities
detected by the scientists to determine whether any information gathered
during fieldwork affected the extent and nature of the scientists’ conclusions.
We then discussed our results with the scientists. Generally, they did not
make any changes to the areas they previously identified as vulnerabilities.


III.   SUMMARY OF FINDINGS AND RECOMMENDATIONS

      Our findings and recommendations focus on two general types of
vulnerabilities that became apparent during our assessment: protocol
vulnerabilities and practice or operational vulnerabilities.

       A.   Protocol Vulnerabilities

       Our textual analysis of the FBI protocols that govern the DNAUI
concluded that 31 out of 172 topical sections are significantly vulnerable to
inadvertent or willful noncompliance by DNAUI staff members. One of four
reasons typically accounted for each of the vulnerabilities: 1) the protocol
lacks sufficient detail; 2) the protocol fails to inform the exercise of staff
discretion; 3) the protocol fails to ensure the precision of manual note taking;
and 4) the protocol is outdated. In addition, in the course of completing
fieldwork that examined how staff members implement the protocols that we
identified as problematic, we discovered operational vulnerabilities in the areas
of team functions, training, information sharing, and evidence tracking.
However, our review did not identify any protocol violations in the DNAUI
regarding the failure to process negative control samples, other than the failure


                                       iv
of Jacqueline Blake. It also is important to note that our identification of a
“vulnerability” should not be misconstrued as an invalidation of the science or
techniques used by the DNAUI, or as an indication of the inadequacy of the
entirety of DNAUI policies on a particular subject. Our use of the term
“vulnerability” is limited to its definition as set forth in Chapter Five, Section
I.C.

       Approximately 20 percent of the written procedure and protocol sections
we examined lacked the detail necessary for a technically qualified DNA
scientist to reproduce all aspects of the analysis procedures in use in the
DNAUI without the potential for variation. Protocols that lack essential detail
can create a work environment that encourages use of disparate and unproven
laboratory practices, can foster disregard for protocols, and can make it
difficult for staff members and management to identify instances of protocol
noncompliance. Accordingly, we recommend that DNAUI management ensure
that the document sections we identified as vague describe completely and
accurately management expectations, Unit procedures and policies, and “best
practices” currently in use in the DNAUI.

      Our review also identified protocols that do not describe adequately the
decision criteria Laboratory staff should employ when their duties require them
to exercise discretion in the testing process. Greater risk of abuse and error is
present when testing procedures call upon the use of such judgment. If staff
members are not equipped with sufficient guidance to exercise their discretion
properly, they could prematurely halt the testing process when a probative
DNA result might otherwise have been obtained. To address this deficiency, we
believe that DNAUI management should add decision aids to its protocols, such
as workflow diagrams and decision trees, that identify the factors that staff
should consider when using judgment during the DNA testing process. These
aids would help to structure decision-making and to ensure that staff members
do not overlook relevant information.

       We also determined that certain protocols lack comprehensive guidance
on notetaking methods, even though compliance with the documentation
requirements in those protocols depends heavily upon Laboratory staff
implementing the methods properly. The DNAUI team structure makes it
especially important that all staff members have a comprehensive and
consistent understanding of how to record information as they complete their
work, since Examiners draw their conclusions and testify in court based upon
the work of the Serologists and PCR Biologists as reflected in the case file
documentation. If staff members are allowed to delay recording observations
and test results, their documentation of that information may not be fully
accurate, may be unduly influenced by what they know should have occurred
pursuant to the applicable protocols, and thus may compromise the accuracy
of the resulting analytical conclusions. Therefore, we believe that the DNAUI
should provide sufficient guidance to its employees to ensure that case


                                         v
documentation meets quality assurance requirements, and it should also
guarantee that the Unit's protocols provide comprehensive guidance on
notetaking requirements.

       Lastly, our review of protocol vulnerabilities identified several protocols
that are outdated and no longer reflect current procedures in use in the
DNAUI. By retaining outdated protocols, DNAUI management risks the chance
that some staff members might not be aware of new requirements and rely
inadvertently upon standards that have been superseded. While the staff we
interviewed were aware of the new requirements, we recommend that these
protocols be revised promptly.

       We found that the work practices of the DNAUI’s staff members served to
mitigate, at least to some degree, the effects of the protocol vulnerabilities
outlined above. In other words, the practices described to us by staff members
indicated that they rely upon internal controls and an understanding of
management expectations, not reflected in the protocols, that diminish the
risks posed by the weaknesses in the written documents. However, we believe
that until the DNAUI revises its protocols in accordance with the
recommendations in this report, the Unit needlessly will remain subject to an
increased risk of employee error and inadvertent protocol noncompliance.
Because of the importance of the DNAUI’s work, we believe this problem merits
significant attention from the Laboratory and should be resolved promptly.

      B.    Practice Vulnerabilities

      In terms of practice vulnerabilities, we recommend that the DNAUI
should work to: 1) promote greater consistency in DNAUI team operations;
2) develop a comprehensive, written training curriculum; 3) improve
management and staff communications; and 4) complete implementation of an
information management system to improve efficiency and evidence tracking
capabilities.

       During our interviews with DNAUI staff members we received many
comments that highlighted the need to ensure that the DNAUI’s protocols are
comprehensive and address all aspects of the Unit’s operations. As the
interviewees explained, variations exist in staff member work practices because
the Unit’s written guidance is silent on many subjects. These variations can
diminish staff and management sensitivity to protocol noncompliance.
Therefore, to promote greater consistency and accountability in DNAUI
functions, we recommend that Laboratory management document and
standardize the best practices of the Unit’s teams and incorporate them in
protocols.

     Our review of DNAUI training revealed that the Unit lacks a
comprehensive, written curriculum and that training consists largely of


                                        vi
individual discussions with a mentor and presentations given by various
experienced staff members. Without a comprehensive, written curriculum,
mentors and trainers can blur the distinction between team or individual
preferences and the requirements of the protocols, leaving trainees unclear
about which methods are mandatory and which are merely suggested. In our
view, such an environment leaves the Unit vulnerable to inadvertent protocol
noncompliance, since staff members may choose to alter their methods in ways
that unwittingly contradict Unit requirements. To enhance the quality of its
training program, we recommend that DNAUI management convert its “oral
tradition” of training and other informal training methods into a
comprehensive, written curriculum to ensure that trainees receive consistent
instruction that comports with the Unit’s protocols.

       Further, our interviews revealed that the dissemination and solicitation
of protocol-related information to and from DNAUI staff members are
inconsistent and ineffective. Interview responses from staff members at all
levels within the DNAUI revealed that the flow of information often is erratic
and impeded by an incorrect management assumption that communications
within the DNAUI, and between the DNAUI and Laboratory management, are
functioning well. These types of communication weaknesses pose a risk to the
efficiency and effectiveness of the Unit’s operations and should be addressed.
Consequently, we make several recommendations to Laboratory and DNAUI
management that we believe will facilitate the exchange of protocol-related
information.

        During our review we also observed many DNAUI operations that could
be made more efficient through use of a Laboratory Information Management
System (LIMS). A LIMS is a computerized system of databases that track,
organize, and link the information that must be maintained to document the
receipt, handling, and disposition of each case and evidence item. The
Laboratory currently lacks a LIMS, and therefore does not have the benefit of
greater efficiency, increased detail and timeliness in documentation, and the
reduced potential for human error or abuse. Accordingly, Laboratory
management should ensure that a LIMS is implemented successfully and that
its full utilization remains a top administrative priority of the Laboratory.

      C.    FBI Response to Blake’s Misconduct

      Finally, our review identified several issues of concern regarding the
management response of the FBI to Blake’s misconduct. These include: 1) the
timeliness of the retesting of evidence and of written notifications to DNA
contributors and prosecutors; 2) the sufficiency of the legal analysis provided
by the FBI OGC in the months immediately following the discovery of Blake’s
misconduct; and 3) the scope of the Laboratory’s remedial actions. We also
believe that given Blake’s prior work history and training experiences, the
Laboratory should have paid more careful attention to her performance on her


                                      vii
initial PCR qualifying and proficiency tests and on the first several profiles she
generated after she became a PCR Biologist.

       As of February 2004, nearly two years after Blake’s detection, of the 90
cases where Blake did not properly complete DNA testing, the FBI Laboratory
had failed to provide direct, written notification to evidence contributors in 42
of those cases that Blake failed to process properly the evidence they
submitted. Of this number, 20 contributors had received no notification at all
concerning Blake’s processing of their evidence.3 We found that the FBI
disregarded the views of the Department that written disclosures in these cases
should have been completed much earlier. It also has taken nearly two years
since the discovery of Blake’s wrongdoing for the Laboratory to complete DNA
retesting in her cases, with the result that some of these cases have languished
at the Laboratory for more than four years. 4

      Our review further revealed that FBI OGC failed to ensure that its staff
attorney assigned to the Blake matter through the fall of 2002: 1) conducted a
comprehensive legal analysis of the Blake situation, and 2) fully assisted the
Laboratory to provide sufficient notice to evidence contributors and
prosecutors.

      We also found that the Laboratory’s remedial actions were too narrowly
conceived in two respects. First, we believe that the Laboratory erred when it
limited its review of Blake’s work to the last 2 years of her 14-year career at the
FBI. Second, the DNAUI should have taken steps soon after the discovery of
         3 According to the FBI, notification of these contributors can wait until evidence

retesting is complete because, with two exceptions, the cases where notice has not been
furnished are ones in which no report has issued from the DNAUI, a suspect has not been
identified, and therefore there is no possibility that an evidence contributor would unwittingly
rely upon Blake’s invalid test results. We believe that this view overlooks the important
interest that victims of crime have in the timely testing of evidence. All evidence contributors
should have been notified directly in writing during the summer of 2002 that Blake had failed
to process their evidence properly. At that juncture the evidence contributor would have had
the ability to make an informed decision whether to resubmit new evidence or to seek testing
services from another laboratory. Because 20 of these contributors were not informed,
however, they were deprived of the opportunity to make this decision. We also believe that it is
inappropriate for these contributors to learn about Blake’s misconduct indirectly through
public reports, rather than directly from the FBI. As explained in text below and in Chapter Six
of this report, to avoid these problems in the future we recommend that, in circumstances
where a protocol violation renders the Laboratory’s testing results scientifically invalid, the
Laboratory promptly notify the evidence contributor of the anticipated time needed to complete
any necessary retesting.

       4 Of the 90 cases where Blake failed to process the negative controls, the FBI

Laboratory, with the assistance of its contractors, intends to complete evidence retesting in 64
cases. In the remaining 26 cases, retesting has been deferred pending the resubmission of
evidence from the original evidence contributor. As of February 2004, evidence retesting had
been completed in only 27 cases.



                                              viii
her misconduct to reassess comprehensively its protocols for vulnerability to
abuse.

       In light of the management problems above, we recommend the following
three corrective measures. First, the Laboratory should maintain basic case
data and contact information for evidence contributors and associated
prosecutors in an electronic format that can be shared conveniently as needed
with other FBI components (such as FBI OPR and FBI OGC) and the
Department. This step will facilitate prompt communications with evidence
contributors and prosecutors in the event of future testing problems. Second,
in circumstances where a protocol violation renders testing results scientifically
invalid and a report from the Laboratory is not expected to issue within 180
days from the violation’s discovery, the Laboratory should provide the evidence
contributor with information about the violation, including whether any
remedial measures have been instituted and the anticipated time to complete
evidence retesting if necessary, within 90 days of the violation’s detection.
Lastly, the Laboratory should perform a file review of a sample of cases that
Blake is known to have worked on prior to becoming a PCR Biologist to
reconfirm that the procedures that were required in fact are documented as
appropriate in the case files.




                                        ix
                                   CHAPTER ONE
                                  INTRODUCTION

       The Federal Bureau of Investigation’s (FBI) Laboratory Division has
played an important role in the development of the use of deoxyribonucleic
acid, or DNA, in the investigation of crimes. The DNA analysis units at the FBI
Laboratory screen evidence from crime scenes for potential sources of DNA.
When DNA is identified, FBI forensic scientists isolate and characterize the
DNA to produce a profile that can be linked to a particular individual. The
Laboratory relies upon written procedures and protocols to govern the testing
techniques that are used to produce DNA profiles and to ensure that its DNA
testing results are scientifically valid.5

      The impetus for this review was the FBI’s discovery that one of its DNA
analysis unit staff members, Jacqueline Blake, disregarded an important step
in the DNA testing process and produced dozens of DNA profiles that are
scientifically invalid and unusable in court. Our review examines the
vulnerability of the protocols in the unit where Blake worked – the DNA
Analysis Unit I (DNAUI or Unit) – to undetected inadvertent or willful
noncompliance by DNAUI staff members.6

        Blake was employed in the DNAUI and its predecessor unit from August
1988 to June 2002. Starting in March 2000, she worked as a Polymerase
Chain Reaction (PCR) Biologist and was responsible for performing tests on
DNA from crime scenes and convicted offenders. Laboratory Examiners
testified in court in reliance on the integrity of the procedures that she
employed. During her tenure as a PCR Biologist, Blake performed analyses in
slightly more than 100 cases.

        Starting in the late stages of her training to become a PCR Biologist and
for more than two years thereafter, Blake consistently failed to complete tests
that identify whether contamination has been introduced during the DNA
testing process, called negative control tests. Her failure called into question
the integrity of the DNA profiles that her analyses generated, since it was not
possible to confirm that her results were a true reflection of the evidence
analyzed, unadulterated by contamination introduced in the Laboratory. Blake
falsified her laboratory documentation to conceal the shortcut she was taking
to generate contamination-free testing results.
        5 Unless otherwise indicated, our references to the Laboratory’s protocols also include

its written procedures. The standards that govern DNA analysis at the FBI Laboratory are
found in procedure manuals and protocol documents, as well as other sources. See discussion
infra at Chapter Two, Section II and Chapter Three, Section II of this report.

       6 The DNAUI identifies and characterizes body fluids and body fluid stains recovered as
evidence in crimes using traditional serological techniques and related biochemical analysis. It
generates DNA profiles from the nuclei of cells recovered from such evidence.


                                               1
      Blake generated more than two years’ worth of testing results before the
FBI Laboratory realized that Blake had failed to complete the negative control
testing in the vast majority of her cases. Blake later resigned from the
Laboratory and currently is under criminal investigation by the Department of
Justice (DOJ or Department) for her misconduct.

       Blake’s actions have rendered all of her DNA analyses for which she
failed to complete the negative controls scientifically invalid. In addition, we
found that her conduct caused substantial adverse effects in at least five
respects: 1) it required the removal of 29 DNA profiles from NDIS, 20 of which
have yet to be restored;7 2) it delayed the delivery of reliable DNA reports to
contributors of DNA evidence in Blake’s cases; 3) her testing consumed all the
available DNA evidence in several cases, leaving only her suspect DNA profiles
as a basis on which to draw conclusions; 4) the corrective action necessary to
address Blake’s misconduct has consumed substantial resources of the FBI
Laboratory and DOJ, as well as the resources of state and local investigators
and prosecutors who were notified of her misconduct and had to take
corrective measures in their cases; and 5) the controversy surrounding Blake
has caused some measure of credibility loss to the FBI Laboratory.

       Following notification from the FBI’s Office of Professional Responsibility
(OPR), the OIG began an investigation of Blake and interviewed Laboratory staff
members, analyzed documents, and met with representatives of the FBI’s Office
of General Counsel (OGC). The OIG investigation resulted in Blake signing an
affidavit confessing to her misconduct. In addition, because the FBI
Laboratory’s application of its protocols did not lead to Blake’s early detection,
the OIG initiated this review of the FBI Laboratory’s DNA protocols to assess
whether the protocols were vulnerable to other abuse and instances of
noncompliance.

       This report describes the results of the OIG vulnerability assessment.
Our primary objectives were twofold: 1) to analyze the vulnerability of the
protocols in the DNAUI to undetected inadvertent or willful noncompliance by
DNAUI staff members; and 2) to assess the DNAUI’s application of the protocols
identified as vulnerable. The report also notes several areas of concern with
the management response of the FBI to Blake’s misconduct.

      The OIG’s vulnerability assessment proceeded in two phases. In the first
phase, the OIG team reviewed the most current version of each of the written
protocols governing DNAUI activities for vulnerabilities. The second phase
consisted of OIG fieldwork at the DNAUI laboratory.

      To facilitate our examination, we recruited three scientists from the
national DNA community to consult with our assessment team. The scientists

      7   DNA is not available for retesting for two of these profiles.


                                                 2
were responsible for reviewing the DNAUI protocols and identifying any
weaknesses in them that would render the Unit vulnerable to undetected
wrongdoing by staff members. The scientists also assisted OIG staff members
in designing fieldwork to verify actual laboratory practices for the protocols
deemed problematic, and in assessing whether these practices served to
mitigate any of the vulnerabilities identified.

       The fieldwork conducted by OIG staff consisted of interviews of more
than 20 staff members within the DNAUI and the Laboratory Division and
tours of the DNAUI facility, first at FBI Headquarters in Washington, D.C., and
later at the new DNAUI facility in Quantico, Virginia. In addition to interviews,
we also reviewed FBI documentation regarding: 1) the factors considered in the
design of the new DNA facility; 2) the training curriculum and methods used
within the DNAUI, along with various staff training records; and 3) the status
of development of a computerized tracking system for evidence, samples, and
other information. We then analyzed the DNAUI staff practices described
during this fieldwork to identify whether vulnerabilities existed in staff
practices, in addition to the protocol vulnerabilities already identified. Finally,
we examined documents and interviewed personnel from the Laboratory, FBI
OGC, and the Counterterrorism Section at the Department regarding the
management response to Blake’s misconduct.8

       The report is divided into six chapters. Following this Chapter, we
provide an overview in Chapter Two of the DNA testing process and the
national standards that govern it. In Chapter Three we describe the FBI
Laboratory, including operations in the DNAUI, and the FBI’s protocols for DNA
analysis. Chapter Four details Blake’s misconduct and the FBI’s response to
it. In Chapter Five we describe the protocols and practices that we believe are
vulnerable to abuse, and lastly, in Chapter Six we provide recommendations to
enhance protocol compliance in the DNAUI.




       8  A more detailed explanation of our assessment methodology is provided in Chapter
Five, Section I of this report.


                                             3
                            CHAPTER TWO
                         THE ANALYSIS OF DNA

       In order to understand the nature of Blake’s misconduct and the
deficiencies this review identified in the FBI Laboratory’s DNA protocols and
practices, we first describe in this Chapter the basic characteristics of DNA and
the work of forensic DNA scientists. We describe below the physical structure
of DNA, testing methods, and the standards that govern DNA analysis.

I.    GENERAL PRINCIPLES OF DNA ANALYSIS

      A.    The Structure of DNA

       All living things are composed of cells, which typically have a nucleus
that regulates metabolism, growth and/or reproduction. In human beings, the
nucleus contains chromosomes composed of DNA that encode all of the
information necessary to produce a complete human body. Chromosomes
store information in the chemical structure of DNA much like a book or a
compact disk. The nucleus contains 46 chromosomes, two copies of each of
the 23 different human chromosomes. One copy of each chromosome is
inherited from an individual’s mother and one copy is inherited from an
individual’s father, giving a child DNA characteristics of both its mother and
father.




                                       4
Source: National Human Genome Research Institute, by artist Darryl Leja at
        www.accessexcellence.org/AB/GG/chromosome.html

      Approximately 99.9 percent of human DNA is the same. Forensic DNA
scientists are only interested in the 0.1 percent of the DNA that varies among
people. The human traits that result from the variations in this part of the
DNA can be obvious, like different eye color or different blood types, but may
also be so subtle that only laboratory testing can detect them.

      Each chromosome contains many genes, which are the portions of the
chromosome that code for personally identifying characteristics, like hair color
or eye color. The characteristics of a specific gene, or of a specific location on a
DNA strand, is referred to as an allele. For example, if two people both have
blue eyes, then they have the same alleles for their eye-color gene. It has been
estimated that only 2 to 3 percent of the information in a chromosome is


                                             5
organized into genes. While the function of the DNA between the genes is
unknown, scientists currently believe that it does not code for anything. Since
it varies widely among individuals, scientists examine the DNA located between
the genes to determine a person’s DNA profile. Examining this DNA allows
scientists to determine an individual’s unique DNA profile (except for identical
twins), without that profile revealing personally identifying characteristics or
medical conditions.

       Even though forensic DNA scientists focus their analyses on specific
chromosomal locations that vary widely between individuals, it is not necessary
to examine every one of these locations to develop a unique DNA profile for an
individual. Rather, scientists need only examine enough locations to virtually
eliminate the possibility that two unrelated people have the same DNA profile
purely by chance. Under current DNA standards applicable in the United
States, an individual’s DNA profile consists of the alleles present at 13 specified
chromosomal locations. Scientists have determined that, in general, when
DNA profiles consist of the alleles present at these locations the probability that
two unrelated individuals will have the same DNA profile purely by chance is
less than 1 in 200 billion. As a result, except for identical twins, examining the
13 locations produces a DNA profile that is essentially unique to an individual.
See Appendix 1 (which contains an example of a complete DNA profile).

      B.    Overview of the DNA Testing Process

       Law enforcement personnel who submit crime scene evidence for DNA
analysis must package and seal the evidence and then arrange for its secure
delivery to a DNA laboratory. Upon receipt of the evidence, forensic scientists
first determine if the evidence might provide DNA by visually examining it for
indications of body fluid stains, and then performing testing to determine
whether specific body fluids that might contain DNA are present.

      When possible, forensic scientists analyze only a portion of the stains on
the evidence and save the remainder in case future testing is necessary.
Generally, stains on fabric are cut out of the item and the DNA is extracted
from the cuttings. If the stains are on a hard object, such as a knife, some of
the dried body fluid is removed from the object with a cotton swab (known as
swabbing an item) and the DNA is extracted from the cotton swab. The process
used to extract the DNA varies depending on the organic source of the stain
and the material containing the stain.

      Once the DNA is extracted from the evidence, it undergoes a process
known as polymerase chain reaction (PCR), which is also referred to as
amplification. This process, often analogized as biological photocopying, allows
scientists to make copies of specific chromosomal segments. The amplification
process gives forensic scientists the ability to analyze minute DNA samples,



                                        6
and has allowed DNA analysis to become a much more useful tool for forensic
scientists. The diagram below illustrates the PCR process:




Source: Federation of American Societies for Experimental Biology at
        www.faseb.org/opar/bloodsupply/pcr.html

      After amplification is complete, the DNA is analyzed using a machine
that separates the DNA fragments present in the sample. This process is
known as electrophoresis. Special software then measures the length of the
DNA fragments, determines the alleles that correspond to the fragments, and
compiles a DNA profile for the sample. The DNA testing process is summarized
in the diagram on the following page.9




       9  Information concerning the final steps described in the diagram (i.e., data analysis
and allele calls) is presented in Chapter Two, Section I.D of this report.


                                                7
Steps in the Analysis of DNA




             8
       C.     Short Tandem Repeat (STR) Analysis

      As the name implies, short tandem repeat (STR) analysis is a method of
determining an individual’s DNA profile by counting the number of times a
small DNA sequence (short tandem repeat unit) is repeated at a specific
chromosomal location. STR analysis consists of three processes:
amplification, electrophoresis, and interpretation.

      In amplification, extracted DNA is added to chemical reagents and
heated, causing the two strands that compose the DNA molecule (they
resemble two sides of a “ladder,” as seen in the graphic on page 5) to separate.
Each of the two strands then can be used as a template to make (or synthesize)
a new double-stranded DNA molecule.

      The reagents in which the DNA is heated contain markers that identify
the starting and ending points of the DNA fragment that is duplicated. The
markers also are called primers because they prime (or stimulate) the synthesis
reaction. Primers are short synthetic pieces of DNA designed to match the
regions of human DNA which are highly variable. As the DNA and chemicals
begin to cool, the primers attach to the single-stranded DNA. The primers
contain fluorescent labels so that they may be detected by lasers later in the
testing process.

       Once the primers have bound to the beginning and end of the segment
being copied, individual building blocks of DNA from the reagents fill in the rest
of the empty spots on the single-strand. See diagram supra at page 7
describing the PCR process.

       The heating and cooling of the DNA is accomplished by a machine called
a thermal cycler, in which a tray of capped tubes containing the DNA and
chemical reagents are placed. The thermal cycler can be programmed to heat
and cool repeatedly for specific amounts of time. At the end of many
repetitions, millions of copies of the original DNA section are created.

       Any DNA present in a tube when the amplification process begins,
whether from evidence or introduced through contamination, will be
amplified.10 To ensure that the DNA profile generated from the amplified DNA
is representative of the DNA from the evidence sample and not from
contamination, and to verify that the testing process is accurate, DNA protocols
require forensic DNA scientists to analyze a series of control samples. For each
batch of samples processed, at least one positive control, one negative control,

       10 DNA from contamination usually can be differentiated from crime scene DNA
because it is miniscule in comparison to the amount of DNA that is present from the evidence.
In other words, DNA from contamination typically will be “drowned out” by the DNA that is
included from the evidence sample.


                                              9
and one reagent blank are analyzed along with the DNA samples. The positive
control tube contains the reagents necessary for amplification plus DNA from a
source for which the DNA profile is known. Since the scientists know the
correct test results for the positive control, it allows them to determine the
accuracy and performance of the amplification and analysis processes. The
negative control tube contains all of the reagents used for amplification. The
reagent blank contains all of the reagents used to process an item of evidence
from extraction through electrophoresis. DNA from the evidence is not added
to these controls, though their contents are amplified. The purpose of the
negative control and the reagent blank is to reveal any contamination that is
present in the reagents or introduced during the testing process.11

                               TYPES OF DNA CONTROLS

         Positive Control               Reagent Blank                 Negative Control
Material Amplification                  All reagents                  Amplification
Tested   reagents and known                                           reagents
         DNA
         Accuracy and                   Presence of                   Presence of
Reveals performance of the              contamination                 contamination
         amplification and              introduced at any             introduced during
         analysis processes             point in the analysis         the amplification
                                        process                       process

       After the DNA has been amplified, the newly formed DNA fragments are
sorted according to length (i.e., number of short tandem repeats) using
electrophoresis. In general, electrophoresis is performed by adding DNA to one
end of a piece of gelatinous material which contains tiny holes that allows the
material to function as a molecular sieve. An electric current is applied across
the material, causing the DNA fragments to move. Since it is easier for smaller
fragments to move through the material, the smaller fragments move farther
than the larger fragments. As a result, at the end of electrophoresis the DNA
fragments are sorted by size. The size of the DNA fragments is determined by
comparing the distance each fragment moved to the distances moved by the
fragments of known size. The results of electrophoresis are illustrated in the
following graphic.




      11   Unless otherwise noted, references to “negative controls” also include reagent blanks.


                                               10
Source: www.accessexcellence.org/AB/GG/forensci_PCR.html ©1998 by Alberts, Bray,
        Johnson, Lewis, Raff, Roberts, Walter. Published by Garland Publishing, a member of
        the Taylor and Francis Group.

       D.     Capillary Electrophoresis

       The principles described above also apply to capillary electrophoresis, a
form of electrophoresis employed by the DNAUI. Its distinguishing
characteristic is that the electrophoresis occurs inside a capillary tube (a very
thin glass tube, comparable to a human hair) with a sieving material inside,
rather than on a piece of gelatinous material. Capillary electrophoresis is an
automated process that analyzes many DNA samples and requires minimal
involvement by DNA scientists after the initial set-up procedures are
completed. These procedures include cleaning and calibrating the
electrophoresis machine and preparing the amplified DNA for analysis.

       To prepare amplified DNA for capillary electrophoresis, the DNA scientist:

              •      Places a sufficient number of empty tubes in a rack;




                                            11
              •       Adds water for dilution and internal size standard12 to each
                      of the empty tubes;

              •       Adds an appropriate amount of one of the following to the
                      tubes containing the internal size standard:

                      -        amplified DNA from known samples, unknown or
                               evidentiary samples, or the positive control;

                      -        amplified negative control or reagent blank; or

                      -        an allelic ladder,13 which contains the more common
                               alleles in the general population for specific
                               chromosomal locations; and

              •       Seals the tubes with soft rubber caps.

       Once the tubes are sealed, the rack is ready to be placed on the capillary
electrophoresis machine. A sample list is prepared which identifies the
location of each sample on the rack and makes it possible for the machine’s
computer to locate a specific sample. An injection list is also prepared which
tells the computer the order in which the samples are to be analyzed. The
capillary electrophoresis machine has a probe that punctures the soft rubber
caps on the tubes and withdraws a specific amount of sample. The sample is
drawn up into the capillary tube (referred to as injecting the sample) where the
electrophoresis is completed.

       As mentioned previously, the primers used during amplification contain
fluorescent markers that allow the DNA fragments to be detected by lasers.
The manufacturer of the capillary electrophoresis machine has developed
proprietary software to display the test results and to aid in their
interpretation. Using this software, the capillary electrophoresis machine
determines the size of the DNA fragments in a sample based on the information
detected by the lasers. The machine and the software then represent the
lengths of the various fragments as peaks on a graph as illustrated on the
following page:




       12 The internal size standard contains DNA fragments of known sizes that provide

reference points for determining the length of the sample’s DNA fragments.

       13Allelic ladders are used like molecular rulers to help “measure” the lengths of the
fragments in the reference and evidentiary samples.


                                              12
                                                     Amplified DNA Peaks
                                                      (except red peaks)




GeneScan® View: raw data for a Positive Control (9947A) prepared according to protocol.
Peaks depicted in red originate from the internal size standard added to each sample.

       The proprietary software has two components, GeneScan® and
Genotyper®.14 Data viewed in GeneScan®, as appears above, is the raw,
unanalyzed, collection data that reflects everything the laser detects, including
interference that is common in electrophoresis instruments (Genescan® data).
Genotyper® allows forensic scientists to take GeneScan® data and display it in
a format that conceals background noise and peripheral information, and to
focus their review on the results of the control and evidence samples. An
example of a Genotyper® display is presented on the following page:




       14   We provide additional information regarding this software in Appendix 2.


                                               13
                                        Allelic Ladders




                                         DNA Sample
                                          Allele Calls



Genotyper® View: COFiler Ladder with Positive Control Allele call

       Information collected during these analyses is used to assemble the DNA
profile. As mentioned previously, two points of reference are used to help the
software as it determines the lengths of the DNA fragments detected during
electrophoresis: 1) the GeneScan® software uses the internal size standard,
which contains DNA fragments of known sizes; and 2) the Genotyper® software
uses allelic ladders as a point of comparison for the designation of the number
of repeats in the DNA sample at particular chromosomal locations, since the
peaks within the allelic ladder correspond to known fragment lengths at those
locations. The DNA Examiner then works with the Genotyper® graphs, similar
to the one above, looking for any peripheral information that should be
considered. Unless contamination is detected or other complications disrupt
the testing, the Examiner then documents what the allele values are at each of
the chromosomal locations analyzed (usually 13 chromosomal locations are
examined), which, once compiled, constitute a DNA profile. See Appendix 1 for
an example of a complete DNA profile and the corresponding GeneScan® and
Genotyper® graphs.


II.    STANDARDS GOVERNING FORENSIC DNA ANALYSIS

       The creation of national standards for DNA analysis played a pivotal role
in establishing the integrity of the DNA testing process. In addition, by
adhering to these standards, DNA laboratories, including the FBI’s DNAUI,
have been able to attest to the validity and reliability of their DNA testing
results.




                                              14
       A.     Sources of DNA Standards

      Forensic DNA laboratories, particularly those participating in the FBI’s
Combined DNA Index System (CODIS),15 have relied upon three primary
sources of operational standards since the first forensic DNA laboratories were
established in the late 1980’s: 1) the Technical Working Group on DNA
Analysis Methods (TWGDAM); 2) the DNA Advisory Board; and 3) the FBI’s
National DNA Index System (NDIS) program office.

       TWGDAM was one of several technical working groups sponsored by the
FBI. The goal of the working groups was to improve communication between
the various scientific disciplines and to build consensus within the federal,
state, and local forensic communities. TWGDAM was established in 1989 with
representatives from 12 federal, state, and local laboratories, and focused
specifically on the development of forensic DNA methods. Later that same
year, TWGDAM developed and published in the Crime Laboratory Digest16 a set
of quality guidelines for forensic DNA laboratories.17 TWGDAM expanded these
guidelines in 1991 and in 1995.18 In addition, TWGDAM worked with the
National Institute of Standards and Technology (NIST) to develop model
reference material that laboratories across the country could use to gauge the
reliability of their equipment and DNA testing processes. In January 1999,
TWGDAM was renamed the Scientific Working Group on DNA Analysis
Methods (SWGDAM),19 and in that capacity produced additional guidance for
the forensic community, including guidelines for data interpretation, training,
quality assurance, and health and safety audits.



        15 For a description of CODIS, see discussion in Chapter Three, Section I.B.1. CODIS

is a national DNA information repository that allows public laboratories across the country to
store and compare DNA profiles from crime scene evidence, from convicted offenders, and from
unidentified remains.

       16 The Crime Laboratory Digest was superseded by Forensic Science Communications in
April 1999. Forensic Science Communications is a peer-reviewed forensic science journal
published quarterly in January, April, July, and October by FBI Laboratory personnel.

       17 Technical Working Group on DNA Analysis Methods, “Guidelines for a quality
assurance program for DNA restriction fragment length polymorphism analysis,” Crime
Laboratory Digest, Vol. 16, 1989, pp. 40–59.

       18 Technical Working Group on DNA Analysis Methods, “Guidelines for a quality

assurance program for DNA analysis,” Crime Laboratory Digest, Vol. 18, 1991, pp. 44-75;
Technical Working Group on DNA Analysis Methods, “Guidelines for a quality assurance
program for DNA analysis,” Crime Laboratory Digest, Vol. 22, 1995, pp. 21–43.

       19 TWGDAM was renamed SWGDAM after the Department of Justice, Office of Justice
Programs, created short-term technical working groups that began to be confused by members
of the DNA community with the FBI’s long-term technical working groups.


                                             15
      While no formal legal authority was granted to TWGDAM and SWGDAM,
the guidelines they produced were accepted by the Laboratory Accreditation
Board of the American Society of Crime Laboratory Directors as the benchmark
for DNA laboratory accreditation. Further, when Congress authorized the
creation of CODIS in the DNA Identification Act of 1994,20 it provided that the
guidelines issued by TWGDAM would be deemed to be national standards until
the FBI issued its own standards pursuant to the Act.

       The second source of DNA standards is the FBI DNA Advisory Board
(Board). In the DNA Identification Act, Congress required that the FBI
establish an advisory board to develop national quality assurance standards
governing all CODIS participants.21 As a result, the FBI established the Board,
which was formally constituted on March 10, 1995.22 Its members were
appointed by the FBI Director based upon nominations from a variety of
forensic and science organizations,23 and included forensic scientists from
state, local, and private forensic laboratories; molecular and population
geneticists; a NIST scientist; a quality control specialist; an ethicist; and a
judge. The Board’s mission was to develop and revise, as necessary, standards
for quality assurance, including proficiency testing standards for laboratories
and analysts that examine DNA. The Board members acknowledged that
TWGDAM had begun this work and that the Board should build upon it.

      The Board fulfilled its mission with the submission to the FBI Director of
quality assurance standards for two types of DNA laboratories:

       •        Quality Assurance Standards for Forensic DNA Testing Laboratories
                (Forensic Standards), effective October 1998.

       •        Quality Assurance Standards for Convicted Offender DNA
                Databasing Laboratories (Offender Standards), effective April 1999.

Amendments to these standards must be approved by the FBI Director.
Recommendations for changes can be requested through SWGDAM.




       20 Section 210301 to 210306 of Title XXI of Pub. L. 103-322, September 13, 1994, 108
Stat. 2065.

       21   42 U.S.C. 14131(a)(1).

        22 The Board was dissolved in December 2000 after a several month extension of its

original charter of 5 years.

       23 These organizations included the American Academy of Forensic Scientists, the
American Board of Criminalists, the American Society of Crime Laboratory Directors, and the
National Academy of Sciences.


                                             16
      The third source of DNA standards is the FBI NDIS program office,
currently within the Laboratory Division’s CODIS Unit (see the organization
chart on page 24 for the placement of the CODIS Unit within the Division). The
NDIS office has issued programmatic rules that govern the exchange of
information for NDIS participants and has established standards for the
submission of DNA data, collectively referred to as NDIS Requirements.

       B.     Overview of Applicable DNA Standards

      At present, three sets of standards govern the DNA activities of the
DNAUI: 1) Quality Assurance Standards; 2) NDIS Requirements; and
3) Accreditation Standards. These standards are interrelated: to comply with
the Quality Assurance Standards, a laboratory is supposed to pursue
accreditation actively; to become accredited, a laboratory must demonstrate
compliance with the Quality Assurance Standards; and to become a participant
in NDIS, a laboratory must demonstrate compliance with both the Quality
Assurance Standards and the NDIS Requirements. We describe each of the
standards below.

              1.     Quality Assurance Standards

       Quality Assurance Standards consist of two sets of standards:
1) Forensic Standards that govern the activities of DNA laboratories that
analyze crime scene evidence, and 2) Offender Standards that govern the
activities of DNA laboratories that analyze samples from convicted offenders.
The Forensic Standards contain 155 requirements organized under 15
headings, and the Offender Standards contain 136 requirements also organized
under 15 headings.24 For complete versions of the Forensic and Offender
Standards, see Appendix 3.

       The key categories of requirements addressed in the two sets of
Standards, which correspond to section headings in the Standards, are the
following:

       •      Quality Assurance Program: written guidelines should be adopted
              and should contain the required categories of standards.

       •      Organization and Management: key roles and duties should be
              described in writing, as should the interrelation between the
              personnel involved in DNA analysis.



       24A high degree of overlap exists between the two sets of standards. A total of 119
requirements are shared (identical or similar), 36 requirements are unique to the Forensic
Standards, and 17 requirements are unique to the Offender Standards.


                                             17
•   Personnel: personnel filling key roles should be properly educated,
    trained, and should perform duties appropriate to their position.

•   Facilities: the design of the laboratory should ensure security and
    minimize contamination.

•   Evidence Control (Forensic Standards only) and Sample Control
    (Offender Standards only): to ensure the integrity of evidence and
    of offender samples, and their proper disposition, the laboratory
    should have a documented control system and adequate
    implementing procedures.

•   Validation: the laboratory should demonstrate that its analysts
    are capable of using certain equipment and methods properly.

•   Analytical Procedures: every procedure used by the laboratory in
    DNA analysis should be described in detail in writing and formally
    approved by laboratory management.

•   Equipment Calibration and Maintenance: the laboratory should
    establish a written program for ensuring that equipment used for
    DNA analysis receives regular calibration and maintenance in
    accordance with recognized national standards.

•   Reports: the laboratory should have written guidelines for
    maintaining documentation that supports reported conclusions
    regarding case evidence. Reports should describe with specificity
    the information collected and written policies should exist to
    govern the release of such information.

•   Review: administrative and technical reviews should be conducted
    of all reports and supporting documentation for all evidence. The
    testimony of analysts in court should also be reviewed.

•   Proficiency Testing: scientists performing DNA analysis should
    complete an external proficiency test (a test from an outside agency
    or commercial test provider that measures an analyst’s skill in
    performing DNA analysis correctly) every 180 days, which should
    be reviewed and documented.

•   Corrective Action: written procedures should exist governing a
    laboratory’s documentation and resolution of errors made during
    proficiency testing and DNA analysis.




                              18
       •        Audits: the laboratory should undergo an audit every year, and at
                least every other year this audit should be conducted by an
                external entity.

       •        Safety: the laboratory should have and follow a written
                environmental health and safety plan.

       •        Subcontractor of Analytical Testing for Which Validated Procedures
                Exist: a laboratory making use of a subcontractor for any part of
                the DNA analysis process should establish certain specified
                controls to ensure the integrity of the subcontractor’s work and
                results.

                2.     NDIS Requirements

       NDIS Requirements are found in the Memorandum of Understanding
(MOU) signed by the FBI and each NDIS participant. The MOU requires that
signatories comply with general requirements already established (i.e., federal
legislation, the Forensic and Offender Standards) as well as requirements
specific to the national index that accompany the MOU in three appendices:
NDIS Responsibilities (Appendix A); NDIS Data Acceptance Standards
(Appendix B); and the NDIS Procedures Manual (Appendix C).25

                3.     Accreditation Requirements

      The primary accreditation or certification entities for forensic and
offender DNA laboratories are the American Society of Crime Laboratory
Directors – Laboratory Accreditation Board (ASCLD-LAB) and the National
Forensic Science Technology Center (NFSTC). Both groups draw upon the
requirements set forth in the Forensic and Offender Standards for their
evaluation of a public DNA laboratory’s operations.


III.   ACCREDITATION AND STANDARDS COMPLIANCE

      While TWGDAM/SWGDAM and the Board were pivotal in creating
standards for DNA laboratories, they lacked the means to enforce them. To
compensate for this shortcoming, the Board adopted an “Accreditation
Premise” which set forth the Board’s expectation that standards compliance
would be assured through the process of accreditation. Accrediting
organizations would need to adopt and hold laboratories accountable for
compliance with the Board’s standards. The Board acknowledged that a
weakness in this approach was the lack of any enforceable requirement that

       25   We provide a detailed description of these appendices in Appendix 4.



                                               19
laboratories be accredited, even for CODIS participation. In an attempt to
address this problem, the Board passed a resolution in February 1999 stating
that unaccredited laboratories should seek accreditation “with all deliberate
speed.” In addition, this language was used in the preface to the Forensic and
Offender Standards to emphasize the importance of accreditation.26

       Compliance with DNA-related standards is an issue previously examined
by the OIG. In 1999, the OIG performed an audit of CODIS to determine the
extent of state and local CODIS participation and to verify compliance with the
FBI's quality assurance standards and national index requirements.27 In the
report summarizing its findings,28 the OIG explained that the FBI’s practice at
the time of audit fieldwork was to allow CODIS and NDIS participants to self-
certify their compliance with the Quality Assurance Standards and with NDIS
Requirements. Because the OIG believed this system of self-certification posed
a high risk of undetected noncompliance, the OIG undertook compliance
testing of various CODIS participants and subsequently identified multiple
instances where the participants were not fully complying with national
standards. In addition, while the OIG noted that all audited laboratories had
complied with the Forensic and Offender Standards’ annual audit
requirement,29 weaknesses were noted with some of the external audits:
1) audit findings were not binding on the laboratories (they could disregard
them if they wanted); 2) although accreditation and certification agencies had
the authority to ensure a laboratory took appropriate corrective action,
accreditation or certification audits did not typically focus on compliance with
the quality assurance standards; and 3) laboratory audits were not always
performed consistently. From these observations, the OIG recommended that
the FBI develop and implement a process that would ensure that laboratories
resolve all deficiencies noted during the external audits.

       In response to the OIG’s findings and recommendations, the FBI
developed a new operational procedure, called National DNA Index System
(NDIS) Review of External Audits, which provides for the formation of several
NDIS Audit Review Panels. Each panel consists of four qualified or previously
qualified DNA examiners or analysts selected from the FBI and state or local
laboratories, with the chief of the FBI Laboratory’s Quality Assurance and
       26 Despite these efforts, according to an FBI Laboratory study conducted in 1999, of
153 laboratories surveyed (64 local, 87 state, and 2 federal), only 87 were accredited. Of the
accredited laboratories, 71 were accredited by ASCLD-LAB.

       27   CODIS is described in greater detail in Chapter Three, Section I.B.1.

       28 The OIG audit report, The Combined DNA Index System,” Report No. 01-26, was

issued in September 2001. See http://www.usdoj.gov/oig.

       29 The Forensic Standards and Offender Standards both require that laboratories
undergo, every other year, a quality assurance audit conducted by external auditors. Internal
audits conducted by in-house auditors are required during the alternating years.


                                                20
Safety Unit serving as chairperson. All panelists are required to have
completed successfully FBI quality assurance audit training. Under the new
procedure, NDIS participating laboratories must forward to a review panel, via
the custodian of the NDIS database, a copy of their external audit report, their
response to the report, and corrective action plans that address the audit
report recommendations. The panel reviews the audit report and related
documents to determine if all findings and recommendations have been
addressed adequately and/or resolved. If the audited laboratory does not
respond to clarification requests by the panel, does not resolve an audit
recommendation, or is determined to be non-compliant with the quality
assurance standards, a corrective action and conflict resolution process can be
invoked. A laboratory’s failure to resolve a panel’s concern can result in the
termination of its access to NDIS.

        In addition to these compliance procedures, the FBI created a
standardized DNA audit guide (Guide) with input from the Board, ASCLD-LAB,
and NFSTC to ensure that auditors of local, state, and federal DNA laboratories
are thorough and interpret the Quality Assurance Standards consistently. The
FBI offers Guide training for auditors, including those representing accrediting
and certifying organizations such as ASCLD-LAB and NFSTC. For an audit to
fulfill the Quality Assurance Standards’ external audit requirement, it must be
conducted in accordance with the Guide and by an auditor trained in its use.
However, as this report details, even with these precautions, internal control
weaknesses are not always uncovered in quality assurance audits. In fact,
weaknesses in DNAUI procedures and protocols allowed a technician routinely
to disregard required steps in the analysis of DNA, even while the Unit received
clean audit reports from both internal and external auditors and while the Unit
was accredited by ASCLD-LAB.




                                       21
                      CHAPTER THREE
       THE FBI’S DNA LABORATORY AND DNA PROTOCOLS

       The FBI enforces over 200 federal laws and has jurisdiction to investigate
all federal criminal violations not specifically assigned by Congress to another
federal agency. Its investigations routinely address matters such as
counterterrorism, foreign counterintelligence, organized crime, civil rights, and
financial crime. As part of its law enforcement mission, the FBI also is
authorized to provide other law enforcement agencies with cooperative services,
such as fingerprint identification, laboratory examinations, and police training.
Because the successful investigation and prosecution of crimes requires, in
many cases, the collection, preservation, and forensic analysis of evidence, the
FBI Laboratory Division and the forensic science specialties available to it are a
central component of FBI operations.


I.    THE FBI LABORATORY DIVISION

       The FBI Laboratory provides leadership in the scientific analysis and
prosecution of crimes throughout the United States. It is the only full-service
federal forensic laboratory and is one of the largest forensic laboratories in the
world. According to the FBI, Laboratory activities further three primary goals:
1) to provide forensic services to the FBI and other law enforcement agencies;
2) to deploy effective communications, collection, and surveillance capabilities
to support investigative and intelligence priorities; and 3) to provide technical
and forensic assistance through research, training, technology transfer, and
access to information and forensic databases. The Laboratory seeks to meet
these goals through forensic examinations, investigative operations support,
research and development, application of information technology, and training.

      Laboratory personnel conduct scientific examinations of evidence, free of
charge, for federal, state, and local law enforcement organizations within the
United States. As part of these examinations, Laboratory personnel may
analyze physical evidence ranging from blood and other biological materials to
explosives, drugs, and firearms. According to the FBI, the Laboratory conducts
more than one million examinations each year.

      In March 2003, the Laboratory moved to its new facility in Quantico,
Virginia, resulting in the relocation of approximately 650 Laboratory
employees. The design of the new facility is meant to provide for ideal security
and evidence control. Offices and public areas are separated from the
laboratory areas to avoid evidence contamination. Also, laboratory areas are




                                        22
accessed through “biovestibules” that are meant to provide storage and serve
as airlocks between laboratories and offices.30

       A.      Structure of the Laboratory Division

       The Laboratory is located organizationally within the Law Enforcement
Services Directorate of the FBI. It is comprised of various branches, divided
into sections, which are further broken down into units. The subject of this
review, the DNAUI, is part of the Scientific Analysis Section, as shown in the
following Laboratory organizational structure:




       30  Additional information about our assessment of the DNA Analysis Unit I (DNAUI)
portion of the new Laboratory building is contained in Chapter Five, Section II.B.1.a of this
report.


                                               23
                   Federal Bureau of Investigation


                Office of the Director & Deputy Director


      Executive Assistant Director for Law Enforcement Services


                           Laboratory Division



Forensic Analysis Branch                         Operational Support Branch


     Forensic Analysis Section                       Operational Response Section


     Cryptanalysis & Racketeering Records Unit                     Bomb Data Center

            Firearms / Toolmarks Unit                        Evidence Response Team Unit

                Latent Print Unit 1                        Hazardous Materials Response Unit

                Latent Print Unit 2                 Forensic Science Support Section

                Latent Print Unit 3
                                                           CT Forensic Science Research Unit
            Questioned Documents Unit
                                                                 Evidence Control Unit
     Scientific Analysis Section
                                                            Quality Assurance & Safety Unit

                   CODIS Unit                                         Training Unit

                  Chemistry Unit                      Operational Support Section

              ChemBio Sciences Unit
                                                                  Administrative Unit
                    DNA Unit 1
                                                        Investigative & Prosecutive Graphics Unit
                    DNA Unit 2
                                                               Special Photographic Unit
                  Explosives Unit
                                                                     Structural Unit
               Trace Evidence Unit




                                        24
      B.    DNA Analysis Unit I

            1.    Organization and Functions

       In 1988, a DNA Analysis Unit was established in the Laboratory. Prior to
that time, body fluid examinations were performed by the Serology Unit.
Although the DNA Analysis Unit was split into two units in 1993, they were re-
joined in 1994. In 1998, the DNAUI and DNA Analysis Unit II (DNAUII) were
formed. DNAUII was created when the Laboratory established a separate group
to analyze a different type of DNA than is analyzed by the DNAUI.

       The DNAUI analyzes nuclear DNA, or DNA found in the nucleus of a cell,
while DNAUII analyzes mitochondrial DNA, or DNA found in the mitochondria
of a cell. The mitochondria are about the size of bacteria and are scattered
throughout a cell outside its nucleus. Since there are between 500 to 1,000
mitochondria in every cell, as opposed to one nucleus, mitochondrial DNA
analysis affords a better chance of a DNA profile than nuclear DNA analysis in
cases where a sample is decayed or degraded, such as skeletal remains that
have been exposed to the elements for years. Consequently, the DNAUII
receives and analyzes evidence samples and human remains that have not, or
most likely will not, generate a traditional STR profile, such as teeth or pieces
of bone that have no tissue attached. These types of evidence items are
common in cases involving unidentified remains and missing persons. DNAUII
receives evidence from across the country, since the specialized equipment,
training, and facilities that are required for mitochondrial DNA analysis are
usually beyond the resources of state and local laboratories. Further, because
mitochondrial DNA analysis is more sensitive to trace amounts of DNA than
STR analysis, it requires even greater safeguards in facilities and techniques to
avoid contamination.

       The DNAUI identifies and characterizes body fluids and body fluid stains
recovered as evidence in crimes using traditional serological techniques and
related biochemical analysis. These stains are analyzed and compared to
results from the known body fluid samples submitted by the victim(s) and/or
suspected perpetrator(s). This work is completed in the DNAUI in assembly-
line fashion by teams of forensic scientists, which include a Serologist, a PCR
Biologist, and an Examiner. The following chart represents the organization of
the DNAUI:




                                       25
                                                     DNA Analysis Unit I Organizational Chart                      *
                                                                          Unit Chief
                                                                       Technical Manager
                                                                           Examiner

                                       Assistant Unit Chief                            Assistant Unit Chief
                                 Training/Validation Program Mgr.                     PCR Program Manager
                                             Examiner                                       Examiner




                      Serology Biologist                PCR Biologist                       PCR Mentor
                                                                                            PCR Biologist

                     Quality Assurance &
                     Validation Biologist

                                   Quality Assurance Biologist                      Quality Assurance Specialist




   Federal Convicted Offender                 Serology Program Manager              CODIS Program Manager              Indian Country Evidence (ICE)
   Program (FCOP) Manager                        Casework Examiner                    Casework Examiner                      Program Manager
        FCOP Examiner                                BSP Analyst                                                         Missing Persons Samples
                                                                                                                            Casework Examiner


           FCOP Examiner                              Serology Mentor                       PCR Biologist                     Serology Biologist
                                                     Serology Biologist

                                                                                       Serology/PCR Biologist               Serology/PCR Biologist
            Serology Biologist                         Serology Trainee

           FCOP Examiner                               Serology Trainee                    CODIS Biologist                      PCR Biologist

                                                       PCR Biologist
           FCOP Examiner


           FCOP Biologist


    Blood Stain Pattern (BSP)                   Hiring Program Manager               Information Technology
        Program Manager                            Serology Examiner                    Program Manager
       Casework Examiner                                                               Casework Examiner
          BSP Analyst


          Serology Biologist                         Serology Biologist                    Serology Biologist


        Serology/PCR Biologist                                                         Serology/PCR Biologist




    *   Various personnel are cross-trained in both serology and PCR, and Examiners also serve as managers of various programs. See
        Chapter Three, Section I.B.2.b for additional information on team member roles and responsibilities.



      The DNAUI participates in CODIS, which is administered by the CODIS
Unit within the Laboratory. CODIS is a national DNA information repository
that allows local, state, and federal crime laboratories to store and compare
DNA profiles from crime scene evidence, from convicted offenders, and from
unidentified remains. The FBI provides participating laboratories with special
software that organizes and manages their DNA profiles and related
information, including enabling participating laboratories to compare DNA


                                                                          26
profiles. CODIS is organized as a hierarchy that encompasses national, state,
and local indexes. DNA profiles are uploaded into the national index from the
state indexes and into the state indexes from the local indexes. The forensic
laboratories at each level of the CODIS hierarchy decide which DNA profiles will
be uploaded to the next level, and conversely, the state and national levels
determine, based upon applicable state and federal legislation, what profiles
they will accept from the local and state indexes.

       The DNAUI operates at the “state index” level, meaning that it uploads
directly to the national database, or NDIS. The DNAUI has been uploading
profiles to NDIS since September 1998. As of February 2004, the DNAUI had
submitted approximately 1,602 forensic profiles (DNA profiles resulting from
forensic or crime scene analysis work) to NDIS. According to DNAUI
management, the Unit uploads approximately 30 forensic profiles per month to
the CODIS database. In addition, the DNAUI oversees the Federal Convicted
Offender Program, which involves analyzing known DNA samples from
convicted felons in the federal system and uploading the resulting profiles to
NDIS for comparison to crime scene evidence profiles from across the country.
As of February 2004, the DNAUI had uploaded 213 offender profiles to NDIS.31

      One of the goals of CODIS is to match DNA profiles from case evidence to
other previously unrelated cases or to persons already convicted of other
crimes. To determine the extent to which this goal is being met, the CODIS
Unit has collected statistics from CODIS participants on the number of
investigative leads that have been provided through CODIS’ match capabilities.
As of February 2004, the DNAUI reported a total of 187 investigations aided by
CODIS.32

               2.      Operations

                       a)     Flow of Evidence to DNAUI

      At the time of our review, the Laboratory’s Information and Evidence
Management Unit, and specifically the Evidence Control Center (ECC) within
that Unit, received all incoming evidence for the Laboratory.33 The ECC staff
       31 The DNAUII, also a CODIS participant, oversees the National Missing Persons DNA
Database Program. Because missing persons’ remains are frequently too deteriorated for
nuclear DNA analysis, mitochondrial DNA analysis often is the only forensic option. The
DNAUII also facilitates the collection and analysis of reference samples from relatives of
missing persons for comparison to unidentified remains that are found as a means of
determining their identity.

        32 CODIS's primary metric, the "Investigation Aided," is defined by the FBI as a case

that CODIS assisted by producing a match between profiles (linking two cases together, or
linking a case profile to an offender profile) that would not otherwise have been developed.

       33   By the date of this report, the ECC was reorganized into the Evidence Control Unit.


                                               27
were responsible for ensuring that the evidence was sealed properly and that
its receipt by the FBI was formally documented on a chain-of-custody form.
The ECC staff would open the outer layer of packaging to retrieve the
submission paperwork and the individually packaged sealed evidence
containers. The ECC staff then would review the submission letter to
determine the contents of the sealed container and what tests were requested.
In addition, ECC staff labeled each evidence container with unique identifying
numbers, as well as a Laboratory case number that would link it with other
items received on the same case. Those identifiers, along with the information
about the submitter and contents, were entered into the ECC’s tracking
system.

      After all intake work was completed, the evidence was placed in secured
storage where it would not deteriorate. The ECC then assigned the evidence to
a specific unit within the Laboratory, termed the “primary unit.” The primary
unit was selected based upon an evaluation of the submission paperwork, from
which ECC staff determined which unit would need to complete its work first to
avoid contamination or deterioration of the evidence and/or would be
conducting the most testing. Due to the nature of DNA evidence and its
sensitivity to contamination, the DNAUI often served as the primary unit.

      After the primary unit assignment was documented in the ECC system,
the evidence was transferred to the designated unit and the necessary chain-of-
custody documentation was completed. Within the primary unit, a
coordinating Examiner was assigned to ensure that the evidence was routed in
the proper order to all other units that will be performing tests on the various
items of evidence.34

      Throughout the analysis process, FBI policy requires that the chain-of-
custody documentation be maintained to reflect all inter-unit transfers and to
record which personnel processed the evidence. As part of this policy, after all
laboratory analysis is completed, an inventory is performed to ensure that the
evidence is accounted for. The evidence and all by-products of the analysis
process are then repackaged and transferred back to the ECC for return to the
submitter.

                     b)     Team Structure

     In those instances where the primary unit is the DNAUI, the coordinating
Examiner works with a Serologist and PCR Biologist as a team to inventory


       34  During our fieldwork, we were notified by the DNAUI Unit Chief that new procedures
were being drafted and tested. By the date of this report, staff of the Evidence Control Unit
have taken the place of the coordinating Examiner and are responsible for the routing,
tracking, and administration of evidence movement throughout the Laboratory.


                                             28
evidence items, perform preliminary testing to identify and isolate sources of
DNA on those items, and analyze any resulting DNA.

      Teams in the DNAUI are divided into a form of assembly line, and each
member of the team completes a portion of the analysis process and shares in
the responsibility for that process. The three team members and their duties
and responsibilities are as follows:

      1) The Serologist assists with the initial and final evidence inventories
and performs serology testing to determine what body fluids may be present in
the evidence. Once body fluid screening is completed for a stain on an item of
evidence, a portion of that stain is transferred to the PCR Biologist.

       2) The PCR Biologist (the position held by Blake) is responsible for
taking cuttings, swabs, or other material containing DNA from the Serologist
and completing the PCR/STR process through the production of GeneScan®
and Genotyper® data for the Examiner. Included in this process are the
following activities:

      •     Extraction: the release or removal of DNA from evidence;

      •     Quantification: the measurement of the concentration of DNA in a
            sample;

      •     Amplification: the replication of extracted DNA so that the DNA
            can be detected by the analyzer or a capillary electrophoresis
            machine;

      •     Capillary electrophoresis: the use of a capillary electrophoresis
            machine to detect and measure the DNA fragments in a DNA
            sample; and

      •     Initial data review: the review of all data produced by the capillary
            electrophoresis instrument that is collected and analyzed by the
            Genescan® software.

       3) The Examiner on each team serves as the first-line supervisor for the
team members and are responsible for the work performed by them. Further,
unless otherwise specified in written protocols and procedures, the Examiners
are given sufficient autonomy to direct how the team will function. Examiners
typically can assign work, structure communications, define the decision-
making authority of other team members, and specify the level of direct
involvement of the Examiner in the work of the other team members.




                                       29
       The Examiner on the team is supplied with all of the documentation from
the Serologist and PCR Biologist, as well as the data produced from the
capillary electrophoresis process (complete with sample lists, injection lists,
and Genotyper® data). The Examiner is responsible for ensuring that:

      •     The decisions made by the Serologist (if not made in direct
            interaction with the Examiner) are sound, and that all evidence
            items are inventoried, examined, and transferred to the PCR
            Biologist properly;

      •     The decisions made by the PCR Biologist (if not made in direct
            interaction with the Examiner) are sound, and that DNA is
            extracted from all appropriate sources, quantification is completed
            correctly, batches of samples contain the required positive and
            negative controls and reagent blanks, and capillary electrophoresis
            is completed correctly;

      •     Chain-of-custody forms and case file documentation are completed
            properly; and

      •     The actions taken by the team members, as revealed by the written
            documentation supplied to the Examiner, are in accordance with
            DNAUI procedures and policies.

       In addition, the Examiner is responsible for reviewing the filtered
capillary electrophoresis data, or Genotyper® data, and drawing conclusions
about the usability of that data based upon the control results. For this
review, the sample and injection lists serve as a guide to show the order that
the samples were analyzed and to indicate the presence of the appropriate
control samples. Each Examiner decides whether to complete this data review
from printouts or directly from the electronic data on the computer. If there
are data quality problems, or control result problems, then the Examiner will
work with the PCR Biologist to troubleshoot those issues. Otherwise, the
Examiner proceeds to draw conclusions about the evidence based upon the
data generated from the capillary electrophoresis. The Examiner then writes a
report stating those conclusions and, if necessary, later testifies in court about
them.

       After the discovery of Blake’s misconduct, the DNAUI changed its policies
to require that the GeneScan® data be supplied to and reviewed by the
Examiner, as well as the Genotyper® data, since it was the failure of Examiners
to review GeneScan® data that allowed Blake to proceed undetected. See
generally Chapter Four, Section II (describing the DNAUI GeneScan® review
policy) and Chapter Four, Section V.C (describing the Laboratory’s initial
remedial actions after the discovery of Blake’s misconduct).


                                        30
                  c)     Case Documentation and Review

      DNAUI team members demonstrate compliance with the Laboratory’s
protocols primarily through the documentation that they produce as they
perform their work. Although the Examiner can be involved at critical
junctures in the DNA analysis process, the Examiner does not witness most of
the work performed. Consequently, team members must thoroughly document
their work in the case file to establish for the Examiner that they have followed
the applicable protocols.

     According to DNAUI personnel and the written procedures for case file
documentation, a case file should include the following:

      •     Incoming submission letter;

      •     Acknowledgment letter (the letter that is sent to the submitter of
            the evidence to acknowledge receipt);

      •     Communication log;

      •     Chain-of-custody form;

      •     Search sheet (a sheet produced by the ECC advising unit staff
            whether previous submissions of evidence on that same case have
            been received, so that individual items can be sequentially and
            uniquely labeled throughout the case);

      •     Evidence inventories (listing of the items received, the submitter,
            and when the items were received);

      •     Task-specific case notes (includes a set of notes for serology work,
            PCR work, and examiner analysis);

      •     Capillary electrophoresis printouts;

      •     Population statistics calculations;

      •     Documentation of case file review;

      •     Administrative sheets (listing information specific to CODIS or
            DNAUI’s new information management system); and

      •     The file copy of the final DNA report.




                                       31
      Both technical and administrative case file reviews are required for every
DNAUI case. The initial technical review is performed by the team’s Examiner.
In addition, another Examiner who is not involved in the case performs an
independent technical review or peer review of the case file. The peer reviewer
draws his or her own conclusions from the supporting documentation without
regard to the conclusions or report produced by the first Examiner. The
results of these evaluations are then compared for consistency and any
discrepancies resolved. Finally, the Unit Chief conducts an administrative
review of the case file and examines the order and completion of the case file
documents, report format, and other administrative items.

      According to DNAUI personnel, a thorough technical or peer review
generally involves checking:

      •        The incoming letter to verify the accuracy of the file worksheets,
               specifically confirming: 1) names; 2) exams requested;
               3) evidentiary samples received (referred to as unknown or
               questioned samples); 4) DNA reference samples received (reference
               samples are provided by the victim and/or suspected perpetrator(s)
               for comparison purposes, and are often referred to as known
               samples); 5) case ID number; and 6) any other identifiers or
               miscellaneous information applicable to the case.

      •        The chain-of-custody documents to verify that they reflect the
               disposition of every item;

      •        Each page of laboratory documentation to verify that it is
               numbered (so it will be evident if any pages are misplaced) and
               that every page is initialed by the team member who produced it;35

      •        The serology paperwork to verify that: 1) all pertinent serology
               information is recorded and is correct; 2) the required serology
               controls were run; 3) appropriate serology testing was performed,
               and 4) the Examiner agrees that no more serology testing should
               be performed; and

      •        The PCR paperwork to verify that: 1) the questioned and known
               samples were processed at different times; 2) the Examiner agrees
               with the quantification results; 3) all samples selected were
               amplified; 4) the worksheet that summarizes the DNA profile
               results (also referred to as a call sheet) agrees with the Genotyper®
               printouts; and 5) the technical parameters used to interpret the
               data are consistent with protocol requirements.


      35   See generally Chapter Four, Section II.B (discussing initialing requirement).


                                               32
       After the Examiner reviews these items, the Examiner (whether the initial
Examiner or peer reviewer) determines what conclusions and statistics should
be reflected in the report. For the peer reviewer, this determination is
compared with the actual case report to verify that both Examiners agree.
Finally, if the profile will be uploaded to CODIS, both reviewers confirm that
the identifying paperwork listing the DNA profile is correct, and that the profile
is appropriate for inclusion in the database.


II.    THE FBI’S DNA PROTOCOLS

       A.     Overview of Existing Protocols

      The activities of the DNAUI are governed not only by the Quality
Assurance Standards that apply to all forensic DNA laboratories (as described
in Chapter Two, Section II), but also by the FBI Laboratory’s own procedures
and protocols. These guidelines are contained in five FBI documents: 1) the
FBI Laboratory Division Quality Assurance Manual; 2) the DNA Analysis Unit I
Quality Assurance Manual; 3) the FBI Laboratory Division Caseworking
Procedures Manual; 4) the Procedures for the Serological Identification of
Biological Substances on Evidentiary Materials; and 5) the Short Tandem
Repeat Analysis Protocol. As explained in Chapter Five, Section I (Assessment
Foundation and Process), the OIG’s assessment of vulnerabilities in the
DNAUI’s internal control structure focused on these protocols.36 A brief
description of each document is provided below:

              1.     FBI Laboratory Division Quality Assurance Manual

       The FBI Laboratory Quality Assurance Manual addresses laboratory
policies and operational practices. It is organized into 17 sections and
identifies requirements and guidance for case documentation, evidence control,
court testimony and testimony monitoring, authorization of deviations,
corrective action, document control, calibration and maintenance, internal
audits, laboratory security, proficiency testing, and conflict resolution. The
document applies to all units in the Laboratory and therefore does not contain
guidance specific to the DNAUI.

              2.     DNA Analysis Unit I Quality Assurance Manual

      The DNAUI Quality Assurance Manual is organized into 20 sections and
covers topics including:


       36   The FBI Laboratory also has published five resource documents that add explanation
to the five manuals described above. These documents address issues such as calibration
procedures and training programs for Biologists and Examiners.


                                             33
      •     Organization, management, authority and accountability;
      •     Personnel qualifications, training, and continuing education;

      •     Facilities, security and evidence control;

      •     Case assignment, documentation and review;

      •     Reagents, equipment, and validation;

      •     Court testimony monitoring;

      •     Proficiency testing, audits, and corrective action; and

      •     Environmental health and safety.

            3.    FBI Laboratory Division Caseworking Procedures Manual

      The Caseworking Procedures Manual provides guidance for all units
within the Laboratory. It is divided into 12 sections, each covering a different
aspect of the caseworking process. Topics include:

      •     Processing a request for examination;

      •     Inventorying, identifying, recording, acknowledging, examining,
            shipping, and transferring evidence;

      •     Formatting, content, review, and issuance of a “Report of
            Examination”; and

      •     Retaining case-related documentation.

            4.    Procedures for the Serological Identification of Biological
                  Substances on Evidentiary Materials

      This document is written specifically for DNAUI Serologists and identifies
the methods and requirements for each of the serology procedures utilized by
the DNAUI. It contains 72 sections, describes 6 routine and 8 non-routine
serological procedures, and provides a general discussion of guidelines
regulating laboratory set-up.

            5.    Short Tandem Repeat Analysis Protocol

      The STR Protocol specifies the procedures and requirements for
processing DNA evidence using short tandem repeat (STR) analysis. See
generally Chapter Two, Section I.C (describing STR analysis). The document is


                                       34
divided into 46 sections and covers the major processes involved in STR
analysis, including extraction, quantification, amplification, electrophoresis,
data evaluation and interpretation, and report writing. In addition, the
Protocol provides information that applies generally to STR analysis, including
guidelines for reagents, supplies, and equipment; special quality control
considerations; and laboratory set-up instructions.

       The protocols above implement the Quality Assurance Standards that
apply to all forensic DNA laboratories. The national standards require
laboratories to develop and adhere to operational standards that are tailored to
their specific functions and circumstances. In general, these standards afford
laboratories broad discretion regarding the content of their written procedures.
See Section 9 “Analytical Procedures” in Appendix 3.

       B.     Protocols Designed to Protect the Integrity of the STR Process

      Certain DNA protocols are specifically designed to protect the integrity of
the STR process by helping to identify the presence of contamination and
prevent its occurrence. They include: 1) the required use of quality controls;
2) on-going cleaning and decontamination; and 3) the systematic separation of
sample sources and of stages in the analysis process.37

              1.      Quality Controls

       As discussed in Chapter Two, Section I (General Principles of DNA
Analysis) of this report, the use of positive and negative controls and reagent
blanks serves as an indicator of contamination and whether the equipment and
reagents functioned properly during the analysis process. The positive control
allows the PCR Biologist and Examiner to determine the accuracy and
consistency of the amplification and capillary electrophoresis processes each
time DNA samples are analyzed. The negative control and the reagent blank
reveal whether contamination was present in the reagents or whether
contamination was introduced during the testing process. DNAUI procedures
require the PCR Biologist to process positive and negative controls and reagent
blanks with every batch of DNA samples analyzed. The Examiners, along with
the PCR Biologists, analyze the control results to ensure that the data
generated from the DNA samples meet the quality standards established for the
resulting DNA profiles.




        37 The descriptions below of these procedures reflect information collected during the

course of our vulnerability assessment and are not necessarily found in the same level of detail
in the DNAUI’s protocols. This information was obtained during lengthy interviews with DNAUI
staff members and management. Information regarding the weaknesses detected in the DNAUI
protocols is found in Chapter Five, Section II of the report.


                                              35
       The failure to analyze properly the positive and negative controls and
reagent blanks does not necessarily render DNA testing results inaccurate.
Rather, it limits the conclusions that the DNAUI scientists may draw from the
testing. Without properly analyzing the negative control and the reagent blank,
DNAUI scientists cannot be sure that the only source of the test results is the
DNA from the evidence under examination. The results could reflect impurities
in the reagents or contamination introduced during the testing process. If the
positive control is not analyzed properly, the DNAUI scientists cannot evaluate
how well the amplification and capillary electrophoresis processes worked.

            2.    Cleaning and Decontamination

       Adequate cleaning and decontamination procedures limit the possibility
that forensic scientists will contaminate DNA samples during the testing
process. Two types of contamination are of concern: 1) an evidence item or a
DNA sample can be contaminated with DNA from a different case or from a
different piece of evidence from the same case; and 2) the forensic scientist
might also contaminate evidence with his or her own DNA.

    The DNAUI cleaning and decontamination procedures can be
summarized as follows:

      •     The Serologists and PCR Biologists clean their work surfaces and
            then cover those surfaces with clean brown paper each day before
            retrieving the evidence or samples from storage. The brown paper
            should be changed before each new evidence item is examined.
            The work surface always should be cleaned between cases and
            between the processing of items containing unknown DNA samples
            and those containing known DNA samples. If a piece of evidence is
            very messy, or if the item might have touched the work surface, the
            work surface should be cleaned before a new item is examined.

      •     Serologists and PCR Biologists wear gloves while examining
            evidence or processing samples. The gloves should be changed
            between items, or more often if necessary. When appropriate, the
            Serologists and PCR Biologists should wear facemasks when
            examining or testing evidence.

      •     Non-disposable utensils should be either cleaned or sterilized
            between use on separate evidence items. Pipette tips should be
            disposable and be changed for every use.

      •     Vacuum or fume hoods (hoods) should be small, enclosed work
            areas from which the air is vented to another location, often
            outside the building. When necessary, the air also should be


                                      36
            filtered to remove hazardous particles before it is released. The
            hoods should be decontaminated using ultra-violet light at the
            beginning and the end of the workday. The hoods should be
            cleaned on a weekly basis, or more often if necessary. For
            example, if something was spilled in the hood or a piece of evidence
            was extremely dirty, the hood would be cleaned immediately. PCR
            Biologists should cover their hood work-surface with disposable
            paper prior to beginning their work. This paper should be changed
            before each new item is processed. The PCR Biologists also should
            clean the hood between the processing of DNA samples from
            evidence and their processing of DNA samples from known sources
            (such as reference samples).

      •     Reagents should be decontaminated using ultra-violet light.

      In addition, the DNAUI uses a contamination log to track occurrences of
contamination. The log assists Unit management in identifying when staff
members may need additional training or oversight, or in determining whether
a procedure needs to be strengthened to avoid future incidents of
contamination.

            3.    Separation of Sample Sources and of Stages in the DNA
                  Analysis Process

      The separation of the different types of samples and stages in the
analysis process is important in reducing the possibility that DNA from one
sample can contaminate another sample. For instance, samples from crime
scene evidence (unknown samples) should be processed separately from
samples submitted by suspects or other known individuals (known samples) to
eliminate the risk of the suspect’s DNA contaminating an unknown DNA
sample. In the same way, it is also important to separate large and small
samples of DNA to avoid the risk that the low quantity DNA will be
contaminated by the high quantity DNA sample. Depending on the level of
contamination, the DNA from the low quantity sample could be “drowned out”
by the contamination, thus altering the test results for the low quantity
sample.

     The DNAUI Serologists and PCR Biologists attempt to limit such cross-
contamination through the following procedures:

      •     Serologists work on one case at a time and examine only one piece
            of evidence at a time. The remaining evidence stays in storage
            until the first item is examined and returned to storage. PCR
            Biologists also work on cases sequentially and process samples
            from one item at a time. In addition, while adding samples and



                                      37
            reagents to test tubes, the PCR Biologists are supposed to have
            only one test tube open at a time. The test tubes remain capped
            until the Biologist adds something to the test tube.

      •     The Serologists and PCR Biologists always work on the crime scene
            evidence and unknown DNA samples before working on samples
            submitted by known individuals. To the extent possible, they also
            process low quantity DNA samples before working with the high
            quantity samples.

      Several steps in the DNA testing process are performed in separate
rooms in the DNAUI’s new facility at Quantico, Virginia. The Serologists
examine evidence and take cuttings or swabbings in one room. The PCR
Biologists extract the DNA from the cuttings or swabbings in a second room
under a hood. They also prepare the extracted DNA for amplification in that
room. The actual amplification process takes place in a third room.

      Once the DNA has been amplified, the DNAUI addresses the potential for
amplification-related contamination as follows:

      •     Once employees work in the amplification room, they are not
            allowed to go back into a pre-amplification area for the remainder
            of the day. Employees must change lab coats and gloves before
            entering the amplification room, and again as they prepare to leave
            the amplification room. There are dedicated lab coats that are only
            worn in the amplification room.

      •     All equipment that is used in the amplification room stays there;
            the amplification room has dedicated instruments, equipment, and
            utensils. The tube racks used to transport the unamplified DNA to
            the amplification room are thoroughly cleaned before they are
            returned to use in the pre-amplification area.

      •     All amplified DNA stays in the amplification room until it is frozen
            and ready to be sent back to the submitter. The amplified DNA is
            packaged separately and sealed before it is packaged with the rest
            of the evidence being returned to the submitter.

      The foregoing descriptions of the DNA analysis process, the standards
and protocols that govern that process, and the structure and operations of the
FBI Laboratory, particularly the DNAUI, provide context necessary to
understand fully the findings and recommendations of our vulnerability
assessment, as well as Blake’s wrongdoing and how she exploited a loophole in
the Laboratory’s protocols to avoid detection. Before proceeding to address the
results of our assessment, we describe below the events that precipitated the
review, namely the discovery of Blake’s disregard of protocols in the DNAUI.


                                       38
                                 CHAPTER FOUR
                              BLAKE’S MISCONDUCT

I.     BLAKE’S CAREER WITH THE FBI

       Jacqueline Blake was employed by the FBI in the DNAUI and its
predecessor unit from August 8, 1988, until her resignation from the FBI on
June 7, 2002. Blake has a Bachelor’s of Science Degree in Biology from
Benedict College in Columbia, South Carolina. She entered duty with the FBI
as a Biological Laboratory Technician at the GS-5 grade level and was assigned
to the Serology Unit of the Laboratory’s Scientific Analysis Section. Her job
responsibilities as a Serologist included inventorying and storing evidence and
conducting routine evidence examinations to identify the presence of body
fluids. Although her early performance appraisals noted that her training
comprehension was slower than expected, she received fully successful
evaluations or above from her initial appointment until 1994, and she reached
the GS-10 grade level in 1991.

      The first indications of problems with Blake occurred in 1991. In that
year, Blake received an oral reprimand from the DNAUI Unit Chief for abusing
her sick and annual leave accounts. She was advised in July 1991 that her
leave balances were in deficit and that she could not take additional leave for
the rest of the year. Blake nonetheless submitted a leave slip and failed to
report to work for one day in November 1991 during an absence of the Unit
Chief, even though she was aware that she had no accrued leave. She also
took leave for a day in December 1991 without first seeking permission. These
events prompted the DNAUI Unit Chief to audit her leave record, which
revealed that 37 of her 46 sick leave days occurred either on a Friday, Monday,
or the day following a holiday.

       Blake’s 1992 and 1993 performance appraisals rated her as “exceptional”
on all critical elements. In June 1994, however, she received an overall job
rating of unsatisfactory. Her performance appraisal stated that her
“examinations are not performed according to acceptable laboratory practices,”
and that she generated false positive serology testing results during proficiency
testing and “inaccurate documentation of examinations conducted for blood
and semen.” Following this evaluation Blake’s conduct was monitored
intensively for two months, during which time she passed a proficiency test
and improved all of her job performance ratings to “fully successful.”38 By the
end of 1994, Blake received an overall job rating of “superior,” a level of
performance that she maintained through 1996 when she was promoted to the
GS-11 grade level.

       38 Around this time Blake also applied to become a Special Agent, but her application
was rejected due to inadequate testing scores. She also withdrew from a lecture course for
DNA Examiners because she was receiving failing marks.


                                             39
       Prior to her promotion in 1996, Blake indicated to DNAUI management
that she wanted to transfer from serology to DNA analysis work. The Unit
Chief at the time recalled that Blake seemed to have confidence problems and
that she assigned an Examiner to work with her individually to help with the
transition. Blake subsequently received training in the use of the DNAUI’s
preferred DNA testing methodology at the time, called restriction fragment
length polymorphism (RFLP).39 Blake’s 1996 performance appraisal indicates
that she demonstrated a “careful attitude” toward her RFLP work and adhered
to the applicable protocol. Her 1997 performance appraisal rated her as
“exceptional.”

       In April 1998, Blake was promoted to the position of GS-12 Biologist. In
this capacity, she analyzed evidence following its examination by a Serologist
and prepared detailed work notes for DNAUI Examiners describing the tests
she performed and the results obtained. Over time Blake demonstrated good
proficiency in the use of RFLP testing procedures and instructed other
Laboratory employees in its use. Her performance appraisals in 1998 and
1999 gave her a summary rating of “exceptional.”

      In August 1999, Blake began training to become a PCR Biologist. The
DNAUI was phasing out its use of RFLP and transitioning to PCR/STR
technology. One Examiner, who had provided training to Blake when she was
a Serologist, told the OIG that he advised the Unit Chief of DNAUI that Blake
should not be allowed to become a PCR Biologist because she lacked the
necessary skills. The Deputy Director of the Laboratory told the OIG that it
can take up to two years to bring a new PCR Biologist on staff from outside the
FBI. Under these circumstances, Laboratory management accepted Blake and
thereby minimized a staffing shortage.

      Blake took six months to complete the PCR training course,
approximately two months longer than average, and her instructor noted that
she seemed to have a difficult time with simple math.40 Her PCR training
required the completion of three training sets (one each for blood, saliva, and
semen), and the processing of ten mock cases. The last mock case was
considered a qualifying test for a later proficiency examination. On
February 18, 2000, Blake worked on the eighth mock case and, undetected by
the Laboratory, failed to process the negative controls. She made the same

        39 RFLP is a technique that detects variation in a DNA sequence according to

differences in the length of DNA fragments. These fragments are created using enzymes that
cut the DNA strands at specific points. RFLP is a more restrictive technology than PCR/STR.
It requires greater amounts of higher quality DNA to generate a profile, and takes considerably
more time to complete. RFLP also is not as sensitive to contamination.

       40  According to one of Blake’s Examiners, however, the instructor indicated to him
during the training that Blake was performing satisfactorily and meeting the requirements of
the training program.


                                              40
undetected omission in both her qualifying and proficiency tests, which were
administered on February 24, 2000, and March 14, 2000.

      Thereafter, Blake assumed her duties as a PCR Biologist, which required
her to take cuttings, swabs, or other material containing DNA from the Unit’s
Serologists and to complete the PCR/STR testing process (i.e., extraction,
quantification, amplification, and capillary electrophoresis). Blake primarily
worked on the examination team of Alan Giusti, although she also provided
assistance to another Forensic Biologist Examiner, and the Manager of the
DNAUII Federal Convicted Offender Program.

       Blake’s 2000 performance appraisal lacked the praise that characterized
reviews of her RFLP work. Instead, the appraisal stated that Blake’s work was
“generally high” and that “she has required fairly extensive supervision to
assist her in the decision-making processes that occur during the analysis.”
Her 2000 and 2001 performance appraisals graded her work as “fully
satisfactory” and that she “meets expectations.”

        In fact, Blake’s work in 2000 and 2001 was anything but satisfactory.
Without the Laboratory’s knowledge, from 2000 to 2002 she failed to process
the negative controls in 90 out of 92 cases where DNA was detected on the
evidence. Blake’s misconduct was not discovered by the FBI until April 8,
2002, more than two years after she began work as a PCR Biologist. She
initially denied omitting the negative controls when confronted by Richard
Guerrieri, the DNAUI Unit Chief, on April 9, 2002. After that meeting, Blake
did not report to the Laboratory again for work.

      On May 10, 2002, Guerrieri notified Blake that she would be on leave
without pay as of May 19. On June 7, Guerrieri and Joseph DiZinno, the
Deputy Assistant Director of the FBI Laboratory (Deputy Director), went to
Blake’s residence to present a notification document from FBI OPR stating that
her conduct had been referred for investigation. They also told her that the
OIG was initiating a review of her actions. Blake said that she had thought
about the matter and decided to resign. She turned over her credentials and
building entry materials to Guerrieri. Blake composed a handwritten
resignation letter, effective that day, which she gave to Guerrieri.

      The FBI notified the OIG of Blake’s misconduct in early May 2002. The
OIG began an investigation, and over the next five weeks interviewed
Laboratory staff, analyzed documents, and met with representatives of the FBI
OGC. On July 11, 2002, an OIG attorney and investigator interviewed Blake at
her home. Blake admitted to the OIG that she knew that she was not
processing the negative controls that were required by the protocols. She also
said she knew she was misrepresenting the status of the negative control
samples when she did not properly prepare them for injection but initialed the
related injection sheet anyway. On August 23, 2002, Blake executed an


                                      41
affidavit attesting to these facts. The OIG referred the matter to the
Department’s Public Integrity Section for a prosecution decision. On May 18,
2004, Blake pled guilty in the United States District Court for the District of
Columbia to a misdemeanor charge of providing false statements in her
laboratory reports.

      In her interview with the OIG, Blake explained that she wanted her cases
to run smoothly and not to show contamination. Some Laboratory employees
have speculated that the reason that she failed to process the negative controls
was because she lacked confidence in her ability to master PCR/STR testing
methods, which are far more sensitive to contamination than RFLP procedures.

      Below we describe in detail Blake’s wrongdoing, the impact of her
conduct, why she was not detected sooner, and the adequacy of the FBI’s
response to the discovery that she had failed to process the negative controls in
the vast majority of the cases that she handled.


II.   BLAKE’S MISCONDUCT

      A.    Incompletely Processed Controls

      Blake’s misconduct in the DNAUI resulted from her failure to process the
negative controls and reagent blanks in accordance with DNAUI protocols.
Although she properly prepared these two types of control samples for
amplification, she failed to follow established procedures when preparing them
for capillary electrophoresis. The effect of this omission has been to render
nearly all of Blake’s PCR work scientifically invalid.

      As required during the extraction and amplification processes, Blake
added all the amplification reagents to the negative control tubes and added all
the extraction and amplification reagents to the reagent blank tubes. She also
amplified the negative controls and reagent blanks as required.

       As explained in Chapter Two, Section I.D (Capillary Electrophoresis) of
this report, after amplification is complete the protocols require the PCR
Biologist to add internal size standard to tubes. Prior to capillary
electrophoresis, the PCR Biologist adds an appropriate amount of one of the
following to the tubes containing the internal size standard: 1) amplified DNA
from reference samples, evidentiary samples, or the positive control;
2) amplified negative control or reagent blank; or 3) an allelic ladder. After
performing these steps, the DNA samples, positive control, negative control,
reagent blank, and allelic ladders are ready for analysis using capillary
electrophoresis.




                                       42
      Blake performed most of these steps as required. However, she failed to
add a portion of the amplified negative controls and reagent blanks to the tubes
containing the internal size standard. Therefore, the negative control and
reagent blank samples that were analyzed through capillary electrophoresis
consisted of only the internal size standard. As a result, the negative controls
and reagent blanks were useless in detecting contamination that might have
been introduced during the testing process. In order for these controls to
detect contamination, the amplified contents of the negative controls and
reagent blanks must go through capillary electrophoresis.

       As illustrated below, GeneScan® printouts of the raw collection data for a
properly completed negative control include everything detected during
capillary electrophoresis, including the primer peaks that result from the
reagents used during amplification.




                                                      STR Primer Peaks
                                                      (except red peaks)




GeneScan® View: raw data for a Negative Control prepared according to protocol.
Peaks depicted in red originate from the internal size standard added to each sample.

      When the negative controls and reagent blanks are prepared according to
the DNAUI protocols, GeneScan® data will appear similar to the illustration
above. During the amplification process, the primers are amplified along with


                                              43
any other DNA in the tube (including any contamination that may have been
introduced during the testing process), which allows the primers and the
contamination to be detected during capillary electrophoresis.

       If the PCR Biologist fails to add the appropriate portion of the amplified
contents from the negative controls and reagent blanks to the tubes containing
the internal size standard, those tubes will not contain any amplified DNA or
unused primers, and only the internal size standard will be detected during
capillary electrophoresis. Therefore, GeneScan® printouts of the raw collection
data for the negative controls and the reagent blanks prepared by Blake do not
show the primer peaks, as illustrated below. The red peaks shown on the
printout represent only the internal size standard.




GeneScan® View: Negative Control without addition of amplified product

      The differences between the graph on the previous page and the graph
above are readily apparent. Reviewing GeneScan® data allows the Examiner to
determine whether or not the PCR Biologist prepared the samples and controls
for capillary electrophoresis in accordance with DNAUI protocols.

      The consequence of Blake’s omissions is that her testing results are
scientifically invalid and cannot be relied upon. Without proper processing of
the negative controls and reagent blanks, a Laboratory Examiner is not able to


                                            44
rule out the possibility that contamination, rather than the evidence under
examination, is the source of the testing results. By itself, however, the failure
to process the negative controls does not change these results or lead to a
particular testing outcome (e.g., creating a match between a known and
unknown evidence sample). For this reason it is not possible to conclude that
Blake intended to manipulate the testing process to implicate or to absolve
individual defendants. The retesting of evidence in Blake’s cases to date
indicates that the DNA profiles that she generated were accurate.

      Before Blake’s misconduct was discovered, the DNAUI’s policy called for
Examiners to review only the Genotyper® printouts for the negative controls
and reagent blanks to ensure contamination was not introduced during the
testing process. This policy of not reviewing GeneScan® data allowed Blake’s
misconduct to continue undetected for approximately 25 months, since the
Genotyper® data displays the message “No Size Data” 41 both for properly
completed negative controls and reagent blanks that reflect no contamination
(the desired result), as well as when no amplified product has been added
(what Blake did). An example of this message appears in the following
Genotyper® graph:




                                          Allelic
                                         Ladders




                                         Results of
                                          Positive
                                          Control




                                                             Results of
                                                             Negative
                                                              Control
Genotyper View®: COfiler Ladder with Positive Control Allele Call



       41 The statement “No Size Data” is the message that the Genotyper® software displays
when no DNA is detected in a sample (i.e., there is “no size data” because there were no DNA
peaks for which Genotyper® could assign a size).


                                              45
      Thus, the only way to determine if the controls and samples are prepared
properly for capillary electrophoresis is to review GeneScan® data that displays
what the capillary electrophoresis detects. After Blake’s misconduct was
discovered, the DNAUI changed its policy to require Examiners to review
GeneScan® data to ensure that the negative controls and reagent blanks are
prepared properly.

       B.     Falsification of Laboratory Documents

       In accordance with DNAUI protocols, Blake initialed each page of the
case file documentation (including DNA analysis results) that she created. See
generally Section 11.2.3 of the DNA Analysis Unit I Quality Assurance Manual
(version. 7.28.00)(describing DNAUI initialing procedures).42 A DNAUI
employee’s initials confirm his or her involvement in the processes and
procedures described in the documentation. Id. Moreover, statements
provided by Laboratory personnel, including Blake, indicate that DNAUI
employees understood at the time of Blake’s misconduct that an employee’s
initials at the bottom of a case file document signify that the work described is
complete and accurate. By providing her initials in cases where she did not
perform the requisite control testing, Blake falsified laboratory documents. As
Blake has stated to OIG investigators, she knowingly misrepresented her work
in Laboratory documents that she knew other DNAUI employees would rely
upon to verify that she had complied with applicable procedures and protocols.
According to Blake’s signed, sworn statement to the OIG:

       During the OIG interview, I reviewed some documents that came from
       the file for Lab #991005047 GL FY. Included in those documents was an
       Injection List. The Injection List was prepared by me and lists the
       injections that the CE [capillary electrophoresis] machine was
       programmed to run in connection with the specific Lab Number. The
       Injection List that I reviewed was initialed by me in the lower left corner.
       These initials indicate that I generated the paper work and properly
       completed the preparation of the samples listed on the document for
       injection, including the negative controls. I knew that DNA Forensic
       Examiner Giusti, in this case, would have relied on this initialed
       Injection List as proof that all protocols were followed in processing the
       samples on the list. I knew that when I did not properly prepare the
       negative control samples for injection but initialed the related injection
       sheet anyway, I was misrepresenting that the negative control samples
       were properly prepared for injection and properly run on the CE
       machine. I also knew that no one routinely checked the raw data that
       would show the absence of the primer peaks for the negative controls.

       42 That section provides in pertinent part: “All technicians will typically document their
involvement in the analytical processing of physical evidence by initialing the lower left corner
of each page of the work product in which they were involved in generating.”


                                               46
      Because she was not processing the negative control samples, Blake
never had a need during her tenure in the DNAUI to record an entry in the
Unit’s contamination log. Yet, despite her prior training and performance
problems, Blake’s noteworthy and unusual record of contamination-free testing
did not result in heightened scrutiny from Laboratory management.

       C.       The Impact of Blake’s Misconduct

       Our investigation of Blake’s misconduct has not revealed any instances
where Examiners from the FBI Laboratory presented erroneous DNA testing
results in court based upon Blake’s faulty STR analyses. Notwithstanding this
fact, with the exception of 2 cases where she processed the negative controls
and 11 cases where no DNA was found, Blake’s misconduct has rendered over
two years worth of her STR work scientifically invalid and unsuitable for use in
court, requiring the FBI Laboratory to repeat DNA testing in her cases.43

       Although the FBI Laboratory has yet to identify any cases where retesting
did not confirm the accuracy of Blake’s DNA profiles, we found that her actions
caused significant adverse effects in at least five respects: 1) it required the
removal of 29 DNA profiles from NDIS, 20 of which have yet to be restored;44
2) it delayed the delivery of reliable DNA reports to contributors of DNA
evidence in Blake’s cases; 3) her testing consumed all the available DNA
evidence in several cases, leaving only her suspect DNA profiles as a basis on
which to draw conclusions; 4) the corrective action necessary to address
Blake’s misconduct has consumed substantial resources of the FBI Laboratory
and DOJ, as well as the resources of state and local investigators and
prosecutors who were notified of her misconduct and had to take corrective
measures in their cases; and 5) the controversy surrounding Blake has caused
some measure of credibility loss to the FBI Laboratory.

       After Blake’s actions were discovered, the DNAUI notified the Forensic
Science Systems Unit (FSSU)45 within the Laboratory, which removed 29
profiles that Blake processed through STR analysis from NDIS. This work was
completed by May 2002. As of March 2004, the Laboratory had retested and



        43 As explained supra, while Blake’s misconduct prevents the Laboratory from stating

definitively that contamination did not distort her testing results, to date, reexamination of
Blake’s analyses, including retesting of evidence samples, has confirmed the accuracy of her
work. As of February 2004, evidence in 27 of 90 cases where Blake failed to process the
negative controls had been retested.

       44   DNA is not available for retesting for two of these profiles.

       45   In 2003, the FSSU was renamed the CODIS Unit.


                                                  47
restored nine profiles; no DNA remains for further analysis in two cases.46 The
Laboratory recently obtained contractor support to assist with evidence
retesting in Blake’s cases, and informed the OIG in October 2003 that it
expected to restore the remaining profiles to NDIS by the end of March 2004.
Until these profiles are restored there will be an ongoing risk that an
investigative agency will submit a DNA profile and not generate a match with a
corresponding Blake profile because the Blake profile has been removed from
NDIS. Consequently, past crimes may remain unsolved.

       Blake’s misconduct also has delayed the delivery of reliable DNA reports
to evidence contributors and wasted limited evidence samples. The Laboratory
is attempting where feasible to obtain from contributors new evidence samples
that Blake did not handle. In addition, in several cases Blake’s faulty STR
analysis is the only DNA information that is available. As with the two NDIS
profiles described above, the earlier submitted evidence was consumed in the
testing process and new evidence samples cannot be obtained.

       Blake’s misconduct also has adversely impacted the resources of the FBI
and DOJ. The efforts that the FBI Laboratory and DOJ have had to expend on
the corrective measures needed to address Blake’s actions have been
substantial. Both organizations have devoted thousands of hours of work to
deal with the consequences of Blake’s failure to comply with the DNAUI’s
protocols, a cost that does not include the funding expended for contractor
support to retest evidence. The DNAUI Unit Chief estimated that in the year
following the discovery of Blake’s wrongdoing, he devoted more than half of his
time working on Blake-related issues. The FBI’s OGC and the DOJ’s
Counterterrorism Section have had to track legal proceedings in her cases and
have issued dozens of notification letters to contributors explaining the
possible ramifications of her actions. U.S. Attorney’s Offices have had to
respond as well. Blake’s conduct has been put at issue in federal criminal




       46According to the FBI, as of March 2004 the Laboratory was waiting for the
resubmission of evidence in 13 out of the 29 cases for which NDIS profiles previously were
removed. Reanalysis has been completed in an additional four cases, and currently is being
completed in one case.


                                             48
litigation through challenges to the admission of her work into evidence and to
the integrity of DNA evidence generally.47

      Lastly, we believe that Blake’s misconduct, and the Laboratory’s failure
to detect it for a period exceeding two years, has damaged to some extent the
credibility of the FBI Laboratory. Media reports of the Blake matter described
her actions in the context of past and ongoing problems at the Laboratory.48

       D.      Why Blake Was Not Caught Earlier

               1.     The Detection of Blake’s Misconduct

      The discovery of Blake’s misconduct was inadvertent. On Friday, April 5,
2002, a senior DNAUI Biologist and Blake’s former PCR/STR instructor was
waiting on her capillary electrophoresis machine to generate data when she
happened to glance at Blake’s machine, which was nearby. The Biologist
noticed that the information displayed was not consistent with the proper
processing of STR negative controls because the primer peaks were absent.
She asked Blake the next time she saw her about the data stream that her
machine had generated, and Blake provided a nonchalant response that
heightened the Biologist’s curiosity. She had expected Blake to explain that
she had erred in her preparations for the electrophoresis; instead Blake
indicated only that the configuration of the displayed data was not a problem.




        47 In United States v. Smith, Criminal No. 2000-399(JCL) (D.N.J.), a civil rights action

against five Orange, New Jersey, police officers for the death of a prisoner in their custody, the
defense moved for a new trial after the Government disclosed that DNA test results that were
admitted into evidence by stipulation had been generated by Blake without proper processing
of the negative controls. After extensive submissions and argument, the court ultimately
denied the defendants’ motion, concluding that the introduction of the suspect evidence did not
undermine confidence in the result of the trial. According to the DOJ Criminal Division, in the
cases in which evidence that Blake handled was introduced, no defendant has successfully
persuaded a court that Blake’s protocol violation mandated a reversal of the conviction.

        Challenges to exclude DNA evidence that was tested using STR technology also have
been made in the Superior Court of the District of Columbia on grounds that the FBI’s DNA
protocols and quality assurance standards are neither minimally reliable nor generally
accepted in the scientific community, and that Blake’s conduct exemplifies the unreliability of
the testing procedures. See United States v. Orlando Roberts, Crim. No. F-771-01, and United
States v. David Veney, Crim. No. F-3986-00. The court in these cases denied the defendants’
motions to exclude DNA evidence on these grounds. Blake did not analyze the DNA evidence in
either case.

       48 See, e.g., “More Wrongdoing Found at FBI Crime Lab,” Guardian Unlimited, April 16,
2003; “New Misconduct at FBI Lab Threatens Cases – Worker Lied at Trial; Other Accused of
Shoddy Testing,” The Baltimore Sun, April 16, 2003; see also “Voodoo Science and Another FBI
Scandal,” The Sunday Herald, April 20, 2003.


                                               49
       On Monday, April 8, 2003, the Biologist shared her concerns about Blake
during lunch with a fellow Laboratory Biologist. Later that day, the first
Biologist examined the underlying data for several of Blake’s completed DNA
profiles and discovered that the negative controls had not been processed.
That evening, the Biologist telephoned her supervisor, the Unit Chief of DNAUI,
Richard Guerrieri, at his home and told him of her findings. Guerrieri
immediately recognized the potentially serious consequences if the Biologist’s
observations proved to be accurate.

      Upon learning of the Biologist’s concerns, Guerrieri contacted Blake’s
immediate supervisor, Forensic Biologist Examiner Alan Giusti. Guerrieri
advised Giusti of the potential problem and directed him to conduct an
“immediate and expeditious review” of multiple electronic raw data files for
current cases to attempt to determine the nature and extent of the problem.

      The next day Giusti identified several case files for review and examined
them. He advised Guerrieri that there was “unacceptable performance of
negative controls within the selected case files.”49 Guerrieri then reviewed the
data collected by Giusti and concluded that there appeared to have been a
systemic omission of the negative control within Blake’s casework. With this
finding, Guerrieri decided to notify then Acting Assistant Director of the
Laboratory Division, Dwight Adams, of the situation.50 Guerrieri did so the
same day, April 9. Adams advised Guerrieri to pursue the matter as a
“technical issue” unless circumstances warranted otherwise, and to interview
Blake and attempt to ascertain the scope of the problem. According to
Guerrieri, a “technical issue” is something that is not the result of a deliberate
act. Guerrieri and Giusti also met with Blake on April 9 and she falsely stated
that she had followed all required steps in processing her samples, though she
may have made a few mistakes. Guerrieri informed Blake that until the
technical issue was thoroughly evaluated and resolved, she was restricted from
casework examinations and was not authorized to perform any further
analyses.

              2.     How Blake Avoided Detection

       We do not believe that Blake’s success at escaping detection for over two
years can be attributed to a lack of oversight by any one individual. Rather,
Blake was not discovered earlier primarily for two reasons: 1) she was adept at
lying to her supervisors; and 2) the DNAUI had in place a shortsighted policy
that failed to require Unit Examiners to routinely scrutinize GeneScan® data.

        49 Memorandum from FBI Laboratory, Scientific Analysis Section to FBI Director’s

Office, April 30, 2002 at p. 2.

       50 Adams has since become the Assistant Director of the Laboratory Division (hereafter
“Laboratory Director”).


                                             50
      Blake’s willingness to lie to her supervisors coupled with the lack of
review of GeneScan® data proved effective in concealing her failure to process
the negative controls. Her affidavit to the OIG is clear that she knew exactly
what she was doing when she initialed the CE injection sheet: she was
misrepresenting to her supervisors that she had performed testing procedures
that she in fact had omitted.

      Blake also was fully aware that by not processing the negative controls
and initialing the CE injection sheet she was taking advantage of a loophole in
the Laboratory’s procedures with respect to GeneScan® data. She told the OIG
that she “knew that no one routinely checked the raw data.” The DNAUI’s
standard operating procedures thus allowed Blake to carry out her misdeeds
without discovery.

       Moreover, the ease with which Blake escaped detection was facilitated by
the Laboratory’s failure to scrutinize her work in a manner that took into
account her documented record of evidence handling problems and her prior
training difficulties. Both during and after training to become a PCR Biologist,
Blake received the same degree of oversight as a Biologist with an unblemished
record. The Examiner for whom Blake worked most often, Alan Giusti, told the
OIG that he was not aware of Blake’s prior performance issues until after she
was caught. He also did not know that one of his colleagues, who previously
had trained Blake, had recommended that she not be permitted to become a
PCR Biologist. The same individual refused to participate in her PCR training.
Further, Blake’s record of contamination-free testing for more than two years
did not receive scrutiny. Laboratory personnel explained they thought that it
was inconceivable that a fellow employee would not process the negative
controls and therefore her failure to appear in the DNAUI’s contamination log
did not heighten scrutiny of her actions.


III.   THE FBI’S RESPONSE

      After the FBI Laboratory discovered Blake’s omission of the negative
controls, it worked quickly to determine the scope of the problem and to
fashion a remedy to prevent its reoccurrence. The DNAUI isolated all of Blake’s
PCR/STR cases and performed case file reviews to determine if comparable
misconduct had been committed by other DNAUI staff members. These initial
remedial actions later were combined with efforts to repair the damage that
Blake inflicted on the individual cases that she processed. We believe that,
with some exceptions, the FBI’s early response to Blake’s misconduct was
appropriate and timely. Our review revealed, however, that after the initial
response, the pace of evidence retesting in the cases that Blake handled and of
the Laboratory’s notifications to evidence contributors and prosecutors has
been problematic.



                                      51
       A.     Initial Remedial Actions at the Laboratory

       The Laboratory’s initial remedial actions largely took place within the
confines of DNAUI and were implemented under the supervision of Richard
Guerrieri, the DNAUI Unit Chief. By April 15, 2002, Guerrieri was convinced
that the lack of negative control data in Blake’s work was not the result of
equipment failure or other accident. Effective that day, he implemented a new
policy requiring DNAUI STR case documentation to include hard copies of the
electronic raw data files for all casework samples that depicted a negative
result. In addition, the new policy provided that the STR documentation must
be reviewed by the reporting Examiner and confirmed by a second Examiner.
The decision also was made to limit the scope of the Laboratory’s initial inquiry
to the testing that Blake had performed as a PCR Biologist and not to examine
her serology and RFLP examinations.51 The DNAUI collected all the electronic
raw data from Blake’s STR tests and the training program files that she had
completed.

       By April 30, all of Blake’s STR casework for Giusti and a second
Examiner had been identified and was being categorized through the following
priority system: reported inclusions (i.e., matches with known DNA samples),
reported exclusions (i.e., elimination of match possibility with known DNA
samples), and inconclusive results. This analysis led to the creation by early
summer 2002 of a database of Blake’s STR cases, which included information
such as whether a DNA report had been issued from the DNAUI and the case
status (i.e., phase of DNA testing). In all, Blake’s STR analyses were identified

        51 In October 2003, the OIG asked the FBI what assessment the Laboratory had

conducted of the risk that Blake had also committed misconduct while employed in the DNAUI
as a Serologist and RFLP technician. The Laboratory replied that it was not prepared to offer a
response at the time and thereafter interviewed Blake’s former supervisors about her early
work in the DNAUI. The same month the DOJ Criminal Division wrote to the Laboratory
Director and recommended that the FBI “formulate a strategy to determine if Jacqueline Blake
violated any protocols in her previous work assignments in the FBI laboratory,” and that “[t]he
FBI should work with the Criminal Division to design a plan for a preliminary inquiry . . . .”
The Laboratory responded by letter dated January 28, 2004, that its risk assessment was
completed and that it “is not aware of any outstanding technical issues that would potentially
compromise the testing results previously generated by Ms. Blake in the areas of serology and
RFLP analysis.” The Laboratory reached this conclusion based on the facts that: 1) the
analysis of her STR casework had not identified any “procedural departure[s]” other than her
failure to process the negative controls; 2) the methodologies used in serology and RFLP work
do not involve the use of amplified products from negative control samples; 3) any irregular
control performance would have been detected through the quality assurance program and
promptly addressed; and 4) the Laboratory’s quality assurance controls, including proficiency
testing programs and the direct supervision of Examiners, were in place when Blake was
performing her serology and RFLP work. In short, the FBI Laboratory has expressed that it
does not believe that an examination of Blake’s work from August 1988 to March 2000 is
warranted because Blake’s primary failing was her aversion to processing STR negative
controls – something that was not part of her serology and RFLP duties - and it is confident
that its quality assurance controls would have caught her if she engaged in misconduct.


                                              52
in 103 cases. Of these, no DNA had been identified in 11 cases, Blake failed to
process the negative controls and reagent blanks in 90 cases, and she properly
performed the tests in 2 cases. Out of the 90 cases in which Blake failed to
process properly the controls, DNA analysis reports were sent to evidence
contributors from the DNAUI in approximately 45 cases.

       Guerrieri also developed a sampling plan to determine whether other
biologists in the DNAUI failed to conduct the negative control tests. Ten active
case files from each DNAUI PCR Biologist were scrutinized by the Unit’s
Examiners. All files, except those for Blake, indicated that the negative control
specimens had been processed. Based on this evidence, the Laboratory
concluded that the omissions in question were limited to Blake.

       In addition to work within the DNAUI, Guerrieri promptly notified other
units within the Laboratory of the Blake situation. On April 15, he spoke with
John J. Behun, Chief of the FSSU and NDIS Manager. Behun concluded that
all DNAUI specimens that Blake processed through STR analysis that were
entered into NDIS should be identified and removed and placed into a
temporary target batch file until the matter was resolved. This work was
completed by early May 2002, and 29 profiles were removed from NDIS.
DNAUI agreed to notify the FSSU of any confirmed NDIS matches involving
DNA profiles generated by Blake and other NDIS contributors, to inform those
contributors of the problem, and to attempt to reanalyze the negative control
specimens and/or the remaining physical evidence. The DNAUI subsequently
identified a single match through NDIS that had been generated by an external
lab prior to the removal of Blake’s profiles.52

      Guerrieri also met with the DNAUII Unit Chief. In addition to her
casework, Blake had performed STR analyses on some reference blood samples
from incarcerated individuals within the Federal Convicted Offender Program
managed by a DNAUII Examiner. Guerrieri and the DNAUII Unit Chief agreed

       52  The NDIS match was generated from a convicted offender sample. The underlying
criminal case involved an investigation of extortion, and the evidence tested was a letter. The
FBI Laboratory, through the local FBI field office, requested a blood sample from the
incarcerated offender to verify the match. After Blake’s misconduct was discovered, the
Laboratory also requested the return of the original evidence sample for retesting. The
Laboratory never received the requested blood sample and the evidence was not returned for
retesting. Follow-up contact by the Laboratory subsequently disclosed that prosecution was
declined in the underlying criminal action. In another matter, the DNAUI generated a match in
NDIS between one of Blake’s profiles and an incarcerated offender. After Blake’s misconduct
was discovered, the profile was removed from NDIS and retesting performed. The newly
generated profile matched the DNA profile of the same offender that previously was identified
by NDIS. In addition, the Laboratory identified matches in a local DNA database from two of
Blake’s profiles. In one case, the FBI obtained resubmitted evidence and issued a new report.
The profile from the retested evidence matched a profile in NDIS. The FBI is still waiting to
receive evidence in the second case despite repeated requests to the contributor to resubmit its
evidence.


                                              53
that these samples should be located and retesting performed where
appropriate.53

      The Laboratory also sought guidance from FBI Headquarters, including
the FBI’s OPR and OGC. In mid-April, Adams met with Michael DeFeo,
Assistant Director for OPR, and agreed that the Laboratory would forward
documentation describing Blake’s conduct to OPR for review. DeFeo advised
Adams that the matter would have to be referred to the OIG. Guerrieri and
DiZinno subsequently met with an OPR Unit Chief to brief him on the Blake
matter. DiZinno said that the Laboratory hoped to receive guidance on what
corrective actions should be implemented, including whether the Laboratory
needed to evaluate Blake’s serology and RFLP work. The OPR Unit Chief told
them to furnish him with a written report outlining the misconduct allegations
and the actions taken by the DNAUI in response to the discovery of the
misconduct. On April 30, 2002, the Laboratory provided a 6-page
memorandum to the FBI Director, with a copy to OPR, that described Blake’s
actions.

      On May 7, 2002, OPR forwarded Guerrieri’s April 30 Memorandum to the
OIG, which began an investigation. As mentioned earlier, over the next five
weeks OIG staff interviewed Laboratory personnel, examined documents, and
met with representatives of FBI OGC. At a meeting on May 21, 2002, OGC
explained that it would be heavily involved in the FBI’s notifications to
prosecutors, including providing legal guidance, and that the Laboratory would
manage the Bureau’s response to the Blake matter. The OGC and OIG agreed
that the OIG would not be involved in managing the FBI’s activities, though
information would be shared to ensure that there was no interference with the
OIG’s investigation. The FBI OGC also explained that a management plan
would be developed.

       Following these developments, the DNAUI focused some attention on its
operating procedures. In July 2002, as part of the Unit’s annual review of its
protocols, Guerrieri requested that DNAUI program managers take into
account Blake’s misconduct when formulating proposed protocol revisions.
However, other than the requirement that GeneScan® data be included in the
case file for review by the Examiners, Guerrieri did not receive any suggested
modifications to the protocols from his staff. In addition, later that year
Guerrieri initiated a project to map case processes in the DNAUI to facilitate
communications and decision-making. See generally Chapter Five, Section
III.A.2 (describing need for decision aids).


       53 Blake processed 105 offender samples. The Laboratory has retested 75 of these
samples and expects to complete retesting of the remaining 30 by the end of March 2004. The
Convicted Offender Program currently has a backlog of 24,000 samples waiting to be
processed.


                                            54
       B.       Identification and Processing of Cases That Required
                Corrective Action

      After the FBI Laboratory took action to remedy the processing of negative
controls in the DNAUI, its focus turned to correcting the damage that Blake
caused in the cases she handled. This task has proved difficult for the
Laboratory. For example, the majority of the evidence that required retesting in
Blake’s cases remained unevaluated over 23 months after her misconduct was
detected and, in some cases, the Laboratory’s testing has not been completed
even though the evidence was submitted to the Laboratory over four years
ago.54 Moreover, as of March 2004, nearly half of the evidence contributors in
cases where Blake failed to process the negative controls have not received
written notification that Blake’s misconduct impacted their evidence.

                1.     Early Reaction and Planning

        One of the most pressing issues for the DNAUI after the discovery of
Blake’s misconduct was to identify the cases where an Examiner had relied on
Blake’s analyses and subsequently issued a report to a requesting party, and
then to ascertain the status of legal proceedings in those cases. Completion of
this work was not easy, however, because the Laboratory did not have a system
to track legal proceedings after its findings were disseminated. As with many
other issues, the formulation of the Laboratory’s response to this problem was
left to DNAUI Unit Chief Guerrieri and his staff. With Guerierri’s oversight, the
Laboratory established a database of Blake’s cases in early summer 2002 to
track its remedial work and to stay abreast of case developments.

       Guerrieri met with an FBI Assistant General Counsel on April 10, 2002,
two days after the discovery of Blake’s actions, to inform her of the Blake
problem.55 From the outset OGC recognized the potential gravity of the
situation. The OGC lawyer e-mailed her supervisor on April 15 and explained
as follows:

       There is a major problem brewing in DNA Unit I that concerns a
       technician’s work in preparing cases for the overall review of an
       examiner. They don’t yet know the dimensions of the problem – it could
       be huge – implicating all of the cases of examiner Alan Giusti and other
       examiners as well, for years. They don’t know if mistakes were
       purposeful or inadvertent, but they may threaten the integrity of our
       results across the board (Technicians do most of the underlying bench

       54   The FBI Laboratory has a goal for each unit to process its evidence within 60 days of
receipt.

       55 At the time, the Assistant General Counsel was the primary OGC point of contact for
the Laboratory.


                                                55
       work and examiners make the conclusions and write the reports). They
       are in the process of doing a review to try to ascertain the scope of the
       problem and whether it implicates other technicians as well (which they
       don’t think it does). They have not yet notified OPR but they have taken
       the technician off cases immediately.

       We may need a task force on this one – perhaps drawing from ASCLD-
       LAB expertise, and/or others out there in the forensic community. It’s
       too early to tell anything just yet . . . .

       Approximately one month later, OIG staff who were investigating Blake’s
actions met with OGC staff members and were told a management plan would
be developed to guide the FBI’s response to Blake’s failure to conduct the
required contamination testing and that it would be shared both with the OIG
and the Office of the Deputy Attorney General. The OIG similarly was advised
by the OGC Assistant General Counsel in May 2002 that “a policy will have to
be arrived at in concert with the Lab.” With the exception of the April 30,
2002, memorandum from the Laboratory to the FBI Director described supra,
which the Laboratory explained to the OIG was its initial strategy, Laboratory
management has acknowledged that no planning material was created to guide
its remedial activities and to coordinate the work of the DOJ and FBI personnel
working on the Blake matter.56 Our review of documents furnished by the FBI,
including e-mails, did not reveal any communications that outlined
prospectively for the various participants what the FBI’s response should
entail, what the various participants were tasked to complete and, as
appropriate, by when. In addition, in November 2002, the OGC Assistant
General Counsel advised the OIG that no policy had been formulated for what
she described then as a “fairly fluid” situation.

      According to Laboratory employees, throughout the Spring and Summer
of 2002 Laboratory management regularly discussed with the OGC how to
proceed. The Laboratory Director explained that initially he held regular
meetings with his staff to address Blake-related issues. The Department was
not directly included in these meetings though, and the Laboratory Director
explained that he has never spoken to the DOJ contact who the Criminal
Division assigned to track developments in the Blake matter – Barry Sabin, the
Chief of the Counterterrorism Section. According to Sabin, his role was to
learn the facts of the Blake case, to identify any legal issues that required
attention and advise the FBI accordingly, and to monitor the FBI’s response on




       56 The April 30, 2002, memorandum described the Laboratory’s early remedial actions,
such as requiring inclusion of GeneScan® data in the casefile, the removal of Blake’s profiles
from NDIS, and the collection of Blake’s STR data files.


                                             56
behalf of DOJ.57 The Laboratory Director further stated that he did not know
what exactly the Counterterrorism Section was doing.58 He also added that he
has not asked anyone for an explanation of what the Counterterrorism
Section’s role is. He stated that he relies upon OGC to provide the Laboratory
with pertinent guidance. Other Laboratory employees explained that they were
surprised that there was not more direct contact with DOJ personnel. One
senior FBI manager told the OIG that there was no leader overseeing the
response of the FBI and DOJ to the problems caused by Blake’s misconduct,
and that was a problem because no one was in charge to coordinate activities.

               2.     Notifications

       After the Laboratory determined that the failure to process the negative
controls was limited to Blake and that her omissions were not the result of a
technical defect, Laboratory management decided, with OGC assistance, to
notify appropriate contributing agencies and/or prosecuting attorneys of the
limitations regarding Blake’s STR analyses. Additionally, Laboratory
management decided that all trials in which Giusti had previously offered
expert testimony regarding STR analyses based upon Blake’s work would be
identified, the resulting electronic data files reviewed, and appropriate officials
notified if unacceptable performance of negative control specimens was




        57 In response to a draft of this report, the DOJ Criminal Division stated that the role of

its attorneys in the Blake matter was limited to learning the pertinent facts, identifying legal
issues related to criminal prosecutions that required attention, and monitoring to the extent
necessary the FBI’s response to these prosecution-related legal issues. The Criminal Division
further explained that it was never asked to provide programmatic, scientific, or policy advice
on issues related to Blake’s misconduct. Our review found, however, that the work of the
Criminal Division attorneys was not so limited, and the Counterterrorism Section in fact
provided recommendations to the FBI on matters not specifically identified with criminal
prosecutions. For example, in October 2003 Sabin wrote to the Director of the FBI Laboratory
and stated that “[t]he FBI should formulate a strategy to determine if Jacqueline Blake violated
any protocols in her previous work assignments in the FBI laboratory. The FBI should work
with the Criminal Division to design a plan for a preliminary inquiry, and should keep the
Criminal Division advised of any findings.” We also were told that the Counterterrorism
Section requested the FBI to provide prompt notifications to the evidence contributors who
have not yet been told that Blake had processed their evidence improperly. These are cases
where the Criminal Division believed that there are no prosecution-related legal issues (e.g.,
that Blake’s work will not be relied upon to gain a conviction). Whether prosecution-related or
not, we concluded that the advice of the Counterterrorism attorneys was appropriate.

        58 FBI personnel have expressed confusion over the work that Sabin was directed to

perform. One FBI employee asserted that Sabin did not explain his role, while another
employee said that he “did not know how DOJ management fits in.” According to the Deputy
Director of the FBI Laboratory, no meeting was ever held where the various FBI and DOJ
participants identified their roles and responsibilities. Sabin told the OIG that he explained his
role (as described in text above) to the OGC and to the Deputy Director of the Laboratory.


                                                57
detected.59 By April 30, 2002, the Laboratory had completed identification of
Blake’s STR analyses for Examiners Giusti and Garvey and had developed a
priority notification scheme that accounted for various case considerations,
including whether the DNAUI previously had provided testimony, trial status,
terrorism linkages, and whether suspects had been identified. At
approximately the same time Giusti began notifying evidence contributors by
telephone of the situation; he also conferred with case prosecutors.

       During May 2002, Guerrieri worked with OGC to create a notification
letter for DNA contributors. Sabin began to assist the FBI with contributor
notification and other issues at this time. He reviewed and provided input on
the draft notification letter that Guerrieri and OGC had prepared.

       On June 5, 2002, the first notification letters, signed by the Laboratory
Director, were sent to 25 DNA contributors and prosecutors who had received a
DNA report from the DNAUI. The letter stated cryptically that “some of the
control samples were not processed to completion” during the DNA analysis
and that the “DNA testing results reflected in [the issued report] should not be
used for investigation or prosecution purposes until such control samples have
been evaluated and determined to thoroughly satisfy established
requirements.” The letter requested that the contributor resubmit the evidence
for additional analysis. The OIG subsequently raised concerns about these
letters primarily because they failed to explain Blake’s conduct adequately.

       Additional notification letters signed by the Laboratory Director were sent
in July and October 2002 to 44 contributors and prosecutors. These letters
contained the same language used in the Laboratory’s June letter, and were
not sent consistently to associated prosecutors. According to one Laboratory
employee, OGC became much more involved in notification and case tracking
issues beginning in October 2002. A new OGC attorney was assigned that
month to handle the Blake matter. The OIG was able to verify that OGC
delivered 71 letters covering 56 cases to contributors and prosecutors in late
November and December 2002,60 many to the same contributors who received
earlier notification from the Laboratory.61 OGC’s notification letters described

       59 One matter that required immediate attention during the week of April 9, 2002, was
Texas v. Berkley, a homicide case in El Paso, Texas. The Laboratory previously had issued a
report based upon Blake’s work and Giusti was scheduled to testify about his conclusions
during the week of April 15, 2002. Guisti requested and received from authorities in El Paso a
sample for retesting, completed the retesting, and issued a new report dated April 15, 2002,
confirming the results of the original testing. Giusti testified in El Paso on April 17, 2002.

       60 OGC developed notification letter templates to cover cases in which: 1) there was no

DNA to test, 2) Blake had followed the negative control protocols, and 3) a previous letter had
been sent but more detailed guidance was necessary.

       61   OGC issued another five letters in January 2003, and the Laboratory sent four
letters in August and September 2003.


                                              58
Blake’s misconduct, the function of negative controls, and the initiation of the
OIG investigation. It also requested the addressee to resubmit evidence for
testing and to share a copy of the notification letter with any prosecutors who
were working on cases to which the previously submitted evidence related.

       The Counterterrorism Section at DOJ also assisted the FBI to inform
DNA contributors and prosecutors of the Blake matter by issuing letters
supplementing the information contained in the FBI’s notifications. Between
July and September 2003, the Counterterrrorism Section sent out 27 letters to
prosecutors and contributors and has issued another 2 since that time.
Following discussions with prosecutors in Blake’s cases, the Counterterrorism
Section focused its notifications on matters where the possibility remained for
Blake’s DNA analyses to be relied upon in future investigative activities and/or
court proceedings. The Counterterrorism Section prepared different letters
depending on whether Blake’s conduct previously had been disclosed to
defense counsel. These letters emphasized disclosure obligations, that Blake
had custody and control over the original submitted evidence that was used to
conduct the initial DNA analysis, and that there was no indication that Blake
failed to abide by any Laboratory protocols in the DNAUI other than those
regarding the processing of control samples. The Executive Office for United
States Attorneys also issued an 8-page guidance document regarding the Blake
matter in June 2003 to all United States Attorney’s Offices based on legal
analysis performed by the Counterterrorism Section.62 That document
addressed a host of different legal issues implicated by Blake’s conduct,
including chain-of-custody and ethical considerations, and was included by the
Counterterrorism Section in its correspondence to DNA contributors and
prosecutors.

       Despite these efforts, as of February 2004, DNA contributors in 42 cases
still had not received written notification that Blake had failed to process
properly the evidence they had submitted. Of this number, 20 contributors
received no notification at all concerning Blake’s handling of their evidence. Of
the written notifications provided, in some situations as many as three letters
have been sent to the same individual. See further discussion in Chapter Four,
Section IV.

              3.     Evidence Retesting

       In addition to its efforts to notify DNA contributors about the Blake
problem, the Laboratory developed procedures to provide contributors with
retesting of evidence. Initially Guerrieri, with the approval of Adams, opted to
process only the negative controls that Blake had not completed. By late June
or early July 2002, however, Guerrieri determined that full retesting of all

       62 This guidance is now being included with the Laboratory’s reports that issue in
Blake’s cases.


                                              59
samples in Blake’s STR cases in which the negative controls had not been run
was required to ensure technically valid results that could be used as evidence.
Early testing of the uncompleted negative controls had resulted in the
discovery of DNA contamination in some samples, while other analyses were
missing a quantification step. Under these circumstances, and based on
Guerrieri’s recommendation, Adams opted for full retesting.63 According to
Guerrieri there was no discussion whether this decision had legal
ramifications, and if so, what they might be.

      The Laboratory also decided in Spring 2002 to perform the retesting itself
rather than attempt to out-source the work to a contractor. According to one
Laboratory employee, this decision was made within days of learning of Blake’s
misconduct. The decision also was made despite the fact that the Laboratory
was faced with a substantial backlog of cases in the DNAUI. According to
DiZinno, the Laboratory had, and continues to have, an unacceptable
turnaround time processing evidence, especially in the DNAUI. By December
2002 the DNAUI recognized that it could not complete the retesting of Blake’s
cases in a timely manner. It thereafter reversed course and entered into
contracts in September 2003 to have the evidence in Blake’s cases retested by
private laboratories. The Laboratory stated in early 2004 that it expected to
have this work completed by the end of March 2004. DiZinno acknowledged to
the OIG that the Laboratory underestimated the time it would take to retest
Blake’s evidence and that the pace of retesting has been problematic.64 As of
February 2004, evidence retesting had been completed in only 27 out of the 90
cases where Blake failed to process the negative controls, and 20 of the original
29 profiles removed from NDIS still have not been restored.65


IV.         OIG ANALYSIS

      Our examination of the FBI’s response to Blake’s misconduct revealed
that the FBI Laboratory worked quickly to determine the cause of the negative
control omissions in Blake’s cases and whether other biologists in the DNAUI
had experienced the same problem. After the Laboratory confirmed that the

       63  As described by Guerrieri, full retesting entails completing all the duties of the
Serologist, PCR Biologist, and Examiner described in Chapter Three, Section I.B.2.b of this
report.

       64 The Criminal Division at DOJ has expressed the same sentiment. In a letter to the

Laboratory Director dated October 28, 2003, the Counterterrorism Section recommended that
“remedial measures [] be taken as soon as possible,” and that “[r]etesting should be conducted
in an expedited fashion.”

       65 Of the 90 cases where Blake failed to process the negative controls, the FBI
Laboratory, with the assistance of its contractors, intends to complete evidence retesting in 64
cases. In the remaining 26 cases, retesting has been deferred pending the resubmission of
evidence from the original evidence contributor.


                                               60
failure to process the negative controls was limited to Blake and not due to
technical causes, such as equipment failure, it self-reported the facts and
circumstances regarding her misconduct to the FBI OPR and sought guidance
on how to fashion a proper response. OPR advised the OIG of the matter
approximately one month later.66 The DNAUI also promptly closed the loophole
in its procedures that allowed Blake to escape detection for over two years: it
required GeneScan® data to be included in the case file and reviewed by two
Examiners. The effectiveness of the Laboratory’s early response to Blake’s
wrongdoing was due largely to the efforts of the DNAUI Unit Chief, Richard
Guerrieri, and his staff, who deserve credit for these actions.

       However, our review identified other issues of concern regarding the FBI’s
response to Blake’s misconduct. These include: 1) the timeliness of the
retesting of evidence and of written notifications to DNA contributors and
prosecutors; 2) the legal analysis provided by the FBI OGC in the months
immediately following the discovery of Blake’s misconduct; and 3) the scope of
the Laboratory’s remedial actions. We also believe that given Blake’s prior
work history and training experiences, the Laboratory should have paid more
careful attention to her performance on her initial PCR qualifying and
proficiency tests and on the first several profiles she generated after she
became a PCR Biologist.

       A.     Timeliness of Evidence Retesting and Notifications

       The retesting of evidence in Blake’s cases has taken too long. The
Laboratory’s Deputy Director told us that he was not satisfied with the pace of
the retesting, and the DOJ Criminal Division echoed the same concern in an
October 2003 letter to the Laboratory Director that requested that evidence
retesting “be conducted in an expedited fashion.”67 Given that the Laboratory
has a goal of 60 days for each unit to process its evidence, and that the DNAUI
has taken over 2 years to complete its reanalysis in many of Blake’s cases (and
in some matters over 4 years for the Laboratory to complete all requested
analyses), we think it is self-evident that the pace of retesting has proceeded far
too slowly.68

       66 Under the OIG’s Investigative Procedures Relating to FBI Employees, the FBI is
required to report immediately to the OIG non-frivolous allegations against any employee or
contractor which, if substantiated, would constitute a prosecutable offense.

       67 Letter from Barry Sabin, Chief, Counterterrorism Section, Criminal Division,

Department of Justice to Dwight Adams, Assistant Director, FBI Laboratory, dated October 28,
2003, at 1.

        68 Laboratory Director Adams told the OIG that he was satisfied with the pace of

retesting, a position we find hard to reconcile given the multi-year delays described above. The
DNAUI Unit Chief stated that he wished he had had the staff to complete the retesting earlier
but that he was satisfied with the procedures the Laboratory had employed to conduct the
work. He emphasized that he would not sacrifice the quality of the retesting for time savings.


                                              61
      Several factors have contributed to the delays, including events beyond
the Laboratory’s control, such as the responsiveness of contributors to
resubmit their evidence. The delays have been significantly exacerbated,
however, by a decision the Laboratory made soon after Blake’s detection.
Although the DNAUI at the time had a substantial backlog of cases to analyze,
and historically has been a bottleneck in the Laboratory’s processing of
evidence, Laboratory management opted not to seek contractor assistance with
Blake’s cases and instead attempted to complete the reexaminations itself. The
result was that the Laboratory had less than ten cases retested by the end of
2002; it was only at that point that the decision was made to seek contractor
support. The Laboratory entered into two contracts in September 2003 with
private laboratories to retest the balance of evidence in Blake’s cases.

       We believe that the Laboratory failed to analyze properly whether it could
absorb the additional retesting work and complete it in a timely fashion. The
backlog of unprocessed DNA evidence and manpower constraints should have
alerted the Laboratory to the need to seek outside assistance sooner than
December 2002. The consequence of this decision is significant. The
Laboratory’s failure to seek the necessary resources promptly heightened the
risk that a criminal would avoid identification because his or her DNA profile,
which otherwise would be available but for Blake’s misconduct, is not included
in the appropriate DNA databases for law enforcement agencies to search.

       Similarly, we are concerned with the time it took for the attorneys who
worked on the Blake matter to generate a sufficient notification letter, and that
nearly two years after the discovery of Blake’s misconduct there were still 42
cases where evidence contributors had not received a letter notifying them that
Blake had failed to process properly the evidence that they submitted. After
the Laboratory issued its first letters in June 2002, which FBI OGC and the
DOJ Counterterrorism Section worked on jointly, the OIG questioned the
sufficiency of the notification. In our view, the June letter failed to describe
adequately what Blake did. The Laboratory, however, continued to issue
notification letters in July and October 2002 with the same language as the
June letter.69 FBI OGC began issuing its own notification letter to contributors
and prosecutors in late November 2002 that described Blake’s misconduct and
was drafted largely by OGC supervisors. We believe that this letter was
sufficient to alert evidence contributors and prosecutors to Blake’s misconduct




       69   According to the Criminal Division, after the OIG voiced its objection to the June
letter, the Criminal Division drafted a revised letter addressing all of the issues raised by the
OIG and forwarded it to FBI OGC.


                                                62
such that proper disclosures could be made.70 We are concerned, however,
that the Laboratory’s letters were not sent or copied to all associated
prosecutors.

       Within the first two months following Blake’s detection we believe that
the OGC staff attorney assigned to the Laboratory should have prepared a
notification letter comparable to the one that was sent by OGC in November
and December 2002, and that the written notification should have been
completed by mid-summer 2002 at the latest. These letters should have been
delivered to all evidence contributors and their associated prosecutors.
Although we did not find case-related prejudice resulting from the timing of the
notifications, we believe that the Blake matter required earlier and more
complete notification than was provided.

       We also are concerned that nearly two years after Blake’s detection, DNA
contributors in 42 cases had not received written notification that Blake had
failed to process properly the evidence they submitted, and 20 of these
contributors received no notification at all concerning their evidence.
According to the FBI, with two exceptions the cases where notice has not been
furnished are ones in which no report was issued from the DNAUI and no

       70   In response to a draft of this report, the FBI OGC took issue with our view that the
letters issued in November 2002 by OGC differed significantly from the Laboratory’s earlier
letters, which made no mention of Blake’s misconduct and stated simply that “[a] review of the
data used to prepare the DNA analysis reports of examination . . . revealed that some of the
control samples associated with these analyses were not processed to completion.” In contrast,
the OGC letters stated that “one biology technician in one of the FBI Laboratory’s two DNA
Units systematically and repeatedly violated the Laboratory’s standard operating protocols by
not processing negative control specimens to completion in approximately 100 cases over
approximately a two-year period.” In its response, the FBI OGC took the position that:
         the only substantive distinction between the initial and subsequent letter was the
         inclusion of Blake’s misconduct as the cause of the flawed test results. It is a
         distinction without a difference (and certainly not a difference of any legal import) with
         respect to the sole purpose of the notice: to advise the contributor not to rely on the
         results.
We are concerned by this comment from OGC. As repeatedly explained to the OIG throughout
the course of this review, both the FBI and DOJ issued notification letters to contributors and
prosecutors so that Brady obligations could be satisfied. The purpose of the notification
therefore was not simply to advise the contributor not to rely on the testing results. It also was
to satisfy constitutional obligations. Impeachment evidence falls squarely within the dictates of
the Brady rule. The Criminal Division’s notification to federal prosecutors concerning Blake,
which devotes several pages to an analysis of Brady obligations, further recognizes that
whether information constitutes Brady material can depend upon the extent to which it could
alter defense strategy. As explained in footnote 48, counsel have attempted in a limited
number of cases, albeit without success, to use Blake’s conduct to question the reliability of
DNA testing procedures. In light of these considerations, we believe there is a distinction,
indeed an important one, between failing to process negative controls due to an isolated event
of equipment malfunction versus a laboratory employee who “systematically and repeatedly
violated the Laboratory’s standard operating protocol.” We encourage the FBI to reevaluate
this issue.


                                               63
suspect has been identified. The FBI also has explained that the individuals
who submitted the evidence in these cases have not contacted the Laboratory
to inquire about the evidence, possibly indicating that the case in question is
inactive. Although 11 of the 20 cases in which no notice was provided
originated either from the Washington Field Office of the FBI or the Washington
Metropolitan police, which received written notifications of Blake’s wrongdoing
in other cases as well as other communications about her misconduct,71 we
believe that all evidence contributors and associated prosecutors should have
been notified directly in writing during the summer of 2002 that Blake had
failed to process their evidence properly. At that juncture the evidence
contributor would have had the ability to make an informed decision whether
to resubmit new evidence or to seek testing services from another source.
Because 20 of these contributors were not informed, however, they were
deprived of the opportunity to make this decision. Moreover, we believe that
the failure to provide these notifications by this date violated the spirit of the
message that the Laboratory conveyed to the FBI Director and FBI OPR in its
April 30, 2002, memorandum in which it explained that “[w]ith the assistance
of the OGC, the LD [Laboratory Division] will notify all appropriate contributing
agencies and/or prosecuting attorneys of the technical issue and potential
limitations regarding the STR analyses conducted by Ms. Blake.” The
Counterterrorism Section also informed the OIG that it encouraged the FBI to
make full and complete written notifications to all evidence contributors and
associated prosecutors.

       We further believe that the timeliness of the FBI’s evidence retesting and
notifications was hindered by the Laboratory’s failure to maintain written
planning materials and to disseminate them to officials who were assisting the
Laboratory with the Blake problem. The FBI was unable to identify any
document for us that set forth prospectively for Laboratory staff members the
steps they should take to address Blake’s misconduct and the timeframes
contemplated to complete particular tasks. OPR asked for a written plan, and
the Laboratory should have updated its April 30 memorandum as time
progressed and shared it with others. FBI OGC explained to the OIG in May
2002 that a management plan would be created to guide the response over
time and that it would be shared with the OIG and the Office of the Deputy
Attorney General. Such a plan was never developed, and the consequence was
unnecessary inefficiencies and delay.

       We believe that had the Laboratory prepared a management plan, it
would have diminished the likelihood that three entities – the Laboratory, FBI
OGC, and the Counterterrorism Section – all would need to send out
notification letters. It also may have triggered more careful analysis regarding

       71  The FBI Laboratory made a presentation for the United States Attorney’s Office for
the District of Columbia, and personnel from the Criminal Division, the FBI OGC, and the
Laboratory briefed that office’s management on the Blake matter.


                                              64
the decision to keep the retesting of evidence within the Laboratory rather than
seeking a contractor to assist with the work. This plan should have tasked the
FBI OGC attorney assigned to the Laboratory with specific notification-related
assignments and coordination responsibilities. It also should have identified
milestones for the evidence retesting and triggers for the reevaluation of the
need for contract support.

       We are also troubled that Laboratory management at the highest levels
seemed disinclined to seek out DOJ’s views and to coordinate its planning
activities with DOJ. Adams stated that the Laboratory Division at the FBI was
“in charge” of the Blake situation, but at the same time he explained that he
didn’t know what the Counterterrorism Section was doing. We believe that if
that were the case, the Laboratory Director should have reached out to DOJ to
understand its views on the Blake problem, and if the Laboratory and DOJ had
differing priorities, these should have been identified, discussed, and reconciled
at the earliest possible moment. We believe that DOJ made it clear to FBI OGC
that it wanted fuller disclosures and more information provided to contributors
and prosecutors. DOJ pressed for more expedited evidence retesting. The
Laboratory was slow to respond, with the result that two years after Blake’s
detection, evidence still is waiting to be retested and many evidence
contributors still do not know that their evidence was improperly processed by
Blake.

      B.    The Sufficiency of Legal Services Provided to the Laboratory in
            the Months Following Blake’s Detection

      We also question the relationship between the Laboratory and FBI OGC
in the months following Blake’s detection. Blake’s misconduct required the
Laboratory to address numerous issues, such as what the permissible uses are
of Blake’s corrupted profiles and how to conduct the retesting of evidence.
Indeed, in the initial aftermath of Blake’s discovery, the Laboratory needed
assistance merely to determine what the issues were that needed to be
evaluated and resolved.

       The OIG’s interviews with the Assistant General Counsel from OGC who
handled the Blake matter from April to November 2002, and others have led us
to conclude that the Laboratory did not receive the quality of legal services that
one would expect from FBI OGC, and Laboratory management was not
sufficiently assertive when soliciting legal advice. In our view, substantial effort
was required at the outset of the Blake matter to: 1) learn the underlying facts,
2) identify and organize the legal issues that those facts implicated, 3) analyze
and explain to the Laboratory the legal principles that were pertinent to the
issues in question, 4) present the litigation risks and legal policy considerations
associated with particular courses of action available to the Laboratory, and
5) highlight pitfalls or issues of special concern that warranted the Laboratory’s
attention.


                                        65
       Both the Laboratory and OGC explained that no meeting was ever held to
brief the FBI Laboratory on the legal considerations described above or to
present the findings and conclusions of any legal research. Indeed, the OGC
attorney told us that she did not conduct any legal research. No memoranda
were prepared for the Laboratory and our review of the Assistant General
Counsel’s case file did not reveal any documents, including e-mails or notes,
that set forth substantive legal analysis or otherwise identified the issues and
organized them in a way that would be comprehensible to the Laboratory.
Disclosure issues were obvious from the outset, but there were others that
should have been addressed in a meaningful way much earlier than they were,
such as what was permissible with the off-loaded NDIS profiles and chain-of-
custody issues. The Assistant General Counsel’s response to our questions on
several occasions was that we did not understand the way FBI OGC operated.
She further explained that she is a traditional counselor at law who rendered
advice based largely on past experience: someone posed a question and she
provided an answer.

        This approach was ill-suited to the complexities of the Blake matter, and
we believe that her conduct had consequences for the response of the FBI and
DOJ to Blake’s misconduct. The deficit was readily apparent to the OIG in the
first few months following Blake’s detection, and in our view necessitated, for
example, that her supervisors become extensively involved in the provision of
notifications to contributors and prosecutors. We believe that a senior OGC
staff attorney should have demonstrated the leadership to furnish
comprehensive and timely legal support services for the Laboratory.

      C.    The Scope of the Laboratory’s Remedial Actions

      Our review concluded that the Laboratory’s remedial actions were not
comprehensive enough in two respects: 1) the scope of the Laboratory’s self-
generated protocol revisions were too narrowly focused; and 2) the assessment
of Blake’s work for protocol discrepancies failed to account for her work as a
Serologist and RFLP technician, which together accounted for 12 of the 14
years that she was employed in the DNAUI.

      As described earlier, after the Laboratory identified Blake’s wrongdoing,
the DNAUI promptly changed its operating procedures to require the inclusion
of GeneScan® data in the case file and its review by two Examiners. Laboratory
Deputy Director DiZinno explained that once the Laboratory understood
exactly what Blake had done, the necessary changes in procedure occurred
quickly. The DNAUI Unit Chief also requested that, as part of the Unit’s
annual protocol review, his program managers submit recommendations for
protocol revisions that took into account Blake’s wrongdoing. The only
suggestion that was offered, however, was to institute what already had been
done by that time: include GeneScan® data in the case file.


                                       66
       We believe that Blake’s actions should have triggered an extensive
reevaluation within the DNAUI of its protocols. DiZinno told the OIG that one
of the lessons learned from the Blake situation is that the Laboratory could not
count on the trustworthiness of all of its employees. Within the first two
months of learning of Blake’s wrongdoing, the Laboratory should have laid the
groundwork for a comprehensive reevaluation of the DNAUI’s protocols.
Instead, the Laboratory seemed to focus on a far narrower issue – how do we
spot someone who has developed an aversion to processing negative controls
involving amplified DNA samples – and did not comprehensively examine its
protocols, which is a clear deficiency.

      We further believe that the Laboratory erred when it decided to limit its
investigation of Blake to the last two years of her work, pending the discovery
of additional incriminating evidence against her. The Laboratory did not even
ask Blake’s serology and RFLP supervisors whether they had noticed anything
suspicious about her work until the OIG asked in October 2003 what
assessment the Laboratory had conducted on Blake’s work from 1988 through
March 2000 concerning the risk that she had violated DNAUI protocols. The
DOJ Criminal Division also raised this issue in a letter to the Laboratory at the
end of October 2003.

       The Laboratory has taken the position that no additional inquiry is
warranted on the cases that Blake handled during her 12-year tenure as a
serologist and RFLP technician primarily because it appears that Blake’s major
failing was limited to her aversion to running STR negative controls, there is no
indication that she ever intended to manipulate test results, and the
procedural controls in place in the DNAUI would have caught any misconduct.
We think, however, that the message from the totality of circumstances
surrounding Blake, including her 1994 performance appraisal and training
history, is not so narrowly tailored: Blake was an untrustworthy employee who
manipulated the DNAUI’s procedures and lied about her conduct. The
Laboratory’s confidence in its serology and RFLP protocols to detect
misconduct by Blake also must be considered in light of the fact that its STR
protocols did not detect her misconduct.72

      We have no evidence that Blake, in fact, violated DNAUI protocols while
working as a Serologist or RFLP technician. We also have no indication that
Blake’s supervisors from 1988 to March 2000 failed to scrupulously evaluate
her work and catch and correct every discrepancy that appeared in her
casework. But we also believe that the Laboratory was not fully aware at the
time of the kind of employee it was dealing with. Under these circumstances, a


        72   We say this fully aware that the procedures in STR and RFLP are completely
different.


                                               67
file review of a subset of Blake’s early work, where identifiable, is appropriate
taking into account what is now known about Blake’s conduct.73

       D.     Oversight of Blake’s PCR Qualification Testing and Early PCR
              Work

      Although Blake’s work and training performance was deficient at times,
she did not receive additional scrutiny from the Laboratory, either during her
qualifying testing to become a PCR Biologist or as she completed her first few
examinations as a PCR Biologist. We believe that this was an error. Blake’s
record in the DNAUI was inconsistent enough to warrant additional scrutiny.
The Examiner who oversaw most of Blake’s work as a PCR Biologist was not
made aware of her negative performance issues until after she was caught.
Also, no one asked him to pay closer attention to Blake’s work. Blake’s
supervisors should have had more information, consistent with applicable law
and regulations, and should have been looking more closely for discrepancies
in her work. Although it is not possible to say with certainty that Blake’s
misconduct would have been discovered earlier if her supervisors had had
more complete information, we believe that the additional scrutiny would have
increased the probability that she would have been detected prior to April
2002. Moreover, if her work had been analyzed during her initial qualifying
and proficiency tests as a PCR Biologist, or during her first several tests as a
PCR Biologist, her failure to run the negative control tests would likely have
been detected by the summer of 2000 before she had processed many cases.


V.          RECOMMENDATIONS

       With regard to the FBI’s response to Blake’s misconduct, we recommend
the following:

       1)     To facilitate prompt communications with evidence contributors and
              prosecutors in the event of future testing problems, the Laboratory
              should maintain the following information in an electronic format
              that can be shared conveniently with other FBI components (such
              as, FBI OPR and FBI OGC) and DOJ: all contributor contact and
              case information currently required for an evidence contributor to

        73 In this regard, we respectfully disagree with the conclusion of the United States

District Court for the District of New Jersey. See generally United States v. Smith, Criminal
No. 2000-399(JCL) (Memorandum Order, Jan. 12, 2004, D.N.J.) at 2 (denying motion for a new
trial where Blake had performed DNA examination). Blake’s conduct was not “unsophisti-
cated,” Smith, at 4; we believe that it was calculated and cunning. Blake exploited a loophole
to her advantage that no one previously had recognized. She also was clever enough to
experiment with her technique in the PCR training program, perhaps to see if anyone would
notice. Its discovery at that point could have been discounted by the difficulty of having to
learn complex test procedures.


                                             68
     request an evidence examination (see FBI Handbook of Forensic
     Services, (http://www.fbi.gov/hq/lab/handbook/intro2.htm); the e-
     mail address of the evidence contributor; and the name, title,
     agency, address, telephone number, and e-mail address of any
     associated prosecutor(s);

2)   In circumstances where a protocol violation renders testing results
     scientifically invalid and a report from the Laboratory is not expected
     to issue within 180 days from the discovery of the violation, the
     Laboratory should notify the evidence contributor of the following
     information within 90 days of learning of the violation: the nature of
     protocol violation; how the violation occurred; the remedial
     measures that the Laboratory intends to implement in the case to
     generate scientifically valid testing results; and the time needed to
     complete the remedial measures and to issue a final report.

3)   The FBI Laboratory should perform a file review of a sample of cases
     that Blake is known to have worked on prior to becoming a PCR
     Biologist to reconfirm that the procedures that were required in fact
     are documented as appropriate in the case files.




                                69
                             CHAPTER FIVE
                      OIG ASSESSMENT OF THE FBI’S
                     DNA PROTOCOLS AND PRACTICES

      Blake’s misconduct occurred even while the DNAUI received satisfactory
audit reports from both internal and external auditors. As described
previously, Blake was able to conceal her actions for almost a 2-year period
because of inadequate DNAUI internal controls.74 As a result, the OIG
undertook an assessment of the Laboratory’s DNA protocols and practices to
determine whether oversight vulnerabilities exist within the DNAUI.75


I.     ASSESSMENT FOUNDATION AND PROCESS

       A.     Objectives

    OIG staff designed the assessment to examine comprehensively the
DNAUI’s protocols and their application. Our objectives were to:

       •      analyze the vulnerability of DNAUI protocols to undetected
              inadvertent or willful noncompliance; and

       •      assess the DNAUI staff’s application of the protocols identified as
              vulnerable above.

      These objectives were accomplished in two phases. In the first phase,
the OIG team reviewed the written DNAUI protocols for vulnerabilities. The
second phase consisted of OIG fieldwork at the DNAUI laboratory.



       74  The FBI stated in a response to a draft of this report that the DNAUI’s success with
accreditation and other inspections conducted by internal and external auditors is evidence of
the adequacy of the DNAUI’s internal controls. As explained elsewhere in this report, we
concluded that Blake’s ability to avoid detection, even though the Laboratory passed these
inspections, is precisely why the additional measures set forth in Chapter Six are warranted.
Accreditation inspections and quality assurance audits examine compliance with quality
standards, but do not attempt to review a laboratory’s operations for all needed management
improvements. Our review identified numerous weaknesses that would not necessarily be
evident in an accreditation or other peer review.

       75 Due to the significant differences between the analysis performed by the DNAUI and

the DNAUII, including the performance of different techniques utilizing different pieces of
equipment, and the fact that Blake did not work on cases in DNAUII, we limited our review to
the protocols and practices of the DNAUI. However, we discuss infra the implications of
potential vulnerabilities within the DNAUII posed by the conclusions of our DNAUI assessment,
and recommend that the changes made in DNAUI procedures be applied to DNAUII where
applicable. See Chapter Five, Section II.B.6.


                                              70
      B.    Selection of Consulting Experts

       To facilitate the assessment, particularly the review of the protocols, we
recruited scientists from the national DNA community to assist the OIG. We
selected the scientists by first soliciting recommendations from various
contacts in the public and private DNA laboratory community, and then
selecting three persons who could provide the team with varied experiences
and a full understanding of the standards that govern forensic DNA
laboratories. The scientists selected were crucial contributors to the OIG’s
work and brought to the assessment expertise in academic research and
instruction; federal, state, and private DNA laboratory analysis and
administration; and national DNA advisory committee participation.

      The scientists we recruited were:

      •     Dr. Arthur J. Eisenberg, Associate Professor in the Department of
            Pathology and Director of the DNA Identity Laboratory, University
            of North Texas Health Science Center;

      •     Mr. William David Coffman, Crime Laboratory Analyst Supervisor,
            Florida Department of Law Enforcement, Tallahassee Regional
            Crime Laboratory; and

      •     Dr. John H. Ryan, Director of Forensic Programs at Myriad Genetic
            Laboratories Inc.

      Each of these individuals has a distinguished record in the field of DNA
analysis. Appendix 5 to this report contains brief biographies of the scientists.

      C.    Expert Introduction to the Work of the FBI Laboratory

      To formalize the scientists’ participation in the OIG’s work, we conducted
an orientation meeting in September 2002. At that time, OIG staff briefed the
scientists on the circumstances surrounding the assessment, including Blake’s
misconduct.

      During the orientation meeting, the FBI DNAUI Chief explained to the
scientists the timeline of events and the actions taken by the FBI after their
discovery of Blake’s actions. The scientists and OIG staff also toured the
DNAUI facilities – at that time housed at FBI Headquarters in Washington,
D.C. – to gain an overview of the DNAUI’s operations.

      The OIG staff distributed to the scientists checklists and supplemental
guidance designed to facilitate the scientists’ review of the DNAUI protocols.
The checklists and guidance contained key terms and definitions specific to our


                                        71
assessment, and supplemented the verbal explanations provided by OIG staff
describing what the scientists were to consider when determining whether a
protocol is vulnerable. OIG staff structured the checklists so that they
corresponded to the table of contents for each of the protocols reviewed to
ensure that each section of the documents was assessed. See Appendix 6
(examples of the checklists and guidance provided to the OIG scientists).

      For purposes of this assessment, we defined “vulnerability” as a function
of “impact” and “risk” as follows:

       •      “Impact” is the measure of how essential a particular procedure or
              protocol is to the generation of a complete and accurate DNA
              profile, including ensuring that available DNA samples are
              efficiently and effectively processed for analysis.

       •      “Risk” is the measure of the sufficiency of existing internal controls
              to prevent, where possible, both inadvertent and willful
              noncompliance and to detect noncompliance when it occurs.

       •      “Willful noncompliance” is the intentional circumvention of
              applicable procedures and protocols.76

       In addition to these definitions, categories of severity were defined so that
numeric ratings could be generated. The scientists were given descriptions of
the “impact” characteristics that a protocol or procedure would have if it fell
into low, medium, or high impact categories.77 They also were given similar
descriptions for the low, medium-low, medium, medium-high, and high risk78
categories.79 These categories are further defined in the guidance contained in
Appendix 6.

       76We applied this definition with the understanding that protocols alone cannot
prevent malicious acts by staff members.

       77  In general terms, a low impact protocol is not required for the Laboratory to meet
quality assurance requirements, and the procedures it sets forth have little or no impact on the
production of a complete and accurate DNA profile. A protocol of high impact is one that is
required by and governed by the quality assurance standards and is essential to obtain
complete and accurate DNA results, and to preserve the integrity of the evidence and of the
Laboratory’s final conclusions.

        78 In general terms, a low risk protocol contains multiple mechanisms for management

to ensure staff member compliance and to deter or detect noncompliance. A high risk protocol
is one where no monitoring is being conducted to gauge staff compliance with the protocol, and
the protocol contains no mechanisms to detect noncompliance.

       79  The OIG team divided the risk ratings into five categories, rather than the three
categories used for impact, because the risk category definitions were nuanced enough to allow
for additional distinctions. See Appendix 6.


                                              72
      Along with the checklists and guidance, OIG staff and the scientists
reviewed the DNAUI protocols described below, which had been supplied to the
OIG by the FBI. According to the FBI, these documents were the most current
version of each of the protocols governing DNAUI activities at that time.

       •      DNA Analysis Unit I Quality Assurance Manual, issue date of
              July 28, 2000;

       •      DNA Analysis Unit I Examiner Training Program, issue date of
              January 30, 2001;

       •      DNA Analysis Unit I Procedure for One Point Thermometer
              Calibration, issue date of May 15, 2001;

       •      DNA Analysis Unit I Procedure for Pipette Calibration, issue date of
              September 28, 2001;

       •      Procedures for the Serological Identification of Biological
              Substances on Evidentiary Materials, issue date of October 31,
              2001;

       •      Biologist Training Program & Requirements, DNA Analysis Unit I,
              issue date of January 2002;

       •      Short Tandem Repeat Analysis Protocol, FBI Laboratory, issue date
              of March 19, 2002;

       •      DNA Analysis Unit I Procedure for Monitoring Ultra-Violet Light
              Intensity, issue date of May 10, 2002;

       •      FBI Laboratory Division Caseworking Procedures Manual, issue
              date of July 15, 2002;

       •      FBI Laboratory Division Quality Assurance Manual, issue date of
              July 15, 2002; and

       •      DRAFT DNA Analysis Unit I Quality Assurance Manual, revision
              completed December 2002.80


        80 At the time of our review, the DNAUI Quality Assurance Manual was being updated.

We were provided with the August 2002 version of the updated manual, clearly labeled as a
“Draft” version. Upon review, the scientists found that the updated version was not materially
different from the earlier version, and therefore the earlier version was used for the document
review. The Draft version was not finalized until after the document review was completed by
the scientists.


                                              73
      D.    The Assessment Process

       The OIG staff established guidelines for implementation of the
assessment, including procedures that ensured that the scientists would
document their conclusions on the checklists provided by the OIG. In addition,
the scientists were instructed to base their conclusions solely on their analysis
of the written materials above. In other words, when gauging vulnerability
within the DNAUI, the scientists were to consider the contents of the protocols
only, not factoring in any understanding they might have of the FBI’s DNA
methods or their observations and conversations with DNAUI staff members
and management during the tour of the DNAUI. OIG staff intended the
guidelines to enable the scientists to take a fresh look at subjects with which
they were obviously familiar, so that they could find weaknesses in the internal
controls that others may have missed.

      The scientists reviewed the protocols in two sequential phases. OIG staff
worked with the scientists to divide the document sections into two groups for
review, referred to simply as Phase 1 and Phase 2. Phase 1 covered pre-
analysis protocols; Phase 2 focused on the remaining protocols, including those
related to the actual analysis of DNA samples. The checklists used by the
scientists reflect the division that was made. See Appendix 6.

       The scientists were given a period of time to review the protocol
documents for each phase and then met with OIG staff to discuss and record
the vulnerabilities identified. The meetings generated a consensus on the
impact and risk ratings that should be assigned to each protocol section. In
addition, the OIG recorded the underlying concerns for the agreed-upon ratings
assigned by the scientists to ensure that the fieldwork conducted later and the
conclusions and recommendations ultimately reported were an accurate
reflection of the specific underlying weaknesses.

      At the conclusion of the Phase 2 meeting, OIG staff asked the scientists
to assist them in devising fieldwork to identify the actual work practices of
DNAUI staff members. In preparation for fieldwork design, OIG staff
summarized the protocol sections in which the scientists had identified key
vulnerabilities, and analyzed the results to determine if any of the sections
pertained to similar subject matter. In addition, we analyzed the comments
voiced by the scientists for recurring themes and categorized them into key
concern areas. From this analysis, we designed fieldwork to verify actual
laboratory practices for protocols deemed vulnerable, and to assess whether
these practices served to mitigate the vulnerabilities identified.

      OIG staff conducted this fieldwork from March 12 through 21, 2003. The
fieldwork generally was comprised of a tour of the new DNAUI facility in
Quantico, Virginia, and a series of interviews of staff members from within the
DNAUI and the Laboratory Division. Where possible, interview responses and


                                       74
observations made during the tour were checked against supporting
documentation for verification.

      Fieldwork interviews served as our primary source of insight into the
DNAUI’s operations. We recognized that it would be important to collect
information from a broad cross-section of personnel, since we intended to
analyze their responses for consistency with the protocols, with others of the
same operational position, and with respondents in different positions.
Therefore we took the following steps to ensure variety in our sources of
information.

      Since the DNAUI staff function as teams, with each team generally
consisting of a Serologist, a PCR Biologist, and an Examiner, we interviewed
multiple staff members in each of these positions.

       We also recognized that the amount of time that a person had held a
position could affect his or her fluency in describing certain processes.
Consequently, we interviewed the most senior and the most junior employees
in each position, and judgmentally picked a third person in that same role. For
the third Serologist and Biologist interviewees, we selected a staff member who
was currently in training for a different team position and thus would have a
level of familiarity with the duties performed in both roles.

       This interviewing scheme was expanded to include a fourth interviewee
from among the Examiners, so that our interviewees would include, in addition
to the most senior and most junior Examiners, the Examiners who also
supervised the key programs within the DNAUI: the Examiner-Supervisor of
the Serology Program and the Examiner-Supervisor of the PCR (STR) Program.

      Finally, we interviewed DNAUI management, including the Unit Chief,
the Assistant Unit Chief, and the Quality Assurance Manager; and Laboratory
Division management, including the Laboratory Director, the Deputy Director,
and the Chief of the Scientific Analysis Section.

       We also reviewed documentation and interviewed key personnel
regarding: 1) the factors considered in the design of the new DNA facility;
2) the training curriculum and methods used within the DNAUI, along with
various staff training records; and 3) the status of development of the
Laboratory Information Management System (LIMS), a computerized tracking
system for evidence, samples, and other information. However, we did not
include in our fieldwork design an analysis of case file documentation for two
reasons:

      •     Blake’s misconduct persisted undetected due to the DNAUI’s policy
            that GeneScan® data produced during electrophoresis did not need



                                       75
               to be included in the case file and therefore did not need to be
               reviewed by the Unit’s Examiners. Consequently, a review of the
               case files would not shed additional light on Blake’s misconduct,
               nor would we be able to detect similar misconduct by other staff
               members from a case file review.

       •       In April 2002, OIG auditors had reviewed approximately 150
               DNAUI case files as part of an audit of the DNAUI and DNAUII’s
               compliance with standards governing their CODIS participation.81
               We reviewed these case files to determine if the DNA profiles from
               each case, as reflected in NDIS, were complete and accurate.82
               Further, we reviewed the case files to determine if the profiles and
               supporting documentation complied with applicable Forensic
               Standards and NDIS Requirements.83 This review identified no
               deviations from the applicable audit standards. While this work
               was performed prior to the OIG’s knowledge of Blake’s
               misconduct,84 the review did serve as an indicator of the results we
               could expect from a case file review.

      In addition, we relied upon the work performed by DNAUI management
and staff members, as described in Chapter Four, Section III.A, to determine
whether other DNAUI Biologists had failed to process the negative controls


        81 To select case files for review, we first obtained a list of identification numbers for all

of the profiles that the DNAUI had submitted to NDIS. The list was provided by the FBI
Laboratory’s FSSU, currently referred to as the CODIS Unit, which oversees the NDIS database.
From this listing we selected a random sample of 142 profiles from a universe of 1,693 profiles,
and requested that the DNAUI make available for our review the supporting case file
documentation.

       82  A DNA profile was considered complete if all the analysis results obtained were
reflected in the profile uploaded to NDIS. When the results in the uploaded profile matched
those on the Examiner’s worksheets, the profile was considered accurate.

       83   We considered the DNAUI case files and resulting profiles compliant with the
Forensic QAS if the required steps in the analysis process were completed and documented,
including the quantification of each sample’s DNA, and if both technical and administrative
reviews of the analysis work were performed. We concluded that the DNA profiles we reviewed
complied with the NDIS requirements if the profile qualified for inclusion in NDIS. The NDIS
requirements prohibit a laboratory from uploading profiles to NDIS that clearly match the DNA
profile of the victim or another known person, unless the known person is a suspected
perpetrator.

       84 We determined during our vulnerability assessment that one of the 142 cases

included in our file review was identified by the FBI as a case on which Blake worked and failed
to complete the negative controls. Our review could not have discerned Blake’s misconduct
from this case file because it did not include GeneScan® data per DNAUI policy. See discussion
regarding how Blake’s misconduct was detected in Chapter Four, Section II.D.


                                                 76
prior to the discovery of Blake’s misconduct. That work determined that the
controls were completed as required.

       We analyzed the results of our fieldwork and compared them with the
concerns voiced and vulnerabilities detected by the scientists to discern
whether information gathered during fieldwork confirmed the extent and
nature of the scientists’ conclusions. We then conducted a follow-up meeting
with the scientists to discuss the fieldwork results and to adjust, if necessary,
their earlier conclusions that had been based strictly on the document review.
The scientists made only a few minor updates to their earlier observations to
reflect the information obtained during fieldwork. Generally, they did not
change their conclusions regarding protocols previously identified as
vulnerable.


II.    DNA UNIT I PROTOCOLS AND PRACTICES IDENTIFIED AS
       VULNERABLE TO ABUSE

       A.     Types of Vulnerabilities Examined

       During our assessment within the DNAUI, we examined two types of
vulnerabilities: protocol vulnerabilities and practice or operational
vulnerabilities. Our textual analysis of the FBI protocols that govern the
DNAUI revealed various weaknesses, which are described in detail immediately
below. In addition, in the course of completing field work that examined how
staff members implemented the protocols that we identified as problematic, we
discovered numerous practice vulnerabilities. These are described along with
our analyses of the various protocols. The specific vulnerabilities we examined
within the two general categories (protocol and practice) are presented in order
of significance based upon the scope of the vulnerability (generally, the number
of document sections associated with it or the pervasiveness of the problem
across DNAUI functions) and its severity (generally, the extent to which the
vulnerability could undermine the DNAUI mission).

       B.     Analysis of Protocol Vulnerabilities

      As explained in Chapter Five, Section I.C of this report, our analysis of
protocol vulnerabilities is based on a review of 5 FBI manuals and 5
instructional documents that collectively contain 172 topical sections.85 See
discussion supra at page 33. From this review we identified 31 sections as
       85 The manuals are: 1) the FBI Laboratory Division Quality Assurance Manual; 2) the

DNA Analysis Unit I Quality Assurance Manual; 3) the FBI Laboratory Division Caseworking
Procedures Manual; 4) the Procedures for the Serological Identification of Biological Substances
on Evidentiary Materials; and 5) the Short Tandem Repeat Analysis Protocol. Of the five
instructional documents, three specify procedures for equipment monitoring and calibration,
and the remaining two address training programs for Biologists and Examiners.


                                              77
significantly vulnerable86 to inadvertent or willful noncompliance. It is
important to note that our identification of a “vulnerability” should not be
misconstrued as an invalidation of the science or techniques used by the
DNAUI, or as an indication of the inadequacy of the entirety of DNAUI policies
on a particular subject. Our use of the term “vulnerability” is limited to its
definition as set forth in Chapter Five, Section I.C.

       The sections we identified as significantly vulnerable to inadvertent or
willful noncompliance are identified below, with the most vulnerable sections in
bold italics:

       •      FBI Laboratory Division Quality Assurance Manual
              Of the 17 sections within this document, 2 are vulnerable:

              -       Evidence Control Policy

              -       Case Documentation Policy

       •      DNA Analysis Unit I Quality Assurance Manual
              Of the 20 sections within this document, 5 are vulnerable:

              -       Organization and Management

              -       Authority and Accountability

              -       Evidence Control

              -       Facilities (Security)

              -       Case Assignment, Documentation, and Review

       •      FBI Laboratory Division Caseworking Procedures Manual
              Of the 12 sections within this document, 1 is vulnerable:

              -       Procedures for the Examination of Evidence

       •      Procedures for the Serological Identification of Biological
              Substances on Evidentiary Materials
              Of the 72 sections within this document, 4 are vulnerable:


        86 As explained in Chapter Five, Section I.C, we assigned categories of severity to the

“impact” and “risk” ratings. We have included in our count of “significantly vulnerable”
sections those that were categorized by the scientists as being in the “high” or “medium-high”
impact and risk categories. We also limited our fieldwork testing to this same list of
significantly vulnerable sections.


                                               78
            -      Procedure for the Preparation of Dried Bloodstains from
                   Coagulated Whole Blood

            -      Procedure for the Preparation of Dried Bloodstains from
                   Anticoagulated Whole Blood

            -      Procedure for the Extraction of Suspected Semen Stains
                   Prior to OneStep ABA Card PSA Test: Quality Control
                   Procedures

            -      Procedure for the Extraction of Suspected Semen Stains
                   Prior to OneStep ABA Card PSA Test: Questioned Stain
                   Extraction Procedure

      •     Short Tandem Repeat Analysis Protocol
            Of the 46 sections within this document, 19 are vulnerable:

            -      Guidelines for Control Samples

            -      Extraction (includes a total of 10 sections)

            -      Amplification

            -      STR Typing: Setting up a Run

            -      GeneScan Analysis

            -      Interpretation of Control Samples

            -      Laboratory Set-up (includes a total of 4 sections)

       Although we identified 31 document sections as vulnerable, the causes of
the vulnerabilities were few in number. In general, one or more of four reasons
accounted for each of the vulnerability designations: 1) the protocol lacks
sufficient detail; 2) the protocol fails to inform the exercise of staff discretion;
3) the protocol fails to ensure the precision of manual notetaking; and 4) the
protocol is outdated.

     The following chart depicts the categories of vulnerabilities and the
document sections to which each category applies.




                                        79
                                       Protocol Vulnerabilities
                                        Protocol       Protocol Lacks
                                                                            Protocol Fails to
                                         Lacks          Guidance to                                 Protocol is
                                                                         Ensure the Precision
                                        Sufficient   Structure Decision-                            Outdated
Protocol Name and Section Title                                          of Manual Notetaking
                                         Detail            making

FBI Laboratory Division Quality Assurance Manual
Evidence Control Policy               X
Case Documentation Policy             X                                           X             x
DNA Analysis Unit I Quality Assurance Manual
Organization and Management           X
Authority and Accountability          X
Evidence Control                      X                                           X
Facilities (Security)                 X
Case Assignment, Documentation,
                                      X                                                                 X
and Review

FBI Laboratory Division Caseworking Procedures Manual
Procedures for the Examination of
Evidence                             X                                            X

Procedures for the Serological Identification of Biological Substances on Evidentiary Materials
Procedure for...Bloodstains from
                                        X                X
Coagulated Whole Blood
Procedure for … Bloodstains from
                                        X                X
Anticoagulated Whole Blood
Suspected Semen Stains...:
                                        X
Quality Control Procedures
Procedure for the Extraction of
Suspected Semen Stains...:              X                X
Questioned Stain Extraction

Short Tandem Repeat Analysis Protocol
Guidelines for Control Samples      X
                                            X
Extraction (total of 10 subsections)
Amplification                               X                                                           X
STR Typing: Setting up a Run                                                                            X
Genescan Analysis                                            X                                          X
Interpretation of Control Samples           X                X
Laboratory Set-up (total of 4
                                            X
subsections)


      Given that each type of vulnerability was observed in multiple document
sections, for ease of comprehension and to avoid repetition, we describe below
each of the protocol vulnerabilities according to its cause rather than by
individual document section.

                  1.       Protocols That Lack Sufficient Detail

      Our review of the DNAUI protocols revealed that 29 of 172 document
sections lacked the detail necessary for a technically qualified DNA scientist to
reproduce all aspects of the analysis procedures in use in the DNAUI without
the potential for variation. In our view, a qualified DNA scientist should be



                                                          80
able to locate the DNAUI’s essential testing requirements in its protocols and
not have to resort to peripheral sources. Further, the protocols should contain
guidance sufficient to ensure that qualified scientists are consistent in their
interpretation of the testing requirements.

       While the sections we have identified as lacking essential detail are a
relatively small percentage of the total protocols examined in our review, we
consider this vulnerability to be the most significant of the ones we identified
and the most important indicator of the DNAUI’s susceptibility to inadvertent
noncompliance. Protocols that lack essential detail can create a work
environment that encourages use of disparate and unproven laboratory
practices. When laboratory staff members must rely on ad hoc verbal cues
from their peers to complete their duties, the risk increases that they will
deviate from the practices that are necessary to generate valid and reliable
testing results. In addition, protocols that lack essential detail can foster a
perception among staff members that the protocols are not authoritative and
can be disregarded, even though they should serve as the DNAUI’s primary
source of instruction.

       We describe below six sets of protocol sections that share similar
deficiencies: 1) Evidence Control, Facilities (Security), and Procedures for the
Examination of Evidence; 2) Extraction, Amplification, and Laboratory Set-Up;
3) Procedures for the Preparation of Dried Bloodstains from Coagulated Whole
Blood and from Anticoagulated Whole Blood; and Procedures for the Extraction of
Suspected Semen Stains: Quality Control Procedures and Questioned Stain
Extraction Procedure; 4) Case Documentation Policy and Case Assignment,
Documentation and Review; 5) Guidelines for Control Samples and Interpretation
of Control Samples; and 6) Organization and Management and Authority and
Accountability.

                   a)    Evidence Control, Facilities (Security), and
                         Procedures for the Examination of Evidence

      Written Protocol

       Forensic Standard 6.1 requires that laboratories have a facility that is
designed to provide security and minimize contamination. This includes, as
specified in subsection 6.1.1, controlling and limiting the access to the
laboratory; and, as specified in subsection 6.1.2, separating by time or space
evidence examinations, DNA extraction, PCR setup, and PCR amplification.
Further, Forensic Standard 7.1 requires that DNA laboratories have and follow
a documented evidence control system to ensure the integrity of physical
evidence, including (as specified in subsection 7.1.4) secure areas for evidence
storage.




                                       81
       While the DNAUI protocols address compliance with these standards in
general terms, certain sections of the protocols lack the level of detail necessary
to ensure that staff members understand and comply with management
expectations regarding evidence control and security. We identified four
sections as problematic: the Evidence Control Policy of the FBI Laboratory
Division Quality Assurance Manual; the Evidence Control and Facilities
(Security) sections of the DNA Analysis Unit I Quality Assurance Manual; and
the Procedures for the Examination of Evidence section of the FBI Laboratory
Division Caseworking Procedures Manual.

      For example, the Evidence Control Policy requires in Section 3.2 that
“Evidence will be labeled, stored, secured, and/or sealed to prevent loss, cross-
transfer, contamination, or deleterious change.” Additional guidance is not
provided regarding how staff members should implement this protocol with
respect to particular kinds of evidence. While this information may not be
included within a laboratory-wide policy such as this one, we expected to find,
and did not, a reference to other FBI manuals or protocols where more specific
guidance can be obtained. Similar language is found in Section 3.5, which
requires without elaboration the use of “universal precautions . . . to ensure
the health and safety of personnel.”

      The Evidence Control Section of the DNA Analysis Unit I Quality
Assurance Manual also includes vague provisions. For example, Section 7.6.1
states that “DNAUI will utilize documented standard operating procedures
which minimize potential sample loss, contamination and/or deleterious
change to the evidence.” It does not, however, identify what those procedures
are or reference another source where they are specified. Section 7.6.2
requires that “an attempt to limit the consumption of evidence should be made,
when possible,” and although three subpoints are provided explaining how
storage should be used to limit consuming an evidence sample, the protocol
does not clarify what is meant by “when possible” or address methods other
than storage that can be used to ensure that a remnant of the evidence
remains for future testing.

      In addition, the proper handling of evidence during examinations is not
addressed in the Evidence Control section. That section contains a discussion
of chain-of-custody issues and the proper transfer, storage, and labeling of
evidence, all of which are crucial to ensuring evidence integrity. Yet, if evidence
is mishandled during the course of the examination itself, the benefits obtained
from these precautions will be lost. While we were able to locate some
examination evidence handling information in the Short Tandem Repeat
Analysis Protocol, no reference was made to it in the evidence control policies,
and the limited information provided in the STR protocol is no substitute for
comprehensive guidance. We anticipated, for example, that the DNAUI
protocols would specify that Serologists with workbenches in close proximity to



                                        82
each other should not have case evidence open at the same time or that some
type of “sign-up” sheet would be used to ensure that they do not use adjoining
areas concurrently. Also, we expected to find a clear description of what it
means to “separate” known and unknown DNA samples. Separation could
mean that staff members clean between processing samples but use the same
area, or alternatively that a different ventilation hood is used for the known
and unknown samples. However, no such guidance on either issue is
provided.

      We also identified in the Procedures for the Examination of Evidence
similar broad statements as those found in the Evidence Control Policy.87 For
example, although Section 4.1.3 directs staff members to “follow established
unit precautions to preserve the integrity of the evidence,” we were unable to
locate a listing or explanation of the referenced “unit precautions.” Also,
Section 4.5.1 directs staff members to place evidence in a limited access
secured area when they must leave it unattended and “protect the exposed
areas of the evidence from loss, cross-transfer, and/or contamination.”
However, no explanation is provided regarding how staff members should
implement this requirement, or what is intended by terms such as “protect” or
“exposed areas.” During an OIG tour of the DNAUI, staff members explained
that evidence items under active examination can be left out while staff take
breaks and that the evidence is marked with an “Evidence – Do Not Disturb”
sign. Leaving evidence exposed poses unnecessary risks of evidence
contamination, and the Procedures for the Examination of Evidence should be
amended to require the proper storage of evidence when it is not being
examined.88

      In the Facilities (Security) Section of the DNA Analysis Unit I Quality
Assurance Manual, the discussion of facility access limitations is not clear. For
example, Section 6.1 specifies that “access to these areas [specific rooms that
comprise DNAUI space are listed] are controlled by DNAUI personnel.”
However, no further explanation is provided for how DNAUI personnel are
expected to accomplish this access control. Further, the Section states that
“non-DNAUI personnel are permitted entry during normal working hours for

       87  The Procedures for the Examination of Evidence section appears in the FBI
Laboratory Division Caseworking Procedures Manual, while the Evidence Control Policy is found
in the FBI Laboratory Division Quality Assurance Manual.

        88 Although not an issue that concerns protocol vagueness, we note that the evidence

storage description in Section 6.4.3 of the Facilities (Security) Policy of the DNA Analysis Unit I
Quality Assurance Manual permits large items needing room-temperature storage to be placed
in a DNAUI room with an “Evidence – Do Not Disturb” sign displayed, if properly sealed in a
tamper-evident manner, rather than requiring storage in a separately secured space such as
an evidence vault. While this policy might have been necessitated by the limited storage
available at the DNAUI’s previous facility, its current facility allows for bulky evidence to be
stored in a separately secured area and therefore the DNAUI should change its policy to the
better practice of separately securing all evidence.


                                                83
purposes relative to laboratory operations.” Yet, no further explanation is
provided concerning what restrictions should be imposed on non-DNAUI
personnel (e.g., whether visitors must be escorted and in what areas they are
permitted access). The Section seems to assume that DNAUI personnel already
are aware of existing physical access restrictions, for the building and for the
laboratory space, that serve as components of the Unit-specific access control.
Instead, access control and physical security should be described (and other
relevant sources referenced) in the DNA Analysis Unit I Quality Assurance
Manual, and those descriptions should not assume an understanding of other
physical access limitations.89

       The overly broad or vague language used in the above evidence-control
related protocols creates a number of problems. Staff members may not fully
understand how they are expected to avoid loss, cross-transfer, or
contamination of evidence, and may not realize that they are putting evidence
at risk through the handling methods they have adopted. One item of evidence
might be allowed to come too close to another item, and hairs, blood flakes, or
fibers that become airborne might inadvertently be transferred to other
evidence, possibly causing the analysis results to reflect improperly a
connection between the cases or a DNA profile of someone not actually involved
in the case.

       Further, leaving evidence exposed and unattended poses a risk to the
Examiner’s ability to attest that team members maintained control over it. The
importance assigned by DNAUI management to controlling access to evidence
is apparent from other DNAUI protocols: 1) as a means of verifying limited
access, evidence not under examination is stored sealed with tamper-evident
material; and 2) evidence not under examination is secured in locked
refrigerators, freezers, and bulky-storage space. It is difficult to reconcile these
policies with protocols that contemplate that evidence will be left unattended
and that fail to provide clear guidance for how it is to be protected.

       Finally, there is a risk that evidence that is left unattended could suffer
damage through an unforeseen event, such as fire-alarm sprinklers being set
off in an emergency, or a plumbing leak that floods and compromises space
below it. If that evidence were in a locked cabinet or refrigerator/freezer, it
would be further protected in such events.

       Interviews

     In light of these potential risks, we conducted fieldwork to determine
whether other factors diminished the risks we had detected during our

       89 In response to a draft of this report, FBI Laboratory management stated that the
DNA Analysis Unit I Quality Assurance Manual has now been revised to include the
information we cite as missing here.


                                             84
document review. At the time of our fieldwork, the DNAUI had relocated from
FBI Headquarters to a new laboratory building at Quantico, Virginia. We found
that the change of facilities mitigated to some extent the impact of the lack of
detail in several of the facility-related protocols. Specifically:

       •      The new facilities provide each Serologist and PCR Biologist with
              an ample evidence examination area that is not in close proximity
              to other examination areas. Further, each of the work areas is
              equipped with a vacuum hood to prevent the sharing of hoods that
              had been necessary at the previous location.

       •      Each work station is also equipped with individually securable
              storage for both case files and evidence items.90 Each room is also
              equipped with a lock to which only the staff members with work
              areas in that room (and appropriate management officials) have a
              key, allowing them to secure their work area and evidence under
              examination if the room is left unoccupied.

       •      DNAUI now has the use of an evidence vault large enough for
              bulky, room-temperature evidence to be independently secured,
              and therefore the DNAUI should have no further need to store
              sealed room-temperature evidence in a DNAUI laboratory room.

       •      DNAUI also has a large evidence examination room for oversized
              items that allows them to be spread out unobstructed in a
              controlled setting. The room is separately securable to ensure that
              only the DNAUI staff members examining a large evidence item
              have access to that room if the evidence must be left unattended.

      Our fieldwork also included interviewing staff members and management
to determine whether their work practices offset any of the vulnerabilities
created by weaknesses in the evidence control procedures and protocols.

       We determined that there are several practices, primarily falling under
the heading of cleaning and decontamination, that mitigate to some extent the
protocol limitations. For example, we were informed by all staff members
involved in evidence examinations that it is DNAUI practice to cover the work
surface with paper prior to laying out an evidence item for examination. Such
a step reduces the possibility for cross-transfer, since the paper that surrounds
the item serves as a buffer between the item being examined by one member
and another in close proximity. Also, we were informed that if an item

        90 The phrase “independently securable storage” refers to storage that can be secured

independently of the security of the laboratory rooms in which the evidence might be placed, so
that evidence control is not dependent entirely upon access limitations.



                                              85
stretches beyond the parameters of the paper, then that portion of the work
surface is decontaminated before moving on to another item. Further, staff
members stated that work surfaces are decontaminated between cases, and
utensils used in the examination of an item are decontaminated between items.
Almost all staff members and management personnel interviewed regarding
evidence handling issues reported working on one item at a time and one case
at a time, separating evidence samples from known samples, using and
changing gloves, cleaning and/or decontaminating work benches and hoods
regularly, and changing work surfaces between items.91 Also, the responses of
staff members that were able to identify where in the protocols these
requirements are found, as well as the responses provided by management,
were consistent as to which protocols serve as the source of guidance on
general evidence handling, cleaning, and decontamination.

       However, not all of the staff members interviewed were able to identify
where guidance on these topics could be located in the protocols. In addition,
in spite of the consistency of the responses among those that did know where
the guidance could be located, their responses indicated in other ways the need
for greater clarity and detail in the written procedures and protocols. For
example, several interviewees commented on the lack of general evidence
handling guidance for serologists (additional deficiencies found in the
Procedures for the Serological Identification of Biological Substances on
Evidentiary Materials are addressed in the next section). In addition, when
questioned regarding the separation of known and unknown samples, interview
responses lacked a precise indication of the period of time or amount of space
that meets the requirement for “separation.” Consequently, it was not evident
from the responses whether staff members have a clear understanding of the
requirement to separate known and unknown samples.

      Further, of all the staff members and management interviews we
conducted, only one Laboratory employee, an Examiner, cited as a source of
guidance the FBI Laboratory Division Caseworking Procedures Manual. This
Manual provides the most detailed guidance available to DNAUI staff members
on the subjects of inventorying, identifying, and examining evidence. In
addition, it is the only protocol that addresses the issue of leaving evidence
unattended during examinations, and the requirements (even though they are
overly broad) for how that evidence is to be handled. One staff member, a
senior PCR Biologist, claimed to have never seen the Manual before.

      Many of the interviewees commented on the lack of written guidance
concerning the routing sequence when evidence needs to be distributed to
multiple units. These interviewees indicated that they know there is a definite

       91 The descriptions provided in Chapter Three, Sections II.B.2 & 3, supra, regarding
cleaning and decontamination, separation of sample sources, and stages in the analysis
process reflect the responses we typically received during the interviews.


                                             86
order that evidence needs to follow to preserve each unit’s ability to conduct
testing. For example, the Latent Fingerprints Unit must test before the DNAUI
tests, and the item cannot be stored in a refrigerator or freezer prior to the
latent testing. One Examiner commented on the importance of this issue,
emphasizing that the Serologists must be very conscious of the items that
might need testing by other units, and work to preserve the evidence that is
needed for this testing. The Examiner explained that when there is a question
about how to route evidence, Serologists are expected to obtain input from the
other unit. Yet, this guidance is not part of the DNAUI’s serology procedures.

      We also detected variance in responses regarding particular procedures
in the protocols. While not every variance translates into a problem, diverging
interpretations by staff members could indicate that they do not fully
understand protocol requirements or are given a measure of flexibility that is
not reflected in the protocol. The following examples illustrate these points:

       •      Drying of Samples: While most Serologists stated that known and
              unknown samples are dried at different times, one Serologist
              explained that they can dry at the same time.92 The same
              Serologist did not believe there was a requirement for separating
              high and low quantity DNA samples, even though the specific
              requirement is contained in the Short Tandem Repeat Analysis
              Protocol. It is noteworthy that this protocol is one which
              Serologists, because of their duties, are not required to use or
              know. However, a senior Examiner also stated that there is not a
              specific requirement in the protocols for the separation of high and
              low quantity DNA samples, even though the Examiner is required
              to follow the Short Tandem Repeat Analysis Protocol that contains
              this requirement.

       •      Examiners’ Understanding of the Biologists’ Cleaning and
              Decontamination Practices: One Examiner stated that the PCR
              Biologists change gloves “whenever they are soiled” whereas
              another stated that they are changed between examination of
              items. One Examiner explained that a PCR Biologist might only
              change the work-surface paper between cases, while another
              stated that, in addition to changing the paper between cases, the
              hoods are cleaned. A third Examiner stated that, while he was
              uncertain, he thought that the hoods are decontaminated with
              ultra-violet light between cases; a fourth Examiner stated that the
              hoods are cleaned with bleach between processing evidence and
              known samples. The fact that each Examiner explained the

       92  Rather than using liquid blood from a tube for analysis, the practice in the DNAUI is
to place a small amount of blood on a card, dry the card, and then use a portion of the dried
stain for analysis.


                                              87
           cleaning and decontamination practices differently casts doubt on
           the clarity of their understanding. This is significant because
           Examiners may be required to describe those practices in court.

     •     Leaving Evidence Under Active Examination Exposed and
           Unattended During Staff Breaks: Staff members and managers
           who described this practice in their responses explained that the
           evidence is sealed and secured, and that an “Evidence – Do Not
           Disturb” sign is used (as explained in the written protocol).
           However, some staff members further described methods that
           exceed what is explicitly required. For example, an Examiner
           stated that when taking a break, one Serologist would cover the
           evidence with brown paper, and then place a sign over the
           evidence, or, if possible, return the evidence to its container and
           place a sign over the container. This Examiner was the only staff
           member to mention using paper to protect the evidence. Also, a
           senior PCR Biologist stated that for a quick break, his team uses a
           sign, and for longer breaks they return the evidence to its original
           package and use a sign. The Biologist added that with big items
           that had just been situated, staff members can leave the item out
           and tape off the area, placing a sign on the evidence. This
           Biologist was the only staff member to mention taping off the area
           where evidence was left out. Although these methods – using
           paper as a covering, returning the item to its original container,
           and taping the area off for larger items – serve to mitigate the risks
           associated with leaving evidence exposed and unattended, these
           methods are not reflected in the protocol. Therefore, there is no
           assurance that other staff members know and apply these
           methods, particularly since other respondents did not mention
           them.

        During our fieldwork at the FBI’s new laboratory, we inquired about
facility security and were informed that access to DNAUI space is limited to
DNAUI staff members, either by regular keys or by card keys. Although these
practices seem sufficient, they are not evident from the text of the relevant
protocol. In addition, after receiving interview comments that showed that
some Laboratory personnel did not understand the importance of the protocols,
we inquired whether staff members are required to certify that they have read
and understand protocol revisions. According to the Unit Chief, staff members
are required to attest to the receipt of new versions of the protocols. For
notifications of changes that are made between revisions, no certification of
receipt is required. The Unit Chief added that during training both trainees
and trainers must attest to the trainee’s understanding of the importance of
adherence to protocols.




                                      88
       In light of the foregoing, we concluded that the potential risks posed by
the lack of detail in the protocols described above, particularly the risks
associated with facility limitations, have been mitigated somewhat by the
following: 1) the DNAUI has moved to a new facility that no longer has the
limitations we noted in the previous facility; 2) interview responses identified
several methods and practices that exceed protocol requirements and that
appear to protect the evidence; and 3) interview responses were largely
consistent and in agreement with the protocols.

      However, several interview responses we received revealed that some
DNAUI staff members have an incomplete or inaccurate understanding of
evidence handling and control requirements, and two persons we interviewed
indicated that the protocols are not essential to their daily activities. We
believe that staff members who do not understand or appreciate the
importance of evidence handling and control procedures are susceptible to
inadvertent noncompliance with the applicable protocols.

      Recommendations

      We recommend that DNAUI management:

      4)    Supplement the evidence handling and control protocols with
            sufficient detail so that they serve as a comprehensive source of
            guidance for staff members;

      5)    Cross-reference the DNAUI manuals, in specific sections where the
            subject matter warrants, with more detailed sources of guidance
            available to DNAUI staff members, such as the FBI Laboratory
            Division Caseworking Procedures Manual or the Short Tandem
            Repeat Analysis Protocol;

      6)    Revise policies for leaving the security of unattended evidence under
            examination dependent upon the facility access limitations, in light
            of the availability of independently securable storage for staff
            members at their workstations and of a bulky evidence examination
            room that is securable; and

      7)    Implement a policy that requires staff members to certify that they
            have read, understand, and will comply with each written protocol
            or procedure that governs DNAUI activities, including any approved
            deviations or other guidance issued that have not yet been
            formalized in a protocol.




                                       89
                      b)     Extraction, Amplification, and Laboratory Set-up

      Written Protocol

       Forensic Standard 9.1 requires that DNA laboratories follow written
analytical procedures, including a standard operating protocol for each
analytical technique employed.93 Forensic Standard 9.1.2 requires that the
procedures meeting these requirements address reagents, sample preparation,
extraction, equipment, controls, and data interpretation. While the DNAUI
meets these standards with the Short Tandem Repeat Analysis Protocol, we
identified important information that is missing from its Extraction,
Amplification, and Laboratory Set-up sections.

       First, both the Extraction and Amplification sections fail to specify the
requirements for the separation of known and unknown samples and of high-
and low-quantity DNA samples. We believe that the Extraction section should
specifically prohibit having two sample tubes open at once, and the
Amplification section should require control samples to be processed last. The
Extraction section also contains provisions that are overly broad: the
incubation time given in Section 4.1.3 is listed as between 2 and 24 hours, and
there are provisions in Sections 4.3-9 for staff members to perform additional
organic extractions, if needed, without information provided regarding when
and why those additional extractions would be appropriate. Finally,
Amplification Section 6.7 fails to describe clearly the order in which sample
tubes should be set up.

      We recognize that some of the missing information cited in the previous
paragraph is located within the Laboratory Set-up section, specifically the
requirement for the separation of known and unknown samples and of high-
and low-quantity DNA samples. The Laboratory Set-up section also clearly
requires that the negative control samples be processed last as part of the
amplification set-up, which is important for those samples to indicate
contamination effectively. However, because the protocols function in part as a
reference manual, the listing of these requirements in the Laboratory Set-up
section does not diminish the need for them also to be presented in the
protocol sections that address the stages in the analysis process (i.e.,
extraction and amplification) where an understanding of the requirements is
most crucial. An employee who seeks guidance on an analytical step should
find complete information in the relevant sections of the protocol and should
not have to search elsewhere.

     Moreover, the requirements described above that are included in the
Laboratory Set-up section do not provide the level of specificity and clarity

      93   See Forensic Standard 9.1.1.


                                          90
necessary for staff members to understand what is intended by the
“separation” of the types of samples. For example, special precaution 3 under
Section 12.2 states that “[i]t is important that the DNA extraction of questioned
samples be performed at a separate time from the DNA extraction of known
samples.” Yet, the protocol does not explain what is meant by “separate time.”
It should state that all the unknown samples must be processed, capped, and
removed from the immediate work-area before staff members begin to process
the known samples. Also, special precaution 4 under Section 12.1 directs staff
members to “[w]henever possible, extract samples containing high levels of
DNA (whole blood) separately from samples containing low levels of DNA
(stamps, small bloodstains, etc.) to minimize the potential for sample-to-sample
contamination.” Unfortunately, the qualifier “whenever possible” renders the
protocol vague and open to differing interpretation.

       Due to the importance of separating known and unknown samples, the
risks posed by the lack of detail in the protocols described above are
substantial. Without the requirement to process, cap, and set aside the
unknown samples before processing the known samples, the risk of cross-
contamination increases. In addition, without a clear requirement that
separation be maintained during extraction and amplification, samples may be
compromised later in the DNA analysis process. The implications of this
particular aspect of a DNA laboratory’s internal controls are far-reaching for
the evidence tested and the presentation of the analysis results in court:
adequate separation of known and unknown samples enables examiners to
testify that the connection made between a suspect and the crime scene
evidence analyzed is not the result of cross-contamination between the known
sample from the suspected perpetrator(s) and the evidence items. If the known
samples were to contaminate the evidence, the analysis results for the evidence
profile would reflect the profile from a known sample as well as the profile
obtained from the DNA present on the evidence item. In addition, the strength
of the DNA in the known sample could serve to “drown out” the results of the
DNA in the evidence, causing the resultant profile to reflect only faintly the
DNA present in the evidence. Further, if the profile from a known sample were
to appear in the analysis results for an evidence sample, an Examiner might
wrongfully conclude that the contributor of that known sample is the potential
source of the DNA on the evidence in the case being investigated.

      Lastly, aside from sample separation, the lack of specific guidance in the
protocols regarding incubation time and the use of additional organic
extractions leaves Unit staff members at risk of deviating inadvertently from
management expectations in those areas.

      Interviews

      In our interviews with DNAUI staff members regarding extraction,
amplification, and laboratory set-up procedures, we asked them to comment


                                       91
on: 1) the separation of sample types and the separation of the stages in the
analysis process; 2) the exact incubation time used by staff members; 3) the
use of the provision that governs additional organic extractions; and 4) the
details of amplification set-up. Responses were virtually identical from the PCR
Biologists and Laboratory management regarding the incubation time, the
circumstances under which they would perform additional organic extractions,
the separation of the stages in the analysis process, and the details of
amplification set-up. In addition, written guidance had been disseminated to
staff members restricting the incubation time to a more precise period.

       Responses also were very similar regarding the separation of known and
unknown samples during analysis. However, as previously described at
page 86, the interview responses we received regarding sample separation did
not reveal that staff members share a common understanding of the meaning
of “separation,” which would mitigate the risk resulting from the lack of clarity
in the protocols. In addition, staff members and management generally
indicated that the evidence and known samples are currently separated only
through the completion of the extraction of the DNA from the samples. From
that point forward the sample tubes from evidence and known sources can be
on the same tray and can be set up for amplification at the same time. While
such a policy limits the risk of contamination during the extraction process, it
does not address possible contamination during amplification set-up.
Therefore, evidence samples are still at risk for contamination prior to
amplification.

       With respect to separation of the analytical stages themselves, one area
of vagueness surfaced when we interviewed the PCR Biologists about the
amplification set-up process. Interviewees acknowledged that it is clear in the
protocols that DNA extraction, PCR set-up, and amplification are to be
conducted separately. Further, there is a requirement to have dedicated
equipment for the pre-amplification areas of the Laboratory isolated from the
dedicated equipment used in the amplification areas. We confirmed that these
requirements are explained and referred to throughout the Laboratory Set-up
section of the Short Tandem Repeat Analysis Protocol. However, we noted from
the interview responses that the PCR Biologists have a practice of using a pre-
amplification tray to carry tubes to the amplification room. The tubes are then
placed into the thermal cycler and the “transport tray” returned to the pre-
amplification area. Since the protocols do not address this practice or provide
guidelines regarding the cleaning or decontamination steps that should be
completed before that tray is put back in use, we could not compare the
interviewee responses to written requirements. However, recognizing that some
cleaning of the tray is necessary prior to future use, we inquired further with
the PCR Biologists we had previously interviewed and were told that they
understand the importance of cleaning these trays, and that they believe this to
be true for all the PCR Biologists. Each of the interviewees described the
cleaning method they use, whether a bleach wash, a UV light source, or both.


                                       92
But the PCR Biologists acknowledged that there is no specific guidance on this
aspect of the process in the protocols.

      Finally, the DNAUI Chief explained that, in light of the foregoing risks,
the Unit is making arrangements to have the known and unknown samples
processed in different locations within the Unit. Thus, different staff members,
equipment, and space will be used to analyze the known and unknown
samples, mitigating any risk of cross-contamination due to the lack of
separation.

       Therefore, we concluded that the lack of guidance for Biologists on the
use of transport trays was mitigated somewhat by Biologist cleaning practices.
However, we find unmitigated the risks posed by: 1) the lack of clear
delineation in the protocols or staff responses for what constitutes adequate
separation of known and unknown samples; and 2) the failure to maintain that
separation through amplification. While we acknowledge that DNAUI
management’s proposed solution of analyzing known and unknown samples in
different sections of the Laboratory would address these risks, we base our
conclusions and resultant recommendations on the protocols in place at the
time of our review.

      Recommendations

      We recommend that:

      8)    DNAUI management amend the protocols to clarify what is required
            to “separate” known and evidence samples and to ensure that such
            separation occurs during examination, extraction, and amplification.

      9)    DNAUI management reflect in the protocols: (a) the current
            requirement for incubation time; (b) the procedures described by
            staff during interviews for the use of additional organic extractions;
            (c) the required order that samples are to be set up for amplification,
            as described by staff during interviews; and (d) explicit directions for
            the cleaning of the “transport trays” used by PCR biologists. This
            information, as well as the extraction and amplification evidence
            handling requirements found in the Laboratory Set-up section,
            should be reflected in the extraction and amplification sections of
            the Short Tandem Repeat Analysis Protocol, where that information
            is most pertinent to the surrounding information.




                                       93
                     c)     Procedures for the Preparation of Dried
                            Bloodstains from Coagulated Whole Blood and
                            from Anticoagulated Whole Blood; and Procedures
                            for the Extraction of Suspected Semen Stains:
                            Quality Control Procedures and Questioned Stain
                            Extraction Procedure

       Written Protocols

       Our analysis of the Procedures for the Serological Identification of
Biological Substances on Evidentiary Materials, which includes bloodstains,
semen, quality control, and stain extraction protocols, revealed that it fails to
provide adequate guidance on various evidence handling procedures. The
following examples illustrate information gaps that DNAUI Serologists fill using
unwritten standards.

       •      The Procedures for the Extraction of Suspected Semen Stains:
              Quality Control Procedures and Procedures for the Extraction of
              Suspected Semen Stains: Questioned Stain Extraction Procedure, do
              not address: 1) the amount of a swab to use for testing; 2) whether
              extracts and swabs are both sent to the Biologist for testing;
              3) general precautionary steps to reduce contamination (such as
              the use of disposable paper); 4) the usable life of the positive
              semen control;94 and 5) what should be done if the stain extraction
              procedure detects no semen.

       •      The Procedures for the Preparation of Dried Bloodstains from
              Coagulated Whole Blood and Procedures for the Preparation of Dried
              Bloodstains from Anticoagulated Whole Blood do not state that
              cotton sheeting used in the procedures should be pretested to
              ensure that it is sterile, and do not identify the quantity of blood to
              use when making bloodstains for drying.

      A risk posed by the failure to establish comprehensive guidelines on the
amount of evidence to use in testing (e.g., items 1 & 2 above for semen
protocols) is that DNAUI staff members inadvertently may use too much of the
available body fluid stain or exhaust the supply altogether, making future
testing impossible. In circumstances where the first analysis run proves
problematic, such waste could prevent acquisition of scientifically valid testing
results since staff would not later have the option of reanalyzing a sufficient
quantity of the evidence. In addition, the lack of general evidence handling
guidance in these sections (e.g., items 3 & 4 above for semen protocols, and
use of cotton sheeting in bloodstain protocol) poses an unnecessary risk of

       94The DNAUI uses a positive semen control when testing potential semen stains during
casework as a means of ensuring that the test functioned properly.


                                            94
contamination, possibly hindering the production of a usable DNA profile.
Further, the lack of a clear description of what should occur if a stain
extraction procedure detects no semen (e.g., item 5 above for semen protocols),
presents the risk that the analysis process could be prematurely halted rather
than taking additional steps to determine if the evidence sample contains DNA.
Further, although in isolation the remaining information missing from the
protocols may have only a minor impact on DNAUI operations, the cumulative
effect of failing to provide comprehensive guidance in the protocols is to allow a
significant portion of the Unit’s operations to be determined by the
idiosyncrasies of individual staff member preferences. This in turn conveys the
message that the written procedures and protocols are a peripheral source of
instruction, and puts the DNAUI at greater risk for protocol noncompliance.

       Interviews

      During our fieldwork we interviewed DNAUI Serologists and Laboratory
management regarding various information gaps in the serology protocols.
Specifically, we asked them to describe: 1) the circumstances in which they
would or would not perform each of the serology tests; 2) the factors they
consider to determine how much evidence to test and how much to forward to
the PCR Biologist; 3) their understanding of the usable life of the semen
control; and 4) what steps are taken after testing if they obtain a negative
result (indicating that no semen was detected). Serologist responses were
generally similar on each of these issues and to the responses provided by
management, indicating that staff members have acquired a clear
understanding through training or peer input of management expectations.

       Serologists offered mixed responses on only one issue: the useable life of
the semen control. While they guessed what the expiration date might be
(generally their guesses of one year were correct), they also stated that they
look for a strong result from the control. If they do not obtain one, they simply
retest a new batch of control sample.95 Further, they commented that the
semen control is used in significant enough volume that the expiration date is
not an issue (each batch is used before the expiration date would be reached).

      We reviewed the logs documenting the reagents used and confirmed that
the last three batches of semen control were depleted prior to each batch’s
1-year expiration date. In addition, we confirmed from the protocol that an
expiration date is provided for staff members, but not within the Procedures for
the Extraction of Suspected Semen Stains section of the protocol. Instead, the
useable life of semen control samples is set forth in the Procedure for the
Presumptive Identification of Semen. Consequently, we concluded that, while
Serologists should be reminded of the control expiration dates, the Serologists’

       95 According to the protocol, Serologists test the control prior to processing the
evidence samples so that a control failure does not jeopardize the analysis of the evidence.


                                               95
unfamiliarity with that information does not pose a significant risk to the
proper analysis of evidence samples.

       In addition, we determined from the interview responses that staff
member practices include various helpful internal controls that are not
reflected in the protocols. Specifically, one member of management stated that
the serology procedures do not reveal that a team’s PCR Biologist also looks at
and describes the evidence that the team’s Serologist receives, and those
descriptions can be compared for consistency. Staff member interviews also
described a practice of performing a “general swabbing” of an item to ensure
that no possible sources of DNA on that item have been missed. OIG team
scientists stated that this is a valuable practice to ensure that staff members
exhaust all options in finding potentially probative DNA sources.

       Thus, our field work demonstrated that staff members generally possess
a clear and consistent understanding of management expectations regarding
serology procedures. We therefore conclude that the risk posed by the
incomplete protocols has been mitigated in large part by communication of the
necessary information through other means, such as training and peer
guidance. Despite this fact, we believe that the better practice is for the DNAUI
to revise its serology protocols to provide comprehensive guidance on all
serology procedures in use in the Unit. The staff members and managers we
interviewed agreed that many of the details they described about serology
procedures are not found in the serology protocols. Further, one of the
Serologists stated that the methods that staff members are supposed to employ
to navigate an item through the serology process seems to be addressed only
through training, and that the work of the Serologists is shaped by the
preferences and idiosyncrasies of the person who trained them. One
management interviewee acknowledged that the serology procedures do not
contain information on administrative processes, such as proper storage of
evidence, even though Examiners frequently are cross-examined on this topic
in court.

      Recommendation

      10)   We recommend that DNAUI management ensure that the Procedures
            for the Serological Identification of Biological Substances on
            Evidentiary Materials includes:

            a)    Detailed guidance on proper evidence handling methods,
                  similar in content to the guidance contained in the Laboratory
                  Set-up section of the Short Tandem Repeat Analysis Protocol.

            b)    In the Procedures for the Preparation of Dried Bloodstains from
                  Coagulated Whole Blood and the Procedures for the Preparation



                                       96
                 of Dried Bloodstains from Anticoagulated Whole Blood, a
                 requirement to: (a) pretest the cotton sheeting to ensure that
                 there is no DNA contamination; and (b) identify the amount of
                 blood to use when making dried blood stains.

           c)    In the Procedures for the Extraction of Suspected Semen Stains:
                 Quality Control Procedures and Procedures for the Extraction of
                 Suspected Semen Stains: Questioned Stain Extraction
                 Procedure, guidance regarding: (a) the amount of a swab to
                 use for testing; (b) whether extracts and swabs are both sent
                 to the Biologist for testing; (c) general precautionary steps to
                 reduce contamination (such as the use of disposable paper
                 and the pre-testing for sterility of cotton sheeting used to
                 make dried blood stains); (d) the usable life of the positive
                 semen control; and (e) what should be done if the stain
                 extraction procedure detects no semen.

           d)    Unwritten internal controls that already are in use by DNAUI
                 staff members and management, including (but not limited
                 to): (a) the requirement for a team’s PCR Biologist to record
                 the characteristics of the evidence, supplementing the
                 description generated by the Serologist; and (b) the
                 requirement for Serologists to perform a “general swabbing” of
                 an item to ensure that no possible sources of DNA on that
                 item have been missed.

                 d)     Case Documentation Policy and Case Assignment,
                        Documentation and Review

     Written Protocol

      Forensic Standard 11.1 requires that DNA laboratories follow written
procedures for taking and maintaining case notes to support the conclusions
drawn in laboratory reports. In addition, Forensic Standard 11.1.1 requires
that DNA laboratories maintain, in a case report, all documentation generated
by Examiners related to case analyses. While the DNAUI has implemented
procedures and protocols for these broad standards, we determined that two of
the protocol sections we reviewed lacked the kind of detailed guidance
necessary to ensure that all staff members understand and comply with
management expectations for case documentation and review. Specifically,
these sections are the Case Documentation Policy section found within the FBI
Laboratory Division Quality Assurance Manual, and the Case Assignment,
Documentation and Review section found in the DNA Analysis Unit I Quality
Assurance Manual.




                                     97
       Although the Case Documentation Policy section is a broad protocol that
applies to all units within the Laboratory, we expected to find more detailed
information on case documentation procedures. For example, the section
currently fails to list the required contents of case files, including the basic
forms and worksheets universal to all the units. In addition, it lacks a
reference to the more detailed file content requirements found in each unit’s
case documentation and review protocol. Further, the section should contain
general guidance on notetaking methods, with a reference to any additional
detailed information contained in unit-specific protocols. See Chapter Five,
Section II.B.3 for additional information on notetaking.

       We identified similar deficiencies in the Case Assignment, Documentation
and Review section in the DNA Analysis Unit I Quality Assurance Manual. That
section lacks a detailed description of the requirements for a complete case file
review, and fails to identify procedures to ensure that documentation of each
key item within the case file is accounted for. Instead, we found general and
overly broad guidance regarding review procedures. For example, Section
11.4.1.1 requires that case file reviews include an evaluation of all data,
lumigrams, interpretations, conclusions, and other supporting materials
contained in the case file packet. Although five subparts are included in this
section that describe the type of information that is subject to these reviews,
their terms are overly broad and open to interpretation. For example,
subsection 11.4.1.1.4 requires a confirmation that “all conclusions reached by
the examiner are consistent with the documented data and within the limits of
the discipline.” In addition, the section does not contain a precise description
of notetaking methods and requirements for DNAUI staff members so that they
are clear on how and when they should be taking notes. We did not find this
information anywhere in the protocols. See Chapter Five, Section II.B.3 for
additional information on notetaking.

       Finally, the Case Assignment, Documentation and Review section fails to
specify the procedures that should be followed to review and confirm case
evidence profiles for entry into CODIS. A review of approximately 150 case files
during OIG audit work conducted in April 2002 (prior to the OIG being notified
of Blake’s misconduct) provided an opportunity to confirm that the DNAUI has
such procedures, and our examination of their use of those procedures found
that the profiles were being processed correctly. See Chapter Five, Section I.D
for further detail on this case file review. However, no information on these
procedures was reflected in this Case Assignment, Documentation and Review
protocol.

      The risks regarding the lack of specificity in these protocol sections
primarily are that staff members will not understand, and therefore may not
comply with, management expectations for case file documentation and review.
These risks are heightened in environments such as the DNAUI’s, where work



                                       98
is performed by teams and individual team members must rely upon the
quality and thoroughness of their fellow team members’ case file
documentation for the completion of their own work. Therefore, without
detailed guidance for case file documentation and review, the DNAUI is at risk
of not having proper verification in each case that all necessary testing
procedures were completed as required. For example, as the Blake matter
reveals, had DNAUI protocols required the inclusion in the case file and review
of GeneScan® data, Blake’s supervisors readily could have detected her failure
to complete the negative controls. Instead, Blake’s misconduct escaped
detection for more than two years. In addition, without a checklist to assist the
review, a technically-qualified DNA scientist could miss an important part of
the review process or fail to notice the omission of a vital document or piece of
information. For example, an Examiner might be called away suddenly to
assess analysis difficulties a staff member is experiencing and, upon returning
to his or her case-file reviews, fail to remember what material had not been
examined and thus overlook important information.

      Interviews

      To determine the extent to which the vulnerabilities we identified were
mitigated or exacerbated by staff member work practices, we interviewed
DNAUI staff members and management regarding their understanding of the
requirements for case documentation and review. From those interviews we
determined that the interviewees’ comprehension of case file documentation
requirements was largely consistent, both with other interviewees as well as
with the general mandates provided in the protocols. The amount of detail in
the answers varied among the interviewees; however, these variations were
consistent with the duties and position of the interviewees. Most interviewees
knew where case file documentation requirements were addressed in the
protocols, and their answers often expanded upon the information given in the
protocols.

       Because our interviews with staff members focused on their duties that
implement the protocols under scrutiny in our review, we interviewed only Unit
management and Examiners regarding case file review. We found that their
answers typically were similar, with the Examiners providing the level of detail
that is consistent with their job responsibilities. We also found that the
interviewee responses were consistent with the written case review protocol.
We again noted that the answers, particularly from the Examiners, went
beyond what is specified in the protocol, revealing that, while the protocol is
lacking in detail, staff members appear to have gained an understanding of
what constitutes a proper case file review through other means, such as
training or peer guidance. Further, the OIG team scientists detected no
additional risks posed by the methods attested to by staff members or
management in the interview responses.



                                       99
      In conclusion, our fieldwork results revealed that staff members appear
to understand management expectations regarding case file documentation
and review, mitigating the risk posed by the lack of detail in the protocols.
However, until the protocols adequately address the information gaps we
previously identified, the risk of undetected noncompliance with management
expectations will remain significant.

      Recommendations

      We recommend that DNAUI management:

      11)   Ensure that the Case Documentation Policy section found in the FBI
            Laboratory Division Quality Assurance Manual contains:

            a)    A listing of the minimum contents for all unit case files, along
                  with a reference to that part of each unit’s case documentation
                  and review protocol that addresses case file contents; and

            b)    Guidance on notetaking methods and requirements common
                  to all units, along with a reference to the corresponding unit-
                  specific protocols.

      12)   Ensure that the Case Assignment, Documentation, and Review
            section found in the DNA Analysis Unit I Quality Assurance Manual
            contains:

            a)    A detailed description of case file review procedures, including
                  a checklist to facilitate the review and to document that the
                  review accounts for each key item in the case file;

            b)    Guidance on notetaking methods to ensure that DNAUI staff
                  members understand how and when they should take notes;
                  and

            c)    A description of the procedures that must be followed to
                  review and confirm case evidence profiles for entry into
                  CODIS, or at a minimum, a reference to where those
                  procedures are described in another policy document.

                  e)     Guidelines for Control Samples and Interpretation
                         of Control Samples

      Written Protocol

       Forensic Standard 9.4 requires that forensic DNA laboratories monitor
their analytical procedures using appropriate controls and standards. Forensic


                                      100
Standard 9.4.2 explains that, for PCR casework analysis, those controls and
standards must include quantification standards, positive and negative
amplification controls, reagent blanks, and allelic ladders. Further, Forensic
Standard 9.6 requires that forensic DNA laboratories have and follow written
guidelines for the interpretation of data, including (in Forensic Standard 9.6.1)
verifying that all control results are within established tolerance limits.
Although we found that the DNAUI analytical protocols require and describe
the use of these various standards and controls, as well as provide general
guidelines for their interpretation, we identified certain information that is
missing from the Guidelines for Control Samples and Interpretation of Control
Samples sections in the Short Tandem Repeat Analysis Protocol that should be
included to ensure that staff members have a clear and consistent
understanding of control sample requirements.

       First, both the Guidelines for Control Samples and Interpretation of
Control Samples sections lack comprehensive guidance regarding the material
staff members should review when they examine control results. In addition,
both sections fail to differentiate the review responsibilities of the PCR
Biologists and Examiners. Such guidance could include a checklist or
summary sheet that would enable reviewers to ensure the completeness of
their examinations. Further, the guidance should describe the circumstances
in which a control result would cause an analysis run to “fail” (meaning that
those samples must be re-analyzed). The sections seem to assume that DNAUI
staff members already understand fully from another source what it means to
review the control results and know exactly what to do.

      In addition, we questioned language in Section 10.3.3 of the
Interpretation of Control Samples that allows DNAUI Examiners to use the
results of an analysis to exclude a suspect in circumstances where the positive
control has failed. The relevant provision states:

      If FSB [the DNAUI name for a positive control sample] does not exhibit
      the STR typing results listed above [the correct results are shown in a
      table above this statement], the following steps must be taken. 1) If there
      appears to be an injection or electrophoretic problem, reinject the FSB
      with a ladder. 2) If re-injection of the FSB does not resolve the problem,
      and may be due to amplification issues, all samples set-up and amplified
      with this control will be considered inconclusive for matching purposes,
      but can be used for purposes of exclusion. If sufficient DNA remains of
      samples co-amplified with a failed control, then it is appropriate to re-
      amplify them.

      We questioned this provision primarily because it fails to identify
precisely when staff members should apply it. Limited information is provided
regarding the additional steps that might be attempted before reporting results.



                                       101
Further, it is not clear what a report would state about the results in situations
where this provision is employed. In circumstances where additional analysis
has the potential to generate a dispositive result, the lack of detailed guidance
in this protocol could result in the unnecessary provision of inconclusive
information to law enforcement agencies.

      In our view, the most significant vulnerability that results from the kinds
of missing guidance on control results described above is that, similar to the
previous protocol sections we have discussed that lack information, DNAUI
management cannot ensure that staff members will know and comply
consistently with their expectations. Also, when protocols are not
comprehensive, staff members may become dismissive of them, enhancing the
potential for inadvertent protocol noncompliance.

       It is important to note that there does not appear to be a significant risk
that testing results will be used improperly, given the requirement within the
DNAUI (consistent with Forensic Standard 12.1) that all cases and analysis
results be reviewed by a technically-qualified peer reviewer as well as by an
administrative reviewer. In other words, if there is a misunderstanding on the
part of a PCR Biologist and a supervising Examiner regarding the scrutiny that
is to be applied to the control results, that misunderstanding would most likely
be detected by the technical reviewer or the administrative reviewer (who, in
the case of the DNAUI, is also the technical manager).

      Interviews

       To determine whether staff members’ work practices serve to mitigate
these risks, we interviewed PCR Biologists, Examiners, and management
regarding: 1) how the responsibility to review control results is divided between
the Biologists and Examiners; 2) what information staff members look for when
they review the control results; 3) under what circumstances an analysis of
samples would fail because of the control results; and 4) the rationale behind
the policy of using an analysis of samples to exclude a suspect even though the
positive control failed. Staff members and management responses on these
issues revealed a high degree of consistency. Regarding the fourth issue,
DNAUI management explained during our interviews that the practice of using
a DNA analysis to exclude a suspect even though the positive control failed is
employed only if the sample results are good but the positive control has some
malfunction that causes it to fail applicable quality requirements, no remaining
DNA exists for another test, and where the results clearly indicate that the
suspect does not match the evidence samples. DNAUI managers stated that
they believe DNAUI staff members understand these limitations and how they
should represent pertinent results in a report. They further explained that this
policy is based upon the belief that it would be inappropriate not to make
available results that exclude a suspected perpetrator simply because of a
technical issue on the positive control. While we understand the rationale for


                                       102
the policy, we disagree that the parameters for the use of the policy are
communicated fully. Information about the policy’s usage is not represented in
the protocol with the same level of clarity and comprehensiveness that was
communicated to us through the interview responses.

      The information we received during our interviews of staff members and
management regarding the four issues above is not found in the protocols, but
rather is communicated through other means, such as training and peer
guidance. The high degree of agreement and shared understanding among
DNAUI staff members serves to mitigate the potential risk to proper scrutiny of
control results posed by the incomplete protocols.

      Recommendation

      13)   To ensure that staff members maintain a complete and consistent
            understanding of the requirements in the Guidelines for Control
            Samples and Interpretation of Control Samples Sections in the Short
            Tandem Repeat Analysis Protocol, we recommend that the DNAUI
            remedy the above-described lack of detail in these Sections.

                   f)    Organization and Management and Authority and
                         Accountability

      Written Protocol

      Forensic Standard 4.1(c) requires that forensic DNA laboratories specify
and document the responsibilities, authority, and interrelation of all personnel
who manage, perform, or verify work affecting the validity of DNA analyses.
The DNA Analysis Unit I Quality Assurance Manual includes sections entitled
Organization and Management and Authority and Accountability that,
ostensibly, should satisfy the requirements of Standard 4.1(c). However, upon
examination, we discovered that these sections do not provide an adequate
description of the interrelation of the various members in the DNAUI team
structure. We also did not find a clear indication that the Unit Chief, as
technical leader, has the authority to halt operations if a significant problem is
detected. Nor did we find a clear delineation of the responsibilities of each
team member when responding to problems or improper staff member actions.

       The lack of specificity in this protocol increases the likelihood that staff
members will misunderstand lines of authority and accountability, particularly
with teams that have been allowed to vary their operations from one another.
As explained in Chapter Five, Section II.C.1, staff members cited many
examples of teams adopting their own methods when the protocols are not
specific, including defining the division of authority and responsibilities of team
members. Although poor communication resulting from deficiencies in this



                                       103
protocol would not necessarily jeopardize analysis results, it could hinder the
efficient execution of laboratory duties. Further, misunderstandings could
cause a delay in the response to significant problems if staff members do not
understand the lines of authority.

      Interviews

       We conducted interviews to determine if staff members and management
share an understanding of roles and responsibilities within teams and with
respect to problem resolution. From the responses received we determined
that, while staff members and management had the same general
understanding, certain roles vary according to the team Examiner’s preference.
All interviewees agreed that team member roles and responsibilities, including
those pertaining to problem resolution, are not clearly delineated in the
protocols, although a few stated that position descriptions and performance
plans provided some additional guidance. In addition, Laboratory
management, Unit management, and staff member interviewees noted the lack
of guidance concerning how staff members and management should respond in
situations involving employee misconduct, such as the discovery of Blake’s
actions.

      Due to the consistency of the interviewee answers from both staff
members and management, we concluded that a clear understanding of
general team member roles and responsibilities is provided through means
other than the protocols, such as training and peer guidance. However,
problem resolution guidance is lacking. Consequently, we concluded that the
risk posed by the lack of comprehensive guidance in the protocols on team
member roles is mitigated by the DNAUI’s provision of that information to staff
members through other means, while the risks associated with the lack of
guidance on problem resolution remain unmitigated.

      Recommendations

      14)   The above-referenced sections of the DNA Analysis Unit I Quality
            Assurance Manual should be revised to add comprehensive guidance
            regarding team member roles and responsibilities, particularly as it
            applies to problem resolution.

      15)   Include comprehensive guidance for problem response and
            resolution, similar to that contained in the DNAUI Quality Assurance
            Manual, in the FBI Laboratory Division Quality Assurance Manual.




                                      104
              2.     Protocols That Fail to Inform the Exercise of Staff
                     Discretion

       Written Protocols

       In addition to protocols that fail to identify in sufficient detail the
procedures that DNAUI staff members should follow when they perform DNA
analysis, we also identified protocols that suffer from a related defect: the
failure to specify the decision criteria staff members should employ when their
duties require them to exercise discretion in the testing process. See Chart at
page 80. Greater risk of abuse and error is present when procedures call upon
the proper exercise of discretion.

      For example, the amplification set-up process requires DNAUI staff
members to complete a series of objective steps where precise amounts of
various substances are added to the amplification tubes. In contrast,
Serologists are faced with a complex decision when, after completing
preliminary testing and obtaining a negative result, they must determine what
step to take next. Serologists must decide whether the presumptive test
results should be followed or disregarded. In making that decision, they must
consider, for example, whether other factors may have influenced the results,
and whether a negative result automatically means that there is no detectable
DNA on the evidence item. These questions and others like them must be
answered and judgment applied to decide how the testing process should
proceed. If staff members are not equipped with sufficient guidance to answer
these questions, they could prematurely halt the serology process when a
probative DNA result might otherwise have been obtained.

       Consequently, in our view, the risks inherent in such decision-making
should be offset by the provision to staff members of adequate evaluative tools
and guidance to ensure that they are thorough and consistent in their
consideration of options at each “crossroad” in the DNA testing process. We
failed to find this type of guidance in five sections that address serology testing
and electrophoresis data interpretation: the Procedures for the Preparation of
Dried Bloodstains from Coagulated Whole Blood and from Anticoagulated Whole
Blood; Procedures for the Extraction of Suspected Semen Stains: Questioned
Stain Extraction Procedure from the Procedures for the Serological Identification
of Biological Substances on Evidentiary Materials;96 and the GeneScan Analysis
and Interpretation of Control Samples sections from the Short Tandem Repeat
Analysis Protocol.



       96While only the above-mentioned serology procedures were specifically cited by the
OIG team scientists, all the serology procedures would benefit from work-flow and decision-
making guidance. See discussion at Chapter Five, Section III.A.2.


                                            105
      Interviews

      To understand how staff members exercise discretion under these
protocols, we interviewed Serologists and Unit management regarding: 1) the
circumstances in which they do or do not perform each of the serology tests;
and 2) the procedures they follow if they obtain a negative result (indicating
that no DNA was detected). Serologist responses were generally very similar to
each other and to the responses provided by management. For example,
Serologists provided similar descriptions of the various factors that they
consider when deciding how to process an evidence item – factors that are not
explained in the protocols, and Serologists and managers (including the
Examiners) provided comparable descriptions of the Examiners’ role in serology
decisions.

       We also interviewed Examiners regarding the discretion they have when
interpreting electrophoresis results. Specifically, we asked them to describe:
1) their responsibilities in the DNA analysis process; 2) what they specifically
look for when reviewing GeneScan® data and control results; and 3) the
circumstances in which they would decide to fail an analysis run based upon
the control results. Their responses were generally consistent with one another
and conveyed a level of detail not found in the protocols.

       In light of the foregoing, we concluded that the work practices of DNAUI
staff members serve to mitigate the risk posed by the lack of adequate
evaluative tools and guidance in the protocols.

      Recommendations

      16)   To minimize the potential for staff members to overlook relevant
            information or considerations when their duties require them to
            exercise discretion in the testing process, we recommend that
            DNAUI management supplement the above-described protocol
            sections with a work-flow diagram or decision tree. These aids
            would help to structure decision-making and better ensure that staff
            members are consistent in their evaluations.

      17)   Evaluate protocols beyond those listed above, including all of the
            serology procedures, for process descriptions that would benefit
            from work flow and decision diagrams.




                                      106
            3.    Protocols That Fail to Ensure the Precision of Manual
                  Notetaking

      Written Protocols

      Forensic Standard 11.1 requires that forensic DNA laboratories follow
written procedures for taking and maintaining case notes to support the
conclusions drawn in laboratory reports. Further, Forensic Standard 11.1.1
requires that forensic DNA laboratories maintain, in a case record, all
documentation generated by examiners related to case analyses. The DNAUI’s
protocols refer to these requirements and address, in a limited way, the
documentation that should be present in a case file. However, we did not find
comprehensive guidance on notetaking methods in three sections of the
protocols where manual notetaking is identified as a significant part of staff
member responsibilities. In addition, the sections lacked an explicit
requirement for staff members to complete their notes contemporaneously with
their work. The three sections are: 1) the Case Documentation Policy within
the FBI Laboratory Division Quality Assurance Manual; 2) the Evidence Control
section within the DNA Analysis Unit I Quality Assurance Manual; and 3) the
Procedures for the Examination of Evidence within the FBI Laboratory Division
Caseworking Procedures Manual.

      The team structure in DNAUI makes it especially important that all staff
members have a comprehensive and consistent understanding of how to record
information as they complete their work. The case file documentation created
by the Serologists and PCR Biologists serves a crucial role in communicating to
the Examiner the results of the DNA analyses they have performed. The
Examiner draws conclusions from this work and often testifies in court based
in part on the documentation contained in the case file.

       In addition, contemporaneous documentation is important to ensure that
the case file accurately reflects the work performed on each evidence item that
is tested. If staff members are allowed to delay recording observations and test
results until after they have examined all the items for a case or have
completed all of their work for the day, their documentation may not be fully
accurate. Also, staff members may be unduly influenced by protocol
requirements when relying on memory, and document what they know should
have occurred when their recollection is vague. Such a situation could lead to
difficulties when trouble-shooting testing problems. For example, a weak and
unusable testing result might be caused by a sample with low quantities of
DNA or by a technical problem in the analysis process. An Examiner reviewing
such results may not be able to pinpoint how to generate a better outcome if he
or she is provided with an incomplete record from a staff member who is
documenting from memory.




                                      107
      Interviews

      Because we could not find any requirement for contemporaneous
documentation or comprehensive guidance on how staff members should take
notes, we asked staff members and management what they believe the
requirements are on this subject. We interviewed ten DNAUI staff and three
members of DNAUI management.

       DNAUI management cited a specific section of the protocols as the source
of guidance on notetaking. However, the five staff members who cited the same
section stated that the guidance in the protocols is very general and does not
fully address the subject. Two staff members stated that notetaking is
addressed in the protocols but did not cite a specific section. Three of the ten
staff members stated that they did not think the protocols addressed the
subject at all. Six of the ten staff members stated that documentation methods
are learned during training.

       Unit management stated that notes are taken contemporaneously as
testing is performed. Staff members generally indicated that they take
handwritten notes as they work and then transcribe the notes into the
computer at a later time (typically on the day they are written). Further, staff
members did not always give the same answers regarding the time when they
take notes: one Serologist stated that staff members will process multiple
items and then type up notes; another Serologist explained that staff members
create notes immediately after processing each item; and a PCR Biologist stated
that staff members would not “typically” put off transcribing their notes until
the following day (indicating that there might be times when that does occur).

      We also noted from interview responses that for those staff members who
are taking contemporaneous notes on their computer during their work, there
are no policies in place that require a protective covering (such as plastic wrap)
to be used and changed at appropriate intervals to prevent contamination or
cross-transfer as the staff person moves from handling an evidence item to
typing on the computer keyboard. This issue is of greater concern now that the
DNAUI has moved to its new facility. During our tour of the new Laboratory,
the Unit Chief explained that the serology and PCR Biologist areas are
equipped with a computer for each workstation to permit the immediate
transfer of examination and analysis notes into the computer. He further
stated that with the addition of these workstations staff members are expected
to complete their notes contemporaneously with their work.

      Given the disparities in staff member answers, we concluded that
Laboratory management has not clearly articulated standards to govern
notetaking, including handwritten notes that are later transferred to the
computer. Further, it is evident from the Unit Chief’s responses that while
contemporaneous documentation previously was a goal, it now is an


                                       108
expectation in the new facility. No written requirement has been published for
staff members, however, setting forth comprehensive guidance on notetaking
methods.

      Recommendations

      We recommend that Laboratory and DNAUI management:

      18)   Supplement documentation guidance found within the Case
            Documentation Policy in the FBI Laboratory Division Quality
            Assurance Manual, the Evidence Control section in the DNA Analysis
            Unit I Quality Assurance Manual, and the Procedures for the
            Examination of Evidence in the FBI Laboratory Division Caseworking
            Procedures Manual, to include comprehensive guidance on
            notetaking methods.

      19)   Require staff members to document contemporaneously the testing
            performed in each case.

      20)   Include in the Unit-specific protocols cleaning and decontamination
            techniques designed to reduce the risk of contamination or cross-
            transfer as staff members move back and forth between the evidence
            items they are examining and their computer keyboards to take
            notes.

            4.    Outdated Protocols

       Our review of the DNAUI’s protocols revealed that, at the time of our
examination, four document sections had not yet been updated to reflect a new
policy that had been implemented in the Unit as a consequence of Blake’s
misconduct. The new policy requires Examiners to review GeneScan® data for
all samples that show no DNA peaks on the Genotyper® data, and should be
reflected in: 1) the Case Assignment, Documentation and Review section of the
DNA Analysis Unit I Quality Assurance Manual, and 2) the Amplification, STR
Typing: Setting up a Run, and GeneScan Analysis sections of the Short Tandem
Repeat Analysis Protocol. These sections of the protocols reflect the previous
requirement for review of only the Genotyper® data by the Examiners, a
practice that allowed Blake’s actions to escape detection.

      The risk posed by having outdated protocols is that some staff members
might not be aware of new requirements and inadvertently rely upon standards
that have been superseded. Unit management stated that their reason for
delaying the updating of the protocol is two-fold: 1) they anticipated that the
OIG vulnerability assessment would result in additional changes to their




                                     109
protocols, and 2) because the protocol revision process is lengthy and time
consuming, they wanted to wait and make all the revisions at one time.

      We concluded from our fieldwork interviews that staff members involved
in data review are aware of the new GeneScan® data review policy and
understand that adherence to its terms is required. Further, in discussions on
this subject with Unit management, they informed us that the policy change
had been executed through an “electronic communication” in April 2002, a
written format that is used to notify staff members of protocol changes that are
implemented between formal revisions. OIG staff members were provided a
copy of the electronic communication and confirmed that it describes the new
data review requirements.

      Recommendations

      21)   While we acknowledge that the risk posed by the lack of current
            information in the protocols was mitigated by DNAUI management’s
            notification to staff members of the new data review policy, we
            recommend that Unit management update the protocol sections
            cited above.

      22)   Further, based upon the reasons given for delaying the updating of
            the protocols, we recommend that Laboratory management review
            the protocol-revision process to identify and implement methods to
            expedite that process. The revision of the protocols should not be so
            cumbersome that Laboratory management is deterred from keeping
            them current.

            5.    Summary of Protocol Vulnerabilities

      In conclusion, the OIG team found 31 vulnerable sections in the 5 key
manuals that govern the work of the DNAUI. In response to these findings, we
examined the work practices of DNAUI staff members and management to
determine whether those practices mitigated the vulnerabilities detected in the
protocols. We found that the vulnerability risks posed by weaknesses in the
protocols were mitigated to some extent by the work habits of the Unit’s
employees.

       Although we did not conduct case file reviews throughout DNAUI, we did
not identify through our interviews and fieldwork any instances of misconduct
of the sort committed by Jacqueline Blake. Staff member and management
responses conveyed a level of detail and consistency that reassured us that
DNAUI employees are obtaining a clear understanding of the Unit’s
requirements through means other than the protocols, such as training or peer
guidance. However, staff practice did not mitigate all of the protocol
weaknesses, and interviewee responses confirmed the remaining protocol


                                      110
vulnerabilities that we detected. Below we summarize whether the
vulnerabilities identified in the document sections were mitigated or confirmed
in accordance with the practice information provided by DNAUI staff members
and management.

                                Protocol Vulnerability Status
                                                                     Mitigated*         Unmitigated
Protocol Name and Section Title                                     Vulnerabilities    Vulnerabilities
FBI Laboratory Division Quality Assurance Manual
Evidence Control Policy                                                   X
Case Documentation Policy                                                 X                  X
DNA Analysis Unit I Quality Assurance Manual
Organization and Management                                               X                  X
Authority and Accountability                                              X                  X
Evidence Control                                                          X                  X
Facilities (Security)                                                     X
Case Assignment, Documentation, and Review                                X
FBI Laboratory Division Caseworking Procedures Manual
Procedures for the Examination of Evidence                                X                  X
Procedures for the Serological Identification of Biological Substances on Evidentiary Materials
Procedure for...Bloodstains from Coagulated Whole Blood                  X
Procedure for … Bloodstains from Anticoagulated Whole Blood              X
Procedure for the Extraction of Suspected Semen Stains...: Quality
                                                                         X
Control Procedures
Procedure for the Extraction of Suspected Semen Stains...:
                                                                         X
Questioned Stain Extraction Procedure
Short Tandem Repeat Analysis Protocol
Guidelines for Control Samples                                            X
Extraction (total of 10 subsections)                                      X                  X
Amplification                                                             X                  X
STR Typing: Setting up a Run                                              X
Genescan Analysis                                                         X
Interpretation of Control Samples                                         X
Laboratory Set-up (total of 4 subsections)                                X                  X
* The "Mitigated" column is marked for those protocols where interview responses indicated that:
1) staff members have a comprehensive understanding of the relevant protocol requirements, and
2) staff members attest that their personal methods comply with this understanding. Conversely, the
"Unmitigated" column is marked for those protocols where interview responses indicated that either of
these findings were not present. A mark in both columns indicates that some weaknesses were mitigated
while others were not within the same protocol section.


      Our recommendations to DNAUI management detailing the remedial
actions that we believe are necessary to correct the identified protocol
vulnerabilities are set forth in Section C below. We believe that until the
DNAUI completes the actions prescribed in those recommendations, the DNAUI
needlessly will remain subject to an increased risk of employee error and
inadvertent protocol noncompliance.


                                                111
            6.     Implications of DNAUI Protocol Vulnerabilities for
                   DNAUII

      While we did not conduct an assessment of DNAUII’s protocols, we
believe that our conclusions and recommendations regarding the DNAUI would
also benefit the DNAUII in the following ways: 1) the changes made to the
DNAUI’s Short Tandem Repeat Protocol will improve STR work performed by or
for DNAUII personnel; and 2) case file documentation and evidence storage and
handling in the DNAUII will be improved by changes made to Laboratory-wide
protocols, such as the FBI Laboratory Division Quality Assurance Manual and
the FBI Laboratory Division Caseworking Procedures Manual.

      However, based upon the extent of the vulnerabilities identified within
DNAUI’s protocols, we believe that the risk exists that DNAUII’s protocols
contain vulnerabilities of a similar nature, vulnerabilities that will not be
remedied completely by the improvements made as a result of our preceding
recommendations. Therefore, we make the following recommendation.

      Recommendation

      23)   The recommendations in this report should be applied to DNAUII
            where applicable. In addition, DNAUII management should conduct
            a comprehensive vulnerability assessment of its own protocols and
            practices, similar in extent and focus to the assessment the OIG has
            conducted on the protocols and practices of the DNAUI, and remedy
            all vulnerabilities identified by that review. We believe that such an
            assessment will have a greater degree of success if DNAUII
            management solicits the participation of scientists outside the
            DNAUII, who can bring an unbiased perspective to the assessment.

      C.    Analysis of Practice Vulnerabilities

       As explained earlier, the second type of vulnerability we identified during
our review – practice vulnerabilities – was detected as we completed our
fieldwork on the protocol vulnerabilities. These weaknesses result from the
manner in which the DNAUI implements its protocols, leaving the Unit more
susceptible to undetected inadvertent or willful protocol noncompliance. Our
analysis is based largely upon the perceptions of DNAUI staff members, since
each of the vulnerabilities was identified by multiple staff members and/or
management during our interviews with them. Of special concern are the
following: 1) variations in team operations; 2) the “oral tradition” of DNAUI
guidelines and training; and 3) communication and operational inefficiencies.
We describe each below.




                                       112
            1.    Variations in Team Operations

       During our interviews with DNAUI staff members, we regularly received
comments regarding the degree of variation that exists in the operations of the
DNAUI teams. For example, a PCR Biologist explained that various aspects of
the work performed by staff members are not standardized. The Biologist
further explained that while everyone follows the protocols (e.g., how samples
are numbered, how to check in cases), the protocols are general and leave a lot
of room for flexibility. The Biologist stated that, consequently, the teams often
function very differently. The Biologist stated that this can be beneficial for
someone who wants to devise and follow his own procedures, but when issues
arise in the Unit, those variances also can pose a problem.

       Another PCR Biologist provided similar comments, stating that even
though the protocols are followed very strictly, there is a broad range of
interpretative leeway for anything that the protocols do not specify. According
to this Biologist, the practices of Biologists on the DNAUI teams vary, which
can pose a problem if a Biologist ever has to do work for another team, since
the supervising Examiner may not be comfortable with the Biologist’s methods.
In addition, the Biologist explained that since the Examiners testify based upon
how their team operates, their testimony might not be precise if a Biologist
from another team has provided assistance and employed another team’s
methods. The Biologist stated that there needs to be more uniformity between
teams. The Biologist also explained that Examiners are probably unaware of
the extent of these variations.

       A Serologist commented that, due to the nature of the “oral tradition” of
training (covered under the next section), many staff members have developed
their own style, methods, and preferences for how they perform their work.
Another Serologist referred to the variations in team operations and explained
that they make it hard to train new staff members and to learn what is
required.

       Multiple staff members commented about the flexibilities afforded to
teams due to the lack of detailed guidance on specific topics in the written
procedures and protocols. Examples cited by staff members were: 1) how
forms are filled out; 2) how case file documentation is transferred to the
Examiner; 3) how responsibilities are divided between the PCR Biologist and
the Examiner; 4) how much Examiners interact with their team members on
decisions; 5) the work flow of the serology procedures; 6) notetaking; and
7) inter-Unit transfer of evidence.

      One member of DNAUI management acknowledged that it would be
advisable to standardize guidelines for team operations. He said that while he
thought that the lack of uniformity had not yet caused a problem for the
DNAUI, it could in the future. He stated, however, that there would probably


                                      113
be resistance to standardizing team operations. He stated that even though
there may be better ways to do things, staff members are accustomed to their
own procedures and likely would resist standardization because they would not
want to sacrifice their autonomy.

       These interview comments highlight the need to ensure that protocols are
comprehensive and address all aspects of the Unit’s operations. See Chapter
Five, Section II.B.1 (describing protocols that lack sufficient detail). As many
interviewees mentioned, practice variations exist because the written guidance
is silent on many subjects.

              2.   Training and the DNAUI’s “Oral Tradition”

       During our interviews with DNAUI staff members and management, we
were informed that the Unit’s training curriculum consists largely of individual
discussions with a mentor and presentations given by various experienced staff
members. Laboratory management was unable to furnish us with a single,
comprehensive curriculum, though we were provided training program
manuals for Biologists and Examiners, and PowerPoint slides used during
training presentations. Also, we saw evidence in the training records that
these presentations often relied upon other training materials, such as
handouts and checklists. However, none of these materials has been collected
and incorporated into a larger training program with a defined curriculum.

       According to DNAUI staff members, this diffuse approach to training is
founded upon the Unit’s “oral tradition,” since verbal instruction is the primary
means of conveying training information. During interviews regarding Unit
operations, several staff members explained their perspective on why the oral
tradition, as a training philosophy, increases the Unit’s vulnerability to
inadvertent and willful noncompliance with applicable protocols.

       For example, two staff members cited training as a key weakness in the
Unit. They explained that when the Unit was created, training was better
because everyone was “starting fresh and learning the same thing.” However,
over time people began to teach their own preferences as the only way to
complete the Unit’s work. In the view of these two individuals, the result is a
staff that does not have an understanding of the “big picture” and that
performs work in noticeably different ways. One of the staff members, a
Serologist, explained that the weaknesses in training are exacerbated by the
fact that, because many staff members have biology degrees, much is assumed
about their basic understanding of laboratory operations, which may be
unwarranted. The other staff member, a PCR Biologist, stated that some
training improvements were being implemented under the current Unit
leadership, and cited as examples the development of a written exam to assess
candidate qualifications and increased stringency in the qualification
requirements.


                                      114
       An Examiner who has served as the training coordinator for the DNAUI
acknowledged that the oral tradition concerns him since it fosters “protocol
drift” – something staff members described as the use of personalized testing
procedures that deviate from and/or add to the letter of the protocols, though
without jeopardizing the integrity of the testing results.97 The Examiner
identified several checks and balances on the training process that he felt
counteracted the risks associated with an oral tradition. These included the
constant involvement during training of a trainer/mentor and, following
training, the oversight of an Examiner during casework duties who would
notice whether something had been overlooked or improperly communicated
during training. He added that key policies are reiterated throughout training,
and that there are multiple ways to check to see if a person understands his or
her duties. Yet, the Examiner acknowledged that in spite of these “checks and
balances,” protocol drift still occurs.

       We note two considerations regarding the Examiner’s comments. First,
each of the checks on staff member behavior he identified requires another
DNAUI staff member, rather than a written document in conjunction with staff
guidance, to be the source of information and direction for the Unit’s
employees. Second, based upon the division of duties within DNAUI teams,
particularly the division of duties and roles described by staff members, we are
not convinced that the Examiners are sufficiently involved in the day-to-day
activities of their team members to serve as one of the “checks and balances.”
This was illustrated by the fact that Blake’s Examiner was unaware of her
misconduct until Blake’s colleague noticed her omissions.

      In addition, when the distinction between staff member preference and
protocols is unclear, trainees are left to draw their own conclusions regarding
proper testing methods. In our view, such an environment leaves the Unit
vulnerable to inadvertent noncompliance with Unit requirements, since staff
members may choose to alter their methods in ways that unwittingly contradict
Unit requirements.

      A DNAUI Serologist, who also is involved in training activities, stated that
management’s failure to communicate the reasons behind the Unit’s work
requirements is a weakness and needs to be addressed during training. A PCR
Biologist reiterated the point, stating that training has been a weakness in the
Unit and that part of the problem is the failure to teach staff members why
they are asked to do their work a certain way – the importance and history
behind what they are doing – not just the actual procedural steps to perform.
        97 For example, staff members have adopted methods for cleaning their transport trays

that they believe are sufficient. These procedures are not specifically covered in the existing
protocols; instead, they supplement requirements found in the Amplification and Laboratory
Set-up protocols. Another example of protocol drift, a hypothetical provided by a DNAUI
Biologist, would be using an incubation time of 1 hour, 55 minutes, when the protocol calls for
an incubation time of 2 hours.


                                             115
       In conclusion, moving away from training that is based on the DNAUI’s
“oral tradition” will help to ensure that the other recommendations we present
in this report reduce the DNAUI’s vulnerability to undetected protocol non-
compliance. A well-documented and comprehensive training curriculum
should reinforce application of the revisions we have outlined to the Unit’s
protocols.

             3.   Communication and Operational Inefficiencies

       We determined from our review of DNAUI operations and our analysis of
interview responses that there are various communication and operational
inefficiencies within the DNAUI.

                  a)    Communications

       During our interviews with DNAUI staff members and management, we
inquired about the way that information is communicated within the Unit.
This issue was of particular interest to us because of the importance of
communication to the proper implementation and improvement of DNAUI
protocols. We asked interviewees the following questions:

      •     How are staff members kept apprised of changes in work routine,
            procedures, and resources?

      •     What options are available to you if you were to have a
            recommendation, request, suggestion, or a critique regarding Unit
            operations or protocols?

       We observed from interview responses that although members of upper
management think that communication within the Unit, and between the Unit
and Laboratory management, is functioning well, several staff members do not
feel that they are kept informed about operational information and believe that
communications are at times dysfunctional. Further, several comments we
received indicate that some staff members do not believe that Laboratory
management actively solicits and considers their input on issues that affect
their work.

       Management and staff members identified similar methods that are used
to keep staff members updated on operational and protocol-related
information, including e-mail and Unit or program meetings. However, it was
clear from staff member responses that these methods are not consistently
effective. Staff members explained that the dissemination of information,
including protocol-related information, is erratic. Examiners made reference to
this problem and said that some Examiners are better than others in passing
along information, a point that also was noted by both a PCR Biologist and



                                      116
Serologist. One Examiner stated that changes in technical operations that
affect the quality of work are always passed on to staff members, but that
Examiners may not pass on administrative information. However, we question
whether Examiners are as consistent as this Examiner claims in conveying
operational information, given the lack of a requirement that Examiners
disseminate protocol-related information promptly and accurately to those
under their supervision.

       In addition, one Serologist added that even when decisions and other
important information are communicated to staff members, the rationale
behind them often is not explained, leaving staff members unclear on the goal
that management is trying to achieve.98 One Examiner said that he felt that
information does not flow effectively up the hierarchy either, and identified a
situation where the PCR Biologists decided to initiate a technical change in
Unit procedures and failed to ensure that all the Examiners were made aware
of it.

       The types of communication weaknesses mentioned by staff members
pose a risk to the efficiency and effectiveness of the Unit’s operations and
should be addressed. Of particular concern is the perception of Laboratory and
Unit management that communication lines are functioning well, while many
staff members describe a different perspective that questions whether they are
being kept well informed of procedural changes and whether management
properly considers technical input in operational matters.

                      b)      Operations

      During our review of protocol vulnerabilities, we observed many DNAUI
operations that could be made more efficient through use of a Laboratory
Information Management System (LIMS). A LIMS is a computerized system of
databases that track, organize, and link the information that must be
maintained to document the receipt, handling, and disposition of each case
and evidence item. A LIMS allows a laboratory to:

      •        Reduce the incidents of human error associated with the manual
               entry of tracking information;

      •        Improve evidence handling efficiency, saving time particularly for
               those staff members who have numerous evidence processing and
               transfer responsibilities;

      •        Prevent the unauthorized alteration of tracking information;



      98   For additional discussion on this point, see supra at page 96.


                                              117
       •      Allow management to trouble-shoot problems and to identify
              causes related to equipment, reagents, and personnel; and

       •      Document who has accessed and/or contributed to the
              information contained in the LIMS.

       Because of these capabilities, we believe such a system would strengthen
the Unit’s internal controls and allow DNAUI staff members to be more efficient
in their duties. As revealed in their interview responses, Laboratory and Unit
management, as well as staff members, share this assessment and believe that
acquisition of a LIMS is a priority for the Laboratory. We were informed that
Laboratory management began to lay the groundwork for the implementation of
a LIMS in 2002. During our March 2003 fieldwork, we met with personnel
involved in LIMS development at the Laboratory and reviewed available
documentation concerning the progress of implementation. From this
information, we determined that the Laboratory had completed the bid process
for a contractor who would design and implement the LIMS, and that all Unit
Chiefs had been involved in determining the capabilities that the LIMS would
need in order to suit the activities of their Unit.99 In October 2003, we were
informed that the LIMS had been procured and that the system should be on-
line in December 2003 and functioning fully in the Laboratory by
approximately March 2004. The Laboratory Director told us in March 2004
that he expected the LIMS to be fully operational this fiscal year, and that the
Laboratory was waiting on security clearances for the staff of the LIMS
contractor before commencing implementation of the system.

       We recommend that the Laboratory’s LIMS work remain one of its top
priorities. Specifically, successful implementation requires that all appropriate
personnel have ready access to the system, have received adequate training,
and are afforded the resources needed to convert their current methods and
operations to those that will maximize the capabilities of the LIMS. Further, we
recommend that Laboratory management continue to set aside sufficient
resources for the LIMS to ensure that it keeps pace with the changes and
developments in technology that invariably will occur over time.




        99 We also were informed by the DNAUI Unit Chief that the DNAUI is implementing a

unit-specific tracking system that will feed into the Laboratory-wide LIMS, called the Sample
Tracking and Control System (STaCS). While initially STaCS has been used to track federal
offender samples that are received as part of the Federal Convicted Offender Program (the
federal database of convicted offender samples), management intends to expand STaCS for
application to case evidence tracking.


                                             118
                             CHAPTER SIX
                        OIG RECOMMENDATIONS

       Jacqueline Blake’s misconduct has required the FBI Laboratory to
reassess its oversight of DNA testing in the DNAUI. The objective of this review
was to identify ways to make the DNAUI less vulnerable to undetected
inadvertent or willful noncompliance with the protocols that govern DNA
analysis. Our recommendations focus on two general types of vulnerabilities:
protocol vulnerabilities and practice vulnerabilities. In addition, we provide
recommendations that we believe will address several of the issues of concern
that we identified regarding the management response of the FBI and DOJ to
Blake’s misconduct. Our recommendations are listed below.


I.    MANAGEMENT RESPONSE RECOMMENDATIONS

      1)    To facilitate prompt communications with evidence contributors
            and prosecutors in the event of future testing problems, the
            Laboratory should maintain the information below in an electronic
            format that can be shared conveniently with other FBI components
            (e.g., FBI OPR and FBI OGC) and the Department of Justice: all
            contributor contact and case information currently required for an
            evidence contributor to request an evidence examination (see FBI
            Handbook of Forensic Services,
            (http://www.fbi.gov/hq/lab/handbook/intro2.htm); the e-mail
            address of the evidence contributor; and the name, title, agency,
            address, telephone number, and e-mail address of any associated
            prosecutor(s);

      2)    In circumstances where a protocol violation renders testing results
            scientifically invalid and a report from the Laboratory is not
            expected to issue within 180 days from the discovery of the
            violation, the Laboratory should notify the evidence contributor of
            the following information within 90 days of learning of the
            violation: the nature of the protocol violation; how the violation
            occurred; the remedial measures that the Laboratory intends to
            implement in the case to generate scientifically valid testing
            results; and the time needed to complete the remedial measures
            and to issue a final report; and

      3)    The FBI Laboratory should perform a file review of a sample of
            cases that Blake is known to have worked on prior to becoming a
            PCR Biologist to reconfirm that the procedures that were required
            in fact are documented as appropriate in the case files.



                                      119
II.   REMEDY PROTOCOL VULNERABILITIES

        Our analysis of the DNAUI’s protocols revealed various weaknesses that
leave the Unit vulnerable to employee error and wrongdoing. The
recommendations we present below are designed to reduce the Unit’s exposure
to this vulnerability and fall in four general areas: 1) eliminate vague and
ambiguous text from the protocols; 2) incorporate decision aids into the
protocols; 3) enhance notetaking requirements; and 4) update the protocols.

      A.    Eliminate Text Vagueness

      Approximately 20 percent of the protocol sections we examined lacked
the detail necessary for a technically qualified DNA scientist to identify the
testing methods that should be in use in the DNAUI. Accordingly, DNAUI
management should ensure that the document sections identified as vague in
Chapter Five of this report are corrected to describe completely and accurately
management expectations, Unit procedures and policies, and “best practices”
currently in use in the DNAUI. Specifically, DNAUI management should:

      4)    Ensure that the Evidence Control Policy of the FBI Laboratory
            Division Quality Assurance Manual, the Evidence Control and
            Facilities (Security) sections of the DNA Analysis Unit I Quality
            Assurance Manual, and the Procedures for the Examination of
            Evidence section of the FBI Laboratory Division Caseworking
            Procedures Manual, contain:

            a)    Comprehensive guidance regarding the prevention of
                  evidence contamination, loss, and destruction. At a
                  minimum, this information should be included in Evidence
                  Control Policy sections 3.2 and 3.5; Evidence Control sections
                  7.6.1 and 7.6.2; and Procedures for the Examination of
                  Evidence sections 4.1.3 and 4.5.1.1. The Laboratory-wide
                  sections should identify procedures that are applicable to all
                  Units. Sections associated with a particular Unit should
                  provide a complete listing of the evidence preservation
                  methods in use in that Unit, even when those methods are
                  identified elsewhere in the other Unit protocols.

            b)    General guidance regarding DNA evidence handling
                  procedures that is applicable to all Laboratory Units. This
                  information should be provided in Laboratory-wide
                  documents, including the Evidence Control Policy of the FBI
                  Laboratory Division Quality Assurance Manual, and the
                  Procedures for the Examination of Evidence section of the FBI
                  Laboratory Division Caseworking Procedures Manual, and



                                       120
           should describe the requirements to process the evidence
           one case at a time, and to handle evidence one item at a
           time. The guidance also should identify procedures to
           ensure that one Unit does not compromise the ability of
           another Unit to test the same item of evidence.

     c)    Unit-specific guidance on DNA evidence handling
           procedures. This information should be included in the
           Evidence Control section of the DNA Analysis Unit I Quality
           Assurance Manual, and should contain all evidence
           handling, contamination-prevention, and evidence-
           preservation methods universal to all technical DNAUI staff.

     d)    An identification of facility access limitations, including a
           description of the context and limitations for access to
           DNAUI areas by non-DNAUI personnel. This information
           should be added to Facilities (Security) section 6.1.

5)   Ensure that the Evidence Control Policy of the FBI Laboratory
     Division Quality Assurance Manual, the Evidence Control and
     Facilities (Security) sections of the DNA Analysis Unit I Quality
     Assurance Manual, and the Procedures for the Examination of
     Evidence section of the FBI Laboratory Division Caseworking
     Procedures Manual cross-reference other relevant guidance to
     ensure that staff members know whether additional information is
     located in other manuals.

6)   Implement a policy that requires staff members to certify that they
     have read, understand, and will comply with each protocol that
     governs DNAUI operations, as well as any approved revisions that
     have not yet been incorporated into the protocols.

7)   Revise policies for securing evidence under active examination to
     reflect the current availability of independently securable storage
     at staff member workstations, and of a securable bulky evidence
     examination room. The policies should require the use of these
     new facilities rather than leaving the security of unattended
     evidence under active examination dependent upon facility access
     limitations.

8)   Ensure that the Extraction and Amplification sections of the Short
     Tandem Repeat Analysis Protocol include:

     a)    A requirement that the known and unknown (evidence)
           samples are processed separately during examination,



                               121
                     extraction, and amplification, including references to
                     guidance that specifies the amount of time and space that
                     meets the intent of the term “separation.”

              b)     A requirement for the “separation” of high- and low-quantity
                     DNA samples, as well as references to guidance that specifies
                     the amount of time and space that meets the intent of the
                     term “separation.”

       9)     Ensure that the Extraction, Amplification, and Laboratory Set-up
              sections of the Short Tandem Repeat Analysis Protocol include:

              a)     Information on the use, cleaning, and decontamination of
                     the “transport trays” used by PCR Biologists to move
                     samples to the amplification area.

              b)     General evidence handling information.100

              c)     In the Extraction section, a prohibition on having two sample
                     tubes open at once, clarification in section 4.1.3 regarding
                     required incubation times, and further explanation
                     concerning when the additional organic extractions
                     permitted by section 4.3-9 are appropriate.

              d)     In the Amplification section, a requirement that control
                     samples be processed last, and in section 6.7, the
                     specification of the order in which sample tubes should be
                     set up.

       10)    Ensure that the Procedures for the Serological Identification of
              Biological Substances on Evidentiary Materials includes:

              a)     Detailed guidance on proper evidence handling methods,
                     similar in content to the guidance contained in the
                     Laboratory Set-up section of the Short Tandem Repeat
                     Analysis Protocol.

              b)     In the Procedures for the Preparation of Dried Bloodstains
                     from Coagulated Whole Blood and the Procedures for the
                     Preparation of Dried Bloodstains from Anticoagulated Whole
                     Blood, a requirement to: 1) pretest the cotton sheeting to

       100   Currently, this information is included in the Laboratory Set-up section. We
recommend that it be included in all sections of the Short Tandem Repeat Analysis Protocol that
call for the handling of evidence, but at a minimum, in the Extraction and Amplification
sections.


                                             122
           ensure that there is no DNA contamination; and 2) identify
           the amount of blood to use when making dried blood stains.

      c)   In the Procedures for the Extraction of Suspected Semen
           Stains: Quality Control Procedures and Procedures for the
           Extraction of Suspected Semen Stains: Questioned Stain
           Extraction Procedure, guidance regarding: 1) the usable life
           of the positive semen control; 2) the size of the swab to use
           for testing; 3) the need to use disposable paper to reduce the
           risk of contamination; 4) whether extracts and swabs are
           both sent to the Biologist for testing; and 5) what happens
           after the stain extraction procedure has been completed (i.e.,
           what occurs if there is a negative or positive result).

      d)   Unwritten internal controls that already are in use by DNAUI
           staff members and management, including (but not limited
           to): (a) the requirement for a team’s PCR Biologist to record
           the characteristics of the evidence, supplementing the
           description generated by the Serologist; and (b) the
           requirement for Serologists to perform a “general swabbing”
           of an item to ensure that no possible sources of DNA on that
           item have been missed.

11)   Ensure that the Case Documentation Policy section found in the
      FBI Laboratory Division Quality Assurance Manual contains:

      a)   A listing of the minimum contents for all Unit case files,
           along with a reference to that part of each Unit’s case
           documentation and review protocol that addresses case file
           contents; and

      b)   Guidance on notetaking methods and requirements common
           to all Units, along with a reference to the corresponding
           Unit-specific protocols.

12)   Ensure that the Case Assignment, Documentation, and Review
      section found in the DNA Analysis Unit I Quality Assurance Manual
      contains:

      a)   A detailed description of case file review procedures,
           including a checklist to facilitate the review and to document
           that the review accounts for each key item in the case file;




                               123
      b)    Guidance on notetaking methods to ensure that DNAUI staff
            members understand how and when they should take notes;
            and

      c)    A description of the procedures that must be followed to
            review and confirm case evidence profiles for entry into
            CODIS, or at a minimum, a reference to where those
            procedures are described in another policy document.

13)   Ensure that the Guidelines for Control Samples and Interpretation
      of Control Samples sections within the Short Tandem Repeat
      Analysis Protocol contain comprehensive guidance on each of the
      following: (a) the procedure to complete a case file review; (b) the
      difference between the review responsibilities of Examiners and of
      the PCR Biologists; (c) the circumstances in which a control result
      should cause an entire analysis run to “fail;” and (d) how and when
      staff members should use section 10.3.3 of the Interpretation of
      Control Samples. Further, these sections should contain a
      checklist or summary sheet to assist reviewers to verify the
      completeness of their work.

14)   Ensure that the Organization and Management and Authority and
      Accountability sections of the DNA Analysis Unit I Quality
      Assurance Manual contain:

      a)    A complete description of the characteristics,
            responsibilities, interrelation, and limitations of each job
            position in the various DNAUI teams;

      b)    Problem-resolution guidance for each team member position
            that describes how to respond to operational and personnel
            problems (such as suspicion of protocol noncompliance), and
            that clearly delineates the options for resolution available to
            staff members; and

      c)    A clear statement identifying Laboratory personnel who have
            the authority to halt DNAUI operations if a significant
            problem is detected.

15)   Include comprehensive guidance for problem response and
      resolution, similar to that contained in the DNAUI Quality
      Assurance Manual, in the FBI Laboratory Division Quality
      Assurance Manual.




                                124
      B.    Incorporate Decision Aids

       In addition to protocols that fail to specify the procedures that DNAUI
staff members should follow when they analyze DNA, our review identified
protocols that do not describe adequately the decision criteria staff members
should employ when their duties require them to exercise discretion in the
testing process. To address this deficiency, we recommend that DNAUI
management:

      16)   Add work-flow diagrams and decision trees to its protocols to assist
            staff members to exercise properly their judgment during the DNA
            testing process. These aids would help to structure decision-
            making and to ensure that staff members do not overlook relevant
            information. At a minimum, the following protocol sections should
            include decision-making aids:

            a)    in the Procedures for the Serological Identification of Biological
                  Substances on Evidentiary Materials: 1) the Procedures for
                  the Preparation of Dried Bloodstains from Coagulated Whole
                  Blood and from Anticoagulated Whole Blood; and
                  2) Procedures for the Extraction of Suspected Semen Stains:
                  Questioned Stain Extraction Procedure;

            b)    in the Short Tandem Repeat Analysis Protocol: 1) the
                  GeneScan Analysis section, and 2) the Interpretation of
                  Control Samples section.

      17)   Evaluate protocols beyond those listed above, including all of the
            serology procedures, for process descriptions that would benefit
            from work flow and decision diagrams.

      C.    Enhance Notetaking Requirements

      During our review we identified three procedure and protocol sections
that depend upon the precision of manual notetaking but that lack
comprehensive guidance on notetaking methods. To address this deficiency,
Laboratory and DNAUI management should:

      18)   Supplement documentation guidance found within the Case
            Documentation Policy in the FBI Laboratory Division Quality
            Assurance Manual, the Evidence Control section in the DNA
            Analysis Unit I Quality Assurance Manual, and the Procedures for
            the Examination of Evidence in the FBI Laboratory Division
            Caseworking Procedures Manual, to include comprehensive
            guidance on notetaking methods.



                                       125
      19)   Require staff members to document contemporaneously the testing
            performed in each case.

      20)   Include in the Unit-specific protocols cleaning and
            decontamination techniques designed to reduce the risk of
            contamination or cross-transfer as staff members move back and
            forth between the evidence items they are examining and their
            computer keyboards to take notes.

      D.    Update Protocols

       Our review identified several protocols that are outdated and no longer
reflect current procedures in use in the DNAUI. To address this deficiency,
DNAUI management should:

      21)   Revise the Case Assignment, Documentation and Review section of
            the DNA Analysis Unit I Quality Assurance Manual, and the
            Amplification, STR Typing: Setting up a Run, and GeneScan
            Analysis sections of the Short Tandem Repeat Analysis Protocol to
            include the current requirement that Examiners review GeneScan®
            data for all samples that show no DNA peaks on the Genotyper®
            print-out.

      22)   Review the protocol revision process and identify ways to expedite
            it. Protocols should not be so difficult to update that
            administrative burden justifies not keeping them current.

      E.    Implications for DNAUII

      Based upon the extent of the vulnerabilities identified within DNAUI’s
protocols, we believe that the risk exists that DNAUII’s protocols contain
vulnerabilities of a similar nature, vulnerabilities that will not be remedied
completely by the improvements made as a result of our preceding
recommendations. Therefore, we make the following recommendation.

      23)   The recommendations in this report should be applied to DNAUII
            where applicable. In addition, DNAUII management should
            conduct a comprehensive vulnerability assessment of its own
            protocols and practices, similar in extent and focus to the
            assessment the OIG has conducted on the protocols and practices
            of the DNAUI, and remedy all vulnerabilities identified by that
            review. We believe that such an assessment will have a greater
            degree of success if DNAUII management solicits the participation
            of scientists outside the DNAUII, who can bring an unbiased
            perspective to the assessment.



                                       126
III.   REMEDY PRACTICE VULNERABILITIES

      Our fieldwork focused on the DNAUI staff’s application of the protocols
we identified as deficient. The information we collected establishes that the
DNAUI needs to: 1) promote greater consistency in DNAUI team operations;
2) develop a comprehensive, written training curriculum; 3) improve
information dissemination; and 4) implement an information management
system to improve evidence tracking capabilities and efficiency of operations.

       A.    Promote Greater Consistency in Team Operations

       Our interviews of DNAUI staff members indicated that variation exists in
the operations of the Unit’s teams. Unwarranted flexibility in DNAUI
operations can communicate to staff members that they are free to develop
idiosyncratic work practices, which can create an environment with greater
risk for inadvertent or willful noncompliance with protocols. To promote
greater consistency and accountability in DNAUI functions, we recommend
that Laboratory and DNAUI management:

       24)   Document and standardize the best practices of the Unit’s teams
             and incorporate them in protocols.

       25)   To the extent practicable, minimize managerial flexibility permitted
             in team operations, even in areas considered to be of no “impact”
             to the analysis process (as we have defined the term for our
             assessment).

       26)   Document in the protocols those flexibilities that remain, with an
             explanation of the circumstances in which team members have
             leeway to exercise discretion and to vary testing methods. This
             documentation should provide staff members with clear guidance
             on the constraints placed by management on their discretion, so
             that they can be alert to practices that exceed those constraints.
             As part of this documentation, the protocols should include
             notations to staff where the precision of their actions can fall
             within an acceptable range (i.e., if the protocol calls for a 2-hour
             incubation time, but 1 hour and 50 minutes is acceptable, the
             protocol should reflect the range of time that is considered
             scientifically acceptable).

       27)   Ensure that protocols and training materials address the risks
             posed by protocol drift and protocol noncompliance, and prohibit
             individual staff or team variation from the protocols. This
             information should build upon the above-required analysis of team
             variations, the limitations placed upon existing flexibilities, and the
             delineation of those procedures where a scientifically acceptable


                                        127
            range of activity is permitted. In addition, in circumstances where
            DNAUI staff members deviate from the protocols, they should be
            encouraged to note the deviation and its degree in the case file.

      B.    Formalize Training

      Our review of DNAUI training practices revealed that the Unit lacks a
comprehensive curriculum and that training consists largely of individual
discussions with a mentor and presentations given by various experienced staff
members. To address this deficiency, DNAUI management should:

      28)   Convert this “oral tradition” of training into a comprehensive,
            written curriculum to ensure that trainees receive consistent
            instruction that comports with the protocols. As part of this
            process the Laboratory should:

            a)    Collect the training materials that currently are in use and
                  organize them into a coherent written course of study;

            b)    Cross-reference the training materials to the protocols; and

            c)    Ensure that the training materials reflect the standardized
                  best practices and limited flexibilities established in
                  recommendations 18-20.

      29)   Ensure that the training materials are kept current as the DNAUI
            protocols evolve.

      C.    Improve Information Dissemination

     Laboratory/or DNAUI management (as appropriate to the
recommendation) should:

      30)   Implement requirements that will ensure that managers within the
            Unit disseminate protocol-related information promptly and
            accurately to those under their supervision.

      31)   Ensure that serology and PCR program managers inform Unit
            management (including team supervisors) of changes to
            procedures employed in the DNAUI.

      32)   Solicit and evaluate technical input from staff members on
            significant changes that affect Unit procedures and protocols.




                                      128
     33)   Develop and implement a communications plan that allows DNAUI
           staff members to provide feedback on the effectiveness of the Unit’s
           protocols.

     D.    Implement a Laboratory Information Management System

       We determined that Laboratory management had begun to lay the
groundwork for the implementation of a Laboratory Information Management
System (LIMS) in 2002, and has since made progress toward the
implementation of a LIMS. However, given the benefits that a LIMS will bring
to evidence tracking and chain-of-custody documentation, we recommend that
Laboratory management:

     34)   Ensure that a LIMS is successfully implemented. To accomplish
           this, Laboratory management must provide to all appropriate
           personnel:

           a)    Ready access to the system;

           b)    Adequate training on the proper use of the system; and

           c)    The resources needed to convert their current methods and
                 operations to those that will maximize the capabilities of the
                 LIMS.

     35)   Retain full utilization of the LIMS as one of the top administrative
           priorities of the Laboratory. To accomplish this, Laboratory
           management will need to devote sufficient resources to the LIMS to
           ensure that it keeps pace with the changes and developments in
           technology that will occur over time as the Laboratory evolves.




                                     129
                                CONCLUSION

      Our investigation was prompted by the misconduct of FBI Staff Biologist
Jacqueline Blake. Because of her failure to follow DNAUI protocols, and the
inadequacy of those protocols to expose her misconduct, we assessed the
DNAUI’s vulnerability to other inadvertent or willful protocol noncompliance by
its employees.

       Although our review did not identify other instances of misconduct by
DNAUI staff members, we determined that certain DNAUI protocols and
operations are vulnerable to abuse. Specifically, in approximately 20 percent of
the protocol sections we reviewed we identified one or more of the following
deficiencies: 1) the protocol lacks sufficient detail; 2) the protocol fails to
inform the exercise of staff discretion; 3) the protocol fails to ensure the
precision of manual notetaking; and 4) the protocol is outdated. While in most
instances the work practices of the DNAUI’s staff members served to mitigate
the effects of these vulnerabilities, we believe that until the DNAUI’s protocols
are revised in accordance with the recommendations in this report, the DNAUI
needlessly will remain subject to an increased risk of employee error and
inadvertent protocol noncompliance. Because of the importance of the DNAUI’s
work, we believe the Laboratory should address these deficiencies
expeditiously.

       To remedy the protocol vulnerabilities that we identified, our report
makes various recommendations to the FBI Laboratory and DNAUI
management, such as: 1) replace vague sections of the protocols with
comprehensive guidance and descriptions of the “best practices” currently in
use; 2) add work flow and decision aids to the specific protocol sections we
identified to assist staff members to exercise properly their judgment during
the DNA testing process; 3) provide staff members with guidance sufficient to
ensure that case documentation and case file reviews meet management
expectations, and that protocols provide comprehensive guidance on
notetaking requirements; and 4) update protocols to reflect current methods in
use in the DNAUI.

      Further, with regard to operations, our analysis revealed that the
Laboratory and DNAUI management should: 1) promote greater consistency in
DNAUI operations; 2) develop a comprehensive, written training curriculum;
3) improve management and staff information sharing; and 4) complete
implementation of an information management system to improve efficiency
and evidence tracking capabilities. Until significant progress is made in each
of these areas, the DNAUI will remain vulnerable to a heightened risk of error.

      Finally, during our review we identified a number of concerns with the
FBI’s management response to Blake’s misconduct. We recommend that the


                                      130
Laboratory maintain basic case data and contact information for evidence
contributors and associated prosecutors in an electronic format that can be
shared conveniently as needed with other FBI components (e.g., FBI OPR and
FBI OGC) and the Department of Justice, provide prompt notification to
evidence contributors of future protocol violations, and perform a file review of
a sample of cases that Blake is known to have worked on prior to becoming a
PCR Biologist to reconfirm that the procedures that were required in fact are
documented as appropriate in the case files.

      In sum, Jacqueline Blake’s misconduct exposed weaknesses in the FBI
DNA Laboratory’s protocols and policies. We found that Blake was able to
escape detection not only because she deceived her co-workers and her
supervisors for two years, but also because the FBI failed to develop policies
that subjected her work and the work of other DNA biologists to adequate
scrutiny.

       The FBI Laboratory cannot allow the integrity of its DNA testing results
to rely solely on the trustworthiness of its employees. It must develop and
enforce adequate quality assurance safeguards to identify staff errors and
misconduct. Our assessment of the DNAUI’s protocols to undetected
inadvertent or willful noncompliance by DNAUI staff members revealed
vulnerabilities. We believe that the recommendations contained in this report,
if implemented fully and expeditiously, will help eliminate these weaknesses
and significantly improve the FBI Laboratory’s ability to detect promptly
instances of protocol noncompliance in the DNAUI.




                                       131
                GLOSSARY OF TERMS AND ACRONYMS

Act: the DNA Identification Act of 1994 (Act) was the vehicle whereby Congress
authorized the creation of CODIS, and directed the FBI to establish the Board.
The Act also directed that the guidelines issued by TWGDAM would be deemed
to be national standards until the FBI issued its own standards pursuant to
the Act.

Allele: the characteristics of a single copy of a specific gene, or of a single copy
of a specific location on a chromosome, is referred to as an allele. For example,
one copy of a specific STR region might have 10 repeats, while the other copy
might have 11 repeats. These would represent two alleles of that STR region.

Allelic ladder: contains the more common alleles in the general population for
specific chromosomal locations. Allelic ladders are used like molecular rulers
to help “measure” the lengths of the fragments in the reference and evidentiary
samples. The Genotyper® software compares the peaks in the evidentiary or
reference sample to the peaks in the allelic ladder at that same location.

Amplification: the replication of extracted DNA so that the DNA can be
detected by an analyzer or a capillary electrophoresis machine. Amplification
is the third of five stages in the PCR/STR analysis process.

ASCLD/LAB: the American Society of Crime Laboratory Directors/Laboratory
Accreditation Board is one of the organizations that provides accreditation for
labs. The organization performs a thorough inspection of the laboratory before
it grants accreditation.

Board: the FBI established the DNA Advisory Board (Board), in response to a
Congressional mandate within the Act, to develop national quality assurance
standards that would ensure that the operations of CODIS participants met
minimum quality standards. The Board was formally constituted on March 10,
1995, and was comprised of members of a variety of forensic and science
organizations. The Board’s mission was to develop quality assurance
standards for laboratories and analysts that examine DNA.

Capillary electrophoresis: the form of electrophoresis employed by the
DNAUI. Its distinguishing characteristic is that the electrophoresis occurs
inside a capillary tube (a very thin glass tube) with a sieving material inside,
rather than on a piece of gelatinous material. Capillary electrophoresis is an
automated process that analyzes many DNA samples and requires minimal
involvement by DNA scientists after the initial set-up procedures are
completed.




                                        132
Chromosomes: chromosomes store information in the chemical structure of
DNA much like a book or a compact disk. The nucleus contains 46
chromosomes, two copies of each of the 23 different human chromosomes.
One copy of each chromosome is inherited from an individual's mother and one
copy is inherited from an individual's father, giving a child DNA characteristics
of both its mother and father.

Combined DNA Index System (CODIS): provides a framework for storing,
maintaining, tracking, and searching DNA specimen information. CODIS refers
to the entire system of DNA databases (convicted offender database, forensic
database, victim database, etc.) maintained at the national, state, and local
levels. CODIS currently consists of three distinct levels: the National DNA
Index System, State DNA Index System, and Local DNA Index System.

Deoxyribonucleic Acid (DNA): DNA is found in almost all living cells, and
carries the encoded information necessary for building and maintaining life.
This encoded information is what makes each person an individual. DNA
consists of two strands of molecules that wrap around each other to resemble a
twisted ladder whose sides are connected by rungs of chemicals called bases.
There are four kinds of these chemical bases (also called nucleotides), and the
order in which they are arranged is called the DNA sequence. It is this unique
sequence that is determined when a DNA sample is typed.

DNA Profile: a set of DNA identification characteristics, i.e., the particular
chemical bases at specific DNA locations, which permit the DNA of one person
to be distinguishable from that of another person.

DNA Sample: a body tissue or fluid sample (blood, a skin cell sample, or
semen, for example) that can be subjected to DNA analysis.

DNA Typing: the process by which a DNA sample is examined and a DNA
profile is produced.

DNAUI: the DNA Analysis Unit I (DNAUI) identifies and characterizes body
fluids and body fluid stains recovered as evidence in violent crimes using
traditional serological techniques and related biochemical analysis. These
stains are analyzed and compared to results from the known body fluid
samples submitted by the victim(s) and/or suspected perpetrator(s).

Electrophoresis: a process whereby DNA fragments are sorted according to
length (i.e., number of short tandem repeats). In general, the process involves:
1) Adding DNA to one end of a piece of gelatinous material which contains tiny
holes that allows the material to function as a molecular sieve; 2) applying an
electric current to the material, causing the DNA fragments to move; and 3)
determining the size of the DNA fragments by comparing the distance each
fragment moved to the distances moved by the fragments of known size. Since


                                      133
it is easier for smaller fragments to move through the material, the smaller
fragments move farther than the larger fragments. As a result, at the end of
electrophoresis the DNA fragments are sorted by size. Electrophoresis is the
fourth of five stages in the PCR/STR analysis process.

Examiner (Analyst): an individual who conducts or directs the analysis of
forensic casework samples, interprets data, and reaches conclusions. In the
context of the DNAUI, the Examiner collects supporting documentation from
the Serologist and PCR Biologist for the work performed by each, interprets the
data that resulted from that work, draws conclusions about those results, and
writes a report describing those conclusions.

Extraction: a process whereby chemicals are used to release or remove DNA
from evidence. Extraction is the first of five stages in the PCR/STR analysis
process.

Forensic Database: consists of DNA profiles from persons whose identities are
not known with certainty and who left DNA at the scene of a crime or whose
DNA was carried away from it. For example, a DNA profile may be developed
from a bloody knife found at a crime scene or found in a trash dumpster.

Genes: each chromosome contains many genes, which are the portions of the
chromosome that code for personally identifying characteristics, like hair color
or eye color. It has been estimated that only 2 to 3 percent of the information
in a chromosome is organized into genes.

GeneScan®: a component of the proprietary software that accompanies the
capillary electrophoresis machines used by the DNAUI. The GeneScan®
software allows scientists to view and process the raw, unanalyzed data that
documents everything the laser of the electrophoresis machine detects,
including background noise that is common in electrophoresis instruments.
GeneScan® is a registered trademark of Applied Biosystems.

Genotyper®: a component of the proprietary software that accompanies the
capillary electrophoresis machines used by the DNAUI. Genotyper® allows the
forensic scientist to take the processed GeneScan® data and display it in a
format that applies allele designations to the profile fragments, and to focus his
or her review on the results of the control and evidence samples. Genotyper® is
a registered trademark of Applied Biosystems.

Guide: the FBI created a standardized DNA audit guide (Guide), with input
from the Board, ASCLD-LAB, and NFSTC, to ensure that auditors of local,
state, and federal DNA laboratories are thorough and interpret the quality
assurance standards consistently. The FBI offers Guide training for auditors,
including those representing accrediting and certifying organizations such as
ASCLD-LAB and NFSTC. For an audit to fulfill the quality assurance


                                       134
standards’ external audit requirement, it must be conducted in accordance
with the Guide and by an auditor trained in its use.

Internal Size Standard: contains DNA fragments of known sizes that provide
reference points for determining the length of a sample’s DNA fragments.
GeneScan® software uses the internal size standard to help the software as it
determines the lengths of the DNA fragments detected during electrophoresis.

Investigations Aided: the primary measuring unit that the FBI uses to
quantify the success of CODIS. An investigation is aided when a DNA match
through CODIS either identifies a potential suspect or links crimes together,
but only when the DNA match provides new information that would not have
been otherwise developed.

Known DNA sample: a DNA sample for which the source is known. These
samples are generally obtained from the victim and/or suspected perpetrator of
a crime, as well as from other persons whose DNA might be reflected when
samples of the evidence are analyzed (could include a boyfriend, husband, or
other third-party). These samples are also referred to as reference samples,
since they serve as a reference to which the unknown DNA samples are
compared with the goal of identifying the source of the unknown DNA samples.

Mitochondrial DNA: DNA found in the mitochondria of a cell. Mitochondria
are about the size of bacteria and are scattered throughout a cell outside its
nucleus. Since there are between 500 to 1,000 mitochondria in every cell, as
opposed to one nucleus, mitochondrial DNA analysis affords a better chance of
a DNA profile than nuclear DNA analysis in cases where a sample is decayed or
degraded, such as skeletal remains that have been exposed to the elements for
years.

National DNA Index System (NDIS): the FBI-maintained national component
to CODIS. NDIS contains DNA profiles uploaded from approved SDIS
laboratories.

NDIS Requirements: the NDIS office has issued programmatic rules that
govern the exchange of information for NDIS participants and has established
standards for the submission of DNA data, collectively referred to as NDIS
Requirements. The NDIS requirements are found in the Memorandum of
Understanding (MOU) that is established between the FBI and each NDIS
participant. The MOU requires that signatories comply with general
requirements already established (i.e., federal legislation, the Forensic and
Offender Standards) as well as requirements specific to the national index that
accompany the MOU in three appendices: NDIS Responsibilities (Appendix A);
NDIS Data Acceptance Standards (Appendix B); and the NDIS Procedures
Manual (Appendix C).



                                      135
Negative Control: the negative control contains all of the reagents used for
amplification. DNA from the evidence is not added to the negative control,
though the contents are amplified. The purpose of the negative control is to
reveal any contamination that is present in the reagents or introduced during
the testing process.

NFSTC: the National Forensic Science Technology Center (NFSTC) is one of
two primary accreditation or certification entities for forensic and offender DNA
laboratories.

NIST: the National Institute of Standards and Technology.

Nuclear DNA: DNA found in the nucleus of a cell. The nucleus is the cell’s
control center. Nuclear DNA contains the entire genetic make-up of a person,
including inherited traits such as eye color or height. There is only one group
of nuclear DNA per cell, since each cell has only one nucleus. Since nuclear
DNA is sensitive to environmental conditions, it can be difficult to obtain
useable nuclear DNA from deteriorated and/or old crime scene samples. The
alternative to nuclear DNA analysis is mitochondrial DNA analysis.

OGC: the FBI’s Office of General Counsel.

OPR: the FBI’s Office of Professional Responsibility.

PCR Biologist: in the context of the DNAUI, the PCR Biologist is the staff
member responsible for completing the PCR analysis process and providing to
an Examiner the results of that process from which they can draw conclusions
and report results. Included within this process is the completion of
extraction, quantification, amplification, and electrophoresis.

Polymerase Chain Reaction (PCR): a method used to replicate specific
portions of the DNA strands. The DNA is heated, causing the two strands to
separate like a zipper. The two DNA halves are then cooled and mixed with a
special enzyme. The result of this process is the creation of two DNA strands
identical to each other and to the original DNA strand. This process is
repeated many times to replicate a desired DNA sequence millions of times in a
matter of hours. PCR is especially valuable because it does not require high
quality or large quantities of DNA. Also, this method lends itself to automation
and less labor-intensive typing. The PCR/STR analysis process includes five
stages, which are extraction, quantification, amplification, electrophoresis, and
data interpretation.

Positive Control: the positive control contains the reagents necessary for
amplification plus DNA from a source for which the DNA profile is known.
Since the DNA scientists know the correct test results for the positive control, it



                                       136
allows them to determine the accuracy and performance of the amplification
and analysis processes.

Primers: short synthetic pieces of DNA designed to match places where
human DNA is both repetitive and highly variable. Primers identify the starting
and ending points of a DNA fragment that is to be duplicated with PCR. The
primers also prime (or stimulate) the synthesis reaction when the DNA
fragments are duplicated. The primers contain fluorescent labels so that they
may be detected by lasers during electrophoresis.

Quantification: the process whereby the concentration of extracted DNA in a
sample is measured, and the second of five stages in the PCR/STR analysis
process.

Reagent: a substance that is used (as in detecting or measuring a component,
in preparing a product, or in developing photographs) because of its chemical
or biological activity.

Reagent Blank: the reagent blank contains all of the reagents used to process
an item of evidence from extraction through electrophoresis. DNA from the
evidence is not added to the reagent blanks, though their contents are
amplified. The purpose of the reagent blank is to reveal any contamination
that is present in the reagents or introduced during the testing process.

QAS: refers to the Quality Assurance Standards issued by the FBI Director
upon the recommendation of the DNA Advisory Board. Quality Assurance
refers to measures that are taken by labs to monitor, verify, and document
performance. Two sets of QAS exist: QAS for Convicted Offender DNA
Databasing Laboratories, effective April 1, 1999; and QAS for Forensic DNA
Testing Laboratories, effective October 1, 1998.

SDIS: State DNA Index System containing the state-level DNA records
uploaded from local laboratory sites within the state. SDIS is the state’s
repository of DNA identification records and is under the control of state
authorities. The SDIS laboratory serves as the central point of contact for
access to NDIS. The DNAUI serves as the SDIS laboratory for the FBI.

Serologist: a Serologist performs testing to determine what body fluids are
present on the evidence and whether it is possible to extract DNA from it. In
the DNAUI, the Serologist also assists with the initial and final evidence
inventories, and is responsible for transferring to the PCR Biologist body-fluid
stained evidence items and related case file documentation.

Short Tandem Repeats: short repeating units of identical chemical sequences
arranged in direct succession in a particular region of the DNA.



                                       137
Short Tandem Repeat Analysis (STR): refers to a DNA typing method that
utilizes PCR technology to quickly amplify and analyze sections of DNA that
contain short tandem repeats. This method allows a high level of
discrimination, since 13 chromosomal locations are examined and
subsequently compared with other samples.

SWGDAM: TWGDAM was renamed the Scientific Working Group on DNA
Analysis Methods (SWGDAM) after the Office of Justice Programs created
short-term technical working groups that began to be confused by members of
the DNA community with the FBI’s long-term technical working groups. Since
being renamed, SWGDAM has produced additional guidance for the forensic
community, including guidelines for data interpretation, training, quality
assurance, and health and safety audits.

TWGDAM: the Technical Working Group on DNA Analysis Methods (TWGDAM)
was the one of several technical working groups sponsored by the FBI to
examine DNA’s forensic science applications. TWGDAM was established in
1989 with representatives from 12 laboratories, and focused specifically on the
development of forensic DNA methods. Later that same year, TWGDAM
developed and published a set of quality guidelines for forensic DNA
laboratories, and updated those guidelines in 1991 and in 1995.

Unknown DNA Sample: a sample of DNA for which the source is not known.
Unknown DNA samples are also referred to as questioned samples. Unknown
DNA samples are taken from evidence items submitted to a laboratory, that are
analyzed by the laboratory and compared to a known DNA sample to determine
whether the source of the unknown DNA sample can be identified.




                                     138
                                                                               Appendix 1


                            COMPLETE DNA PROFILE

      As noted in Chapter Two, Section I.D, the primers used during the
amplification process contain different fluorescent labels, which allow the
lasers in the capillary electrophoresis machine to detect and differentiate the
various DNA fragments separated during capillary electrophoresis. The label
on each primer determines the color in which the results are displayed on both
computer monitors and printouts. At the present time, the fluorescent labels
produce peaks that are blue, green, and yellow. The yellow peaks are usually
displayed in black on the Genescan® and Genotyper® printouts, with the
remaining peaks printed in the corresponding color. In addition, the internal
lane standard peaks are always displayed in red.

       At the present time, two amplification kits1 are required for forensic
scientists to test the 13 chromosomal locations that comprise a DNA profile.
Scientists also test a 14th location, known as amelogenin, which indicates the
sex of the DNA contributor. One amplification kit, Profiler Plus,™ contains the
reagents necessary to test ten chromosomal locations. The fluorescent labels
in this kit produce results that are shown in blue for three chromosomal
locations, four locations are shown in green, and three locations are called
yellow even though they display in black. The COfiler™ amplification kit
displays the results for two chromosomal locations in blue, four locations are
displayed in green, and one location representing the yellow peaks is displayed
in black. Three chromosomal locations are tested with both the Profiler Plus™
and COfiler™ kits, which gives forensic scientists points of comparison to
ensure the results are consistent between the two kits.

       The Genescan® graphic for the positive control in Appendix 2 reflects the
DNA profile of a sample used as a positive control by a CODIS participating
laboratory. The following table represents the allele calls that correspond to
the electrophoresis results shown in that graphic.




       1
         In this report, we focus on the amplification kits manufactured by Applied Biosystems
because they are used by the DNAUI. Some state and local DNA laboratories use kits
manufactured by other companies. These kits examine the same chromosomal locations and
produce the same type of data as the kits discussed here.


                                            139
                                                                      Appendix 1


                            Example of a DNA Profile


    Applied Biosystems        Chromosomal    Alleles Present in   Genotyper®
    Analysis Kit              Location       DNA Sample           Printout

                              D3S1358             14, 15

                              VWA                  17, 18         Page 141

                              FGA                  23, 24

                              Amelogenin            X, X
    AmpFlSTR® Profiler        D8S1179              13, 13
    Plus™ PCR Amplification                                       Page 141
    Kit                       D21S11               30, 30

                              D18S51               15, 19

                              D5S818               11, 11

                              D13S317              11, 11         Page 142

                              D7S820              10, 11

                              D3S1358             14, 15
                                                                  Page 142
                              D16S539              11, 12

                              Amelogenin            X, X
    AmpFlSTR® COfiler™
                              THO1                 8, 9.3
    PCR Amplification Kit                                         Page 143
                              TPOX                  8, 8

                              CSF1PO               10, 12

                              D7S820              10, 11          Page 143


        The following pages contain the Genotyper® printouts supporting the
allelic values listed in the above chart. These printouts reflect the fact that
Genotyper® reformats the Genescan® data and allows the forensic scientist that
reviews the data to review only the specific peaks required for data
interpretation, including (but not limited to) the specific peaks from the DNA
sample and the allelic ladders. The background noise is filtered out in the
Genotyper® view.




                                       140
                                                                                          Appendix 1




                                                                                  A



                                                                         B




                                                                                      A




                                                                     C




Genotyper® View: Profiler Ladder with Positive Control Allele call
A = Chromosomal Location, B = Allelic Ladder, C = Alleles present in DNA sample




          A me l o g e n i n




Genotyper® View: Profiler Ladder with Positive Control Allele call




                                                    141
                                                                     Appendix 1




Genotyper® View: Profiler Ladder with Positive Control Allele call




Genotyper® View: COfiler Ladder with Positive Control Allele call




                                                    142
                                                                    Appendix 1




              Amelogenin




Genotyper® View: COfiler Ladder with Positive Control Allele call




Genotyper® View: COfiler Ladder with Positive Control Allele call




                                                   143
                                                                                 Appendix 2


               INTERPRETATION OF DNA ANALYSIS DATA

       As mentioned in Chapter Two, Section I.D, the manufacturer of the
capillary electrophoresis machine developed proprietary software to display the
test results and to aid in their interpretation. The software has two
components, GeneScan® and Genotyper.® Data viewed in Genescan®, as
appears below, is the raw, unanalyzed, collection data that documents
everything the laser detected, including the background noise that is common
in these types of instruments. The following graphic illustrates the appearance
and content of this data for a DNA sample.




                                                 Amplified DNA Peaks
                                                  (except red peaks)




Genescan® View: : raw data for a Positive Control (9947A) prepared according to protocol.
Peaks depicted in red originate from the internal size standard added to each sample.

      Genotyper® takes this same data and displays it in a different format.
With Genotyper®, the forensic scientist selects which peaks are displayed,
choosing among the internal lane standard, the primer peaks, specific peaks
from the DNA sample, and the allelic ladders. The background noise is filtered
out in the Genotyper® view. With the exception of the red peaks, the primer
peaks are those located between the brackets on the following illustration.




                                             144
                                                                                Appendix 2




                                                   STR Primer Peaks
                                                   (except red peaks)




Genescan® View: raw data for a Negative Control prepared according to protocol.
Peaks depicted in red originate from the internal size standard added to each sample.

       In order to determine accurately the length of the sample’s DNA
fragments, an internal size standard is added to each sample before it
undergoes capillary electrophoresis. As mentioned earlier, the internal size
standard contains DNA fragments of known sizes that provide reference points
for the software to use when determining the length of the sample’s DNA
fragments. The peaks corresponding to the internal size standard are shown
as red peaks in both the Genescan® and Genotyper® printouts.

       The Genotyper® software uses allelic ladders to assign allele calls, (i.e.,
determine which alleles correspond to the lengths of the sample’s DNA
fragments as determined by Genescan®). There is an allelic ladder for each
chromosomal location tested. These ladders contain the most common alleles
in the general population at each location. The Genotyper® software compares
the peaks in the evidentiary or reference sample to the peaks in the allelic
ladder at that same location. Genotyper® then assigns the corresponding allele
designation to the evidentiary or reference peaks. The number of repeats in the
DNA fragment determines the allele designation. For example, an allele call of


                                             145
                                                                     Appendix 2


15 means the DNA fragment contains 15 repeats. The following illustration
contains both the allelic ladders and two allele calls for a DNA sample. The
DNA profile at two chromosomal locations for the sample shown below is:
alleles 14 and 15 at location D3S1358, and alleles 11 and 12 at location
D16S539.




                                    Allelic Ladders




                                    DNA Sample
                                     Allele Calls



 Genotyper® View: COFiler Ladder with Positive Control Allele call




                                            146
                                                                  Appendix 3


                    FORENSIC AND OFFENDER
                 QUALITY ASSURANCE STANDARDS

         Standards For Forensic DNA Testing Laboratories

                                   Preface

Throughout its deliberation concerning these quality standards, the DNA
Advisory Board recognized the need for a mechanism to ensure compliance
with the standards. An underlying premise for these discussions was that
accreditation would be required to demonstrate compliance with the standards
and therefore assure quality control and a quality program. Accordingly, the
Board recommends that forensic laboratories performing DNA analysis seek
such accreditation with all deliberate speed. Additionally, the Board strongly
encourages the accrediting bodies to begin positioning themselves to
accommodate the increasing demand for accreditation.

Proposed Mechanism To Recommend Changes To Standards

Once the Director of the FBI has issued standards for quality assurance for
forensic DNA testing, the DNA Advisory Board may recommend revisions to
such standards to the FBI Director, as necessary. In the event that the
duration of the DNA Advisory Board is extended beyond March 10, 2000 by the
FBI Director, the Board may continue to recommend revisions to such
standards to the FBI Director. In the event that the DNA Advisory Board is not
extended by the FBI Director after March 10, 2000, the Technical Working
Group on DNA Analysis Methods [TWGDAM] may recommend revisions to such
standards to the FBI Director, as necessary.

Effective Date

These standards shall take effect October 1, 1998.




                                     147
                                                                    Appendix 3


                               INTRODUCTION

This document consists of definitions and standards. The standards are
quality assurance measures that place specific requirements on the laboratory.
Equivalent measures not outlined in this document may also meet the
standard if determined sufficient through an accreditation process.

REFERENCES:

American Society of Crime Laboratory Directors-Laboratory Accreditation
Board (ASCLD-LAB), ASCLD-LAB Accreditation Manual, January 1994, and
January, 1997.

International Standards Organization (ISO)/International Electrotechnical
Commission (IEC), ISO/IEC Guide 25-1990, (1990)
American National Standards Institute, New York, NY.

Technical Working Group on DNA Analysis Methods, "Guidelines for a Quality
Assurance Program for DNA Analysis," Crime Laboratory Digest, April 1995,
Volume 22, Number 2, pp. 21-43.

42 Code of Federal Regulations, Chapter IV (10-1-95 Edition), Health Care
Financing Administration, Health and Human Services.

1. SCOPE

The standards describe the quality assurance requirements that a laboratory,
which is defined as a facility in which forensic DNA testing is performed,
should follow to ensure the quality and integrity of the data and competency of
the laboratory. These standards do not preclude the participation of a
laboratory, by itself or in collaboration with others, in research and
development, on procedures that have not yet been validated.

2. DEFINITIONS

As used in these standards, the following terms shall have the meanings
specified:

(a) Administrative review is an evaluation of the report and supporting
documentation for consistency with laboratory policies and for editorial
correctness.

(b) Amplification blank control consists of only amplification reagents without
the addition of sample DNA. This control is used to detect DNA contamination
of the amplification reagents.



                                      148
                                                                       Appendix 3


(c) Analytical procedure is an orderly step by step procedure designed to ensure
operational uniformity and to minimize analytical drift.

(d) Audit is an inspection used to evaluate, confirm, or verify activity related to
quality.

(e) Calibration is the set of operations which establish, under specified
conditions, the relationship between values indicated by a measuring
instrument or measuring system, or values represented by a material, and the
corresponding known values of a measurement.

(f) Critical reagents are determined by empirical studies or routine practice to
require testing on established samples before use on evidentiary samples in
order to prevent unnecessary loss of sample.

(g) Commercial test kit is a pre-assembled kit that allows the user to conduct a
specific forensic DNA test.

(h) Examiner/analyst is an individual who conducts and/or directs the
analysis of forensic casework samples, interprets data and reaches
conclusions.

(i) Forensic DNA testing is the identification and evaluation of biological
evidence in criminal matters using DNA technologies.

(j) Known samples are biological material whose identity or type is established.

(k) Laboratory is a facility in which forensic DNA testing is performed.

(l) Laboratory support personnel are individual(s) who perform laboratory
duties and do not analyze evidence samples.

(m) NIST is the National Institute of Standards and Technology.

(n) Polymerase Chain Reaction (PCR) is an enzymatic process by which a
specific region of DNA is replicated during repetitive cycles which consist of:
1) denaturation of the template; 2) annealing of primers to complementary
sequences at an empirically determined temperature; and 3) extension of the
bound primers by a DNA polymerase.

(o) Proficiency test sample is biological material whose DNA type has been
previously characterized and which is used to monitor the quality performance
of a laboratory or an individual.




                                        149
                                                                      Appendix 3


(p) Proficiency testing is a quality assurance measure used to monitor
performance and identify areas in which improvement may be needed.
Proficiency tests may be classified as:
       1) Internal proficiency test is one prepared and administered by the
       laboratory.
       2) External proficiency test, which may be open or blind, is one which is
       obtained from a second agency.

(q) Qualifying test measures proficiency in both technical skills and knowledge.

(r) Quality assurance includes the systematic actions necessary to demonstrate
that a product or service meets specified requirements for quality.

(s) Quality manual is a document stating the quality policy, quality system and
quality practices of an organization.

(t) Quality system is the organizational structure, responsibilities, procedures,
processes and resources for implementing quality management.

(u) Reagent blank control consists of all reagents used in the test process
without any sample. This is to be used to detect DNA contamination of the
analytical reagents.

(v) Reference material (certified or standard) is a material for which values are
certified by a technically valid procedure and accompanied by or traceable to a
certificate or other documentation which is issued by a certifying body.

(w) Restriction Fragment Length Polymorphism (RFLP) is generated by cleavage
by a specific restriction enzyme and the variation is due to restriction site
polymorphism and/or the number of different repeats contained within the
fragments.

(x) Review is an evaluation of documentation to check for consistency,
accuracy, and completeness.

(y) Second agency is an entity or organization external to and independent of
the laboratory and which performs forensic DNA analysis.

(z) Secure area is a locked space (for example, cabinet, vault or room) with
access restricted to authorized personnel.

(aa) Subcontractor is an individual or entity having a transactional relationship
with a laboratory.




                                       150
                                                                     Appendix 3


(bb) Technical manager or leader (or equivalent position or title as designated
by the laboratory system) is the individual who is accountable for the technical
operations of the laboratory.

(cc) Technical review is an evaluation of reports, notes, data, and other
documents to ensure an appropriate and sufficient basis for the scientific
conclusions. This review is conducted by a second qualified individual.

(dd) Technician is an individual who performs analytical techniques on
evidence samples under the supervision of a qualified examiner/analyst and/or
performs DNA analysis on samples for inclusion in a database. Technicians do
not evaluate or reach conclusions on typing results or prepare final reports.

(ee) Traceability is the property of a result of a measurement whereby it can be
related to appropriate standards, generally international or national standards,
through an unbroken chain of comparisons.

(ff) Validation is a process by which a procedure is evaluated to determine its
efficacy and reliability for forensic casework analysis and includes:

      1)    Developmental validation is the acquisition of test data and
            determination of conditions and limitations of a new or novel DNA
            methodology for use on forensic samples.

      2)    Internal validation is an accumulation of test data within the
            laboratory to demonstrate that established methods and
            procedures perform as expected in the laboratory.

3. QUALITY ASSURANCE PROGRAM

STANDARD 3.1 The laboratory shall establish and maintain a documented
quality system that is appropriate to the testing activities.

3.1.1 The quality manual shall address at a minimum:
      (a) Goals and objectives
      (b) Organization and management
      (c) Personnel Qualifications and Training
      (d) Facilities
      (e) Evidence control
      (f) Validation
      (g) Analytical procedures
      (h) Calibration and maintenance
      (i) Proficiency testing
      (j) Corrective action
      (k) Reports
      (l) Review


                                      151
                                                                     Appendix 3


     (m) Safety
     (n) Audits

4. ORGANIZATION AND MANAGEMENT

STANDARD 4.1 The laboratory shall:
  (a) have a managerial staff with the authority and resources needed to
      discharge their duties and meet the requirements of the standards in
      this document.
  (b) have a technical manager or leader who is accountable for the
      technical operations.
  (c) specify and document the responsibility, authority, and interrelation
      of all personnel who manage, perform or verify work affecting the
      validity of the DNA analysis.

5. PERSONNEL

STANDARD 5.1 Laboratory personnel shall have the education, training and
experience commensurate with the examination and testimony provided. The
laboratory shall:

     5.1.1 have a written job description for personnel to include
     responsibilities, duties and skills.

     5.1.2 have a documented training program for qualifying all technical
     laboratory personnel.

     5.1.3 have a documented program to ensure technical qualifications are
     maintained through continuing education.

         5.1.3.1 Continuing education - the technical manager or leader and
         examiner/analyst(s) must stay abreast of developments within the
         field of DNA typing by reading current scientific literature and by
         attending seminars, courses, professional meetings or documented
         training sessions/classes in relevant subject areas at least once a
         year.

     5.1.4 maintain records on the relevant qualifications, training, skills and
     experience of the technical personnel.

STANDARD 5.2 The technical manager or leader shall have the following:

     5.2.1 Degree requirements: The technical manager or leader of a
     laboratory shall have at a minimum a Master's degree in biology-,
     chemistry- or forensic science- related area and successfully completed a
     minimum of 12 semester or equivalent credit hours of a combination of


                                     152
                                                                     Appendix 3


     undergraduate and graduate course work covering the subject areas of
     biochemistry, genetics and molecular biology (molecular genetics,
     recombinant DNA technology), or other subjects which provide a basic
     understanding of the foundation of forensic DNA analysis as well as
     statistics and/or population genetics as it applies to forensic DNA
     analysis.

           5.2.1.1 The degree requirements of section 5.2.1 may be waived by
           the American Society of Crime Laboratory Directors (ASCLD) or
           other organization designated by the Director of the FBI in
           accordance with criteria approved by the Director of the FBI. This
           waiver shall be available for a period of two years from the effective
           date of these standards. The waiver shall be permanent and
           portable.

     5.2.2 Experience requirements: A technical manager or leader of a
     laboratory must have a minimum of three years of forensic DNA
     laboratory experience.

     5.2.3 Duty requirements:

           5.2.3.1 General: manages the technical operations of the
           laboratory.

           5.2.3.2 Specific duties
           (a) Is responsible for evaluating all methods used by the laboratory
               and for proposing new or modified analytical procedures to be
               used by examiners.

           (b) Is responsible for technical problem solving of analytical
           methods and for the oversight of training, quality assurance, safety
           and proficiency testing in the laboratory.

        5.2.3.3 The technical manager or leader shall be accessible to the
        laboratory to provide onsite, telephone or electronic consultation as
        needed.

STANDARD 5.3 Examiner/analyst shall have:

     5.3.1 at a minimum a BA/BS degree or its equivalent degree in biology-,
     chemistry- or forensic science- related area and must have successfully
     completed college course work (graduate or undergraduate level) covering
     the subject areas of biochemistry, genetics and molecular biology
     (molecular genetics, recombinant DNA technology) or other subjects
     which provide a basic understanding of the foundation of forensic DNA



                                     153
                                                                     Appendix 3


      analysis, as well as course work and/or training in statistics and
      population genetics as it applies to forensic DNA analysis.

      5.3.2 a minimum of six (6) months of forensic DNA laboratory experience,
      including the successful analysis of a range of samples typically
      encountered in forensic case work prior to independent case work
      analysis using DNA technology.

      5.3.3 successfully completed a qualifying test before beginning
      independent casework responsibilities.

STANDARD 5.4 Technician shall have:

      5.4.1 On the job training specific to their job function(s).

      5.4.2 successfully completed a qualifying test before participating in
            forensic DNA typing responsibilities.

STANDARD 5.5 Laboratory support personnel shall have:

      5.5.1 training, education and experience commensurate with their
      responsibilities as outlined in their job description.

6. FACILITIES

STANDARD 6.1 The laboratory shall have a facility that is designed to provide
adequate security and minimize contamination. The laboratory shall ensure
that:

      6.1.1 Access to the laboratory is controlled and limited.

      6.1.2 Prior to PCR amplification, evidence examinations, DNA
      extractions, and PCR setup are conducted at separate times or in
      separate spaces.

      6.1.3 Amplified DNA product is generated, processed and maintained in
      a room(s) separate from the evidence examination, DNA extractions and
      PCR setup areas.

      6.1.4 The laboratory follows written procedures for monitoring, cleaning
      and decontaminating facilities and equipment.




                                       154
                                                                      Appendix 3


7. EVIDENCE CONTROL

STANDARD 7.1 The laboratory shall have and follow a documented evidence
control system to ensure the integrity of physical evidence. This system shall
ensure that:

      7.1.1 Evidence is marked for identification.

      7.1.2 Chain of custody for all evidence is maintained.

      7.1.3 The laboratory follows documented procedures that minimize loss,
      contamination, and/or deleterious change of evidence.

      7.1.4 The laboratory has secure areas for evidence storage.

STANDARD 7.2 Where possible, the laboratory shall retain or return a portion
of the evidence sample or extract.

      7.2.1 The laboratory shall have a procedure requiring that evidence
      sample/extract(s) are stored in a manner that minimizes degradation.

8. VALIDATION

STANDARD 8.1 The laboratory shall use validated methods and procedures for
forensic casework analyses.

      8.1.1 Developmental validation that is conducted shall be appropriately
      documented.

      8.1.2 Novel forensic DNA methodologies shall undergo developmental
      validation to ensure the accuracy, precision and reproducibility of the
      procedure. The developmental validation shall include the following:

         8.1.2.1 Documentation exists and is available which defines and
         characterizes the locus.

            8.1.2.2 Species specificity, sensitivity, stability and mixture studies
            are conducted.

            8.1.2.3 Population distribution data are documented and available.

                  8.1.2.3.1 The population distribution data would include the
                  allele and genotype distributions for the locus or loci
                  obtained from relevant populations. Where appropriate,
                  databases should be tested for independence expectations.



                                       155
                                                                    Appendix 3


     8.1.3 Internal validation shall be performed and documented by the
     laboratory.

           8.1.3.1 The procedure shall be tested using known and non-
           probative evidence samples. The laboratory shall monitor and
           document the reproducibility and precision of the procedure using
           human DNA control(s).

           8.1.3.2 The laboratory shall establish and document match criteria
           based on empirical data.

           8.1.3.3 Before the introduction of a procedure into forensic
           casework, the analyst or examination team shall successfully
           complete a qualifying test.

           8.1.3.4 Material modifications made to analytical procedures shall
           be documented and subject to validation testing.

     8.1.4 Where methods are not specified, the laboratory shall, wherever
     possible, select methods that have been published by reputable technical
     organizations or in relevant scientific texts or journals, or have been
     appropriately evaluated for a specific or unique application.

9. ANALYTICAL PROCEDURES

STANDARD 9.1 The laboratory shall have and follow written analytical
procedures approved by the laboratory management/technical manager.

     9.1.1 The laboratory shall have a standard operating protocol for each
     analytical technique used.

     9.1.2 The procedures shall include reagents, sample preparation,
     extraction, equipment, and controls which are standard for DNA analysis
     and data interpretation.

     9.1.3 The laboratory shall have a procedure for differential extraction of
     stains that potentially contain semen.

STANDARD 9.2 The laboratory shall use reagents that are suitable for the
methods employed.

     9.2.1 The laboratory shall have written procedures for documenting
     commercial supplies and for the formulation of reagents.




                                     156
                                                                    Appendix 3


     9.2.2 Reagents shall be labeled with the identity of the reagent, the date
     of preparation or expiration, and the identity of the individual preparing
     the reagent.

     9.2.3 The laboratory shall identify critical reagents and evaluate them
     prior to use in casework. These critical reagents include but are not
     limited to:
            (a) Restriction enzyme
            (b) Commercial kits for performing genetic typing
            (c) Agarose for analytical RFLP gels
            (d) Membranes for Southern blotting
            (e) K562 DNA or other human DNA controls
            (f) Molecular weight markers used as RFLP sizing standards
            (g) Primer sets
            (h)Thermostable DNA polymerase

STANDARD 9.3 The laboratory shall have and follow a procedure for evaluating
the quantity of the human DNA in the sample where possible.

     9.3.1 For casework RFLP samples, the presence of high molecular weight
     DNA should be determined.

STANDARD 9.4 The laboratory shall monitor the analytical procedures using
appropriate controls and standards.

     9.4.1 The following controls shall be used in RFLP casework analysis:

           9.4.1.1 Quantitation standards for estimating the amount of DNA
           recovered by extraction.

           9.4.1.2 K562 as a human DNA control. (In monitoring sizing data,
           a statistical quality control method for K562 cell line shall be
           maintained.)

           9.4.1.3 Molecular weight size markers to bracket known and
           evidence samples.

           9.4.1.4 Procedure to monitor the completeness of restriction
           enzyme digestion.

     9.4.2 The following controls shall be used for PCR casework analysis:

           9.4.2.1 Quantitation standards which estimate the amount of
           human nuclear DNA recovered by extraction.

           9.4.2.2 Positive and negative amplification controls.


                                     157
                                                                     Appendix 3


           9.4.2.3 Reagent blanks.

           9.4.2.4 Allelic ladders and/or internal size makers for variable
           number tandem repeat sequence PCR based systems.

STANDARD 9.5 The laboratory shall check its DNA procedures annually or
whenever substantial changes are made to the protocol(s) against an
appropriate and available NIST standard reference material or standard
traceable to a NIST standard.

STANDARD 9.6 The laboratory shall have and follow written general guidelines
for the interpretation of data.

     9.6.1 The laboratory shall verify that all control results are within
     established tolerance limits.

     9.6.2 Where appropriate, visual matches shall be supported by a
     numerical match criterion.

     9.6.3 For a given population(s) and/or hypothesis of relatedness, the
     statistical interpretation shall be made following the recommendations
     4.1, 4.2 or 4.3 as deemed applicable of the National Research Council
     report entitled "The Evaluation of Forensic DNA Evidence" (1996) and/or
     court directed method. These calculations shall be derived from a
     documented population database appropriate for the calculation.

10. EQUIPMENT CALIBRATION AND MAINTENANCE

STANDARD 10.1 The laboratory shall use equipment suitable for the methods
employed.

STANDARD 10.2 The laboratory shall have a documented program for
calibration of instruments and equipment.

     10.2.1 Where available and appropriate, standards traceable to national
     or international standards shall be used for the calibration.

           10.2.1.1 Where traceability to national standards of measurement
           is not applicable, the laboratory shall provide satisfactory evidence
           of correlation of results.

     10.2.2 The frequency of the calibration shall be documented for each
     instrument requiring calibration. Such documentation shall be retained
     in accordance with applicable Federal or state law.




                                      158
                                                                      Appendix 3


STANDARD 10.3 The laboratory shall have and follow a documented program
to ensure that instruments and equipment are properly maintained.

      10.3.1 New instruments and equipment, or instruments and equipment
      that have undergone repair or maintenance, shall be calibrated before
      being used in casework analysis.

      10.3.2 Written records or logs shall be maintained for maintenance
      service performed on instruments and equipment. Such documentation
      shall be retained in accordance with applicable Federal or state law.

11. REPORTS

STANDARD 11.1 The laboratory shall have and follow written procedures for
taking and maintaining case notes to support the conclusions drawn in
laboratory reports.

      11.1.1 The laboratory shall maintain, in a case record, all documentation
      generated by examiners related to case analyses.

      11.1.2 Reports according to written guidelines shall include:
            (a) Case identifier
            (b) Description of evidence examined
            (c) A description of the methodology
            (d) Locus
            (e) Results and/or conclusions
            (f) An interpretative statement (either quantitative or qualitative)
            (g) Date issued
            (h) Disposition of evidence
            (i) A signature and title, or equivalent identification, of the
            person(s) accepting responsibility for the content of the report.

      11.1.3 The laboratory shall have written procedures for the release of
      case report information.

12. REVIEW

STANDARD 12.1 The laboratory shall conduct administrative and technical
reviews of all case files and reports to ensure conclusions and supporting data
are reasonable and within the constraints of scientific knowledge.

      12.1.1 The laboratory shall have a mechanism in place to address
      unresolved discrepant conclusions between analysts and reviewer(s).

STANDARD 12.2 The laboratory shall have and follow a program that
documents the annual monitoring of the testimony of each examiner.


                                       159
                                                                       Appendix 3


13. PROFICIENCY TESTING

STANDARD 13.1 Examiners and other personnel designated by the technical
manager or leader who are actively engaged in DNA analysis shall undergo, at
regular intervals of not to exceed 180 days, external proficiency testing in
accordance with these standards. Such external proficiency testing shall be an
open proficiency testing program.

      13.1.1 The laboratory shall maintain the following records for proficiency
      tests:
             (a) The test set identifier.
             (b) Identity of the examiner.
             (c) Date of analysis and completion.
             (d) Copies of all data and notes supporting the conclusions.
             (e) The proficiency test results.
             (f) Any discrepancies noted.
             (g) Corrective actions taken. Such documentation shall be retained
             in accordance with applicable Federal or state law.

      13.1.2 The laboratory shall establish at a minimum the following criteria
      for evaluation of proficiency tests:
             (a)   All reported inclusions are correct or incorrect.
             (b)   All reported exclusions are correct or incorrect.
             (c)   All reported genotypes and/or phenotypes are correct or
                   incorrect according to consensus genotypes/phenotypes or
                   within established empirically determined ranges.
             (d)   All results reported as inconclusive or uninterpretable are
                   consistent with written laboratory guidelines. The basis for
                   inconclusive interpretations in proficiency tests must be
                   documented.
             (e)   All discrepancies/errors and subsequent corrective actions
                   must be documented.
             (f)   All final reports are graded as satisfactory or unsatisfactory.
                   A satisfactory grade is attained when there are no analytical
                   errors for the DNA profile typing data. Administrative errors
                   shall be documented and corrective actions taken to
                   minimize the error in the future.
             (g)   All proficiency test participants shall be informed of the final
                   test results.

14. CORRECTIVE ACTION

STANDARD 14.1 The laboratory shall establish and follow procedures for
corrective action whenever proficiency testing discrepancies and/or casework
errors are detected.



                                       160
                                                                   Appendix 3


     14.1.1 The laboratory shall maintain documentation for the corrective
     action. Such documentation shall be retained in accordance with
     applicable Federal or state law.

15. AUDITS

STANDARD 15.1 The laboratory shall conduct audits annually in accordance
with the standards outlined herein.

     15.1.1 Audit procedures shall address at a minimum:
           (a)   Quality assurance program
           (b)   Organization and management
           (c)   Personnel
           (d)   Facilities
           (e)   Evidence control
           (f)   Validation
           (g)   Analytical procedures
           (h)   Calibration and maintenance
           (i)   Proficiency testing
           (j)   Corrective action
           (k)   Reports
           (l)   Review
           (m) Safety
           (n)   Previous audits

     15.1.2 The laboratory shall retain all documentation pertaining to audits
     in accordance with relevant legal and agency requirements.

STANDARD 15.2 Once every two years, a second agency shall participate in the
annual audit.

16. SAFETY

STANDARD 16.1 The laboratory shall have and follow a documented
environmental health and safety program.

17. SUBCONTRACTOR OF ANALYTICAL TESTING FOR WHICH VALIDATED
PROCEDURES EXIST

STANDARD 17.1 A laboratory operating under the scope of these standards will
require certification of compliance with these standards when a subcontractor
performs forensic DNA analyses for the laboratory.

     17.1.1 The laboratory will establish and use appropriate review
     procedures to verify the integrity of the data received from the
     subcontractor.


                                     161
                                                                    Appendix 3


                  Standards For Convicted Offender
                    DNA Databasing Laboratories

                                    Preface
Throughout its deliberation concerning these quality standards,
the DNA Advisory Board recognized the need for a mechanism to ensure
compliance with the standards. An underlying premise for these discussions
was that accreditation would be required to demonstrate compliance with the
standards and therefore assure quality control and a quality program.
Accordingly, the Board recommends that forensic laboratories performing DNA
analysis seek such accreditation with all deliberate speed. Additionally, the
Board strongly encourages the accrediting bodies to begin positioning
themselves to accommodate the increasing demand for accreditation.

                                   Introduction
Forensic DNA identification analysis currently involves forensic casework and
convicted offender analyses. These complementary functions demand
adherence to the highest analytical standards possible to protect both public
safety and individual rights. Separate standards have been drafted for
laboratories performing these functions. This separation is an acknowledgment
of the differences in the nature or type of sample, the typical sample quantity
and potential for reanalysis, and specialization that may exist in a laboratory.
Standards for convicted offender laboratories, in some instances, are less
stringent than for those performing forensic casework analyses, but in no case
should the two documents be interpreted as conflicting. This document
consists of definitions and standards. The standards are quality assurance
measures that place specific requirements on the laboratory. Equivalent
measures not outlined in this document may also meet the standard if
determined sufficient through an accreditation process.

             Mechanism To Recommend Changes To Standards
Once the Director of the Federal Bureau of Investigation (FBI) has issued
standards for quality assurance for convicted offender DNA testing, the DNA
Advisory Board may recommend revisions to such standards to the FBI
Director, as necessary. In the event that the duration of the DNA Advisory
Board is extended beyond March 10, 2000, by the FBI Director, the Board may
continue to recommend revisions to such standards to the FBI Director. In the
event that the DNA Advisory Board is not extended by the FBI Director after
March 10, 2000, the Technical Working Group on DNA Analysis Methods
(TWGDAM) may recommend revisions to such standards to the FBI Director, as
necessary.

Effective Date
These Quality Assurance Standards for Convicted Offender DNA Databasing
Laboratories take effect April 1, 1999.


                                      162
                                                                      Appendix 3


REFERENCES:
American Society of Crime Laboratory Directors-Laboratory Accreditation
Board (ASCLD-LAB), ASCLD-LAB Accreditation Manual, January 1994, and
January, 1997.

International Standards Organization (ISO)/International Electrotechnical
Commission (IEC), ISO/IEC Guide 25-1990, (1990)
American National Standards Institute, New York, NY.

Technical Working Group on DNA Analysis Methods, "Guidelines for a Quality
Assurance Program for DNA Analysis," Crime Laboratory Digest, April 1995,
Volume 22, Number 2, pp. 21-43.

42 Code of Federal Regulations, Chapter IV (10-1-95 Edition), Health Care
Financing Administration, Health and Human Services.

1. SCOPE

The standards describe the quality assurance requirements that a government
laboratory which is defined as a facility in which convicted offender DNA
testing is regularly performed should follow to ensure the quality and integrity
of the data and competency of the laboratory. These standards do not preclude
the participation of a laboratory, by itself or in collaboration with others, in
research and development, on procedures that have not yet been validated.

2. DEFINITIONS

As used in these standards, the following terms shall have the meanings
specified:

   (a)   Administrative review is an evaluation of the report and supporting
         documentation for consistency with laboratory policies and for
         editorial correctness.

   (b)   Amplification blank control consists of only amplification reagents
         without the addition of sample DNA. This control is used to detect
         DNA contamination of the amplification reagents.

   (c)   Analytical procedure is an orderly step by step procedure designed to
         ensure operational uniformity and to minimize analytical drift.

   (d)   Audit is an inspection used to evaluate, confirm, or verify activity
         related to quality.

   (e)   Batch is a group of samples analyzed at the same time.



                                       163
                                                                  Appendix 3


(f)   Calibration is the set of operations which establish, under specified
      conditions, the relationship between values indicated by a measuring
      instrument or measuring system or values represented by a material
      and the corresponding known values of a measurement.

(g)   CODIS is the Combined DNA Index System administered by the FBI.
      It houses DNA profiles from convicted offenders, forensic specimens,
      population samples and other specimen types.

(h)   Commercial test kit is a preassembled kit that allows the user to
      conduct a specific DNA identification test.

(i)   Convicted offender is an individual who is required by statute to
      submit a standard sample for DNA databasing.

(j)   Convicted offender database (CODIS) manager or custodian (or
      equivalent role, position, or title as designated by the laboratory
      director) is the person responsible for administration and security of
      the laboratory's CODIS.

(k)   Convicted offender standard sample is biological material collected
      from an individual for DNA analysis and inclusion into CODIS. See
      also database sample.

(l)   Critical equipment or instruments are those requiring calibration
      prior to use and periodically thereafter.

(m)   Critical reagents are determined by empirical studies or routine
      practice to require testing on established samples before use in order
      to prevent unnecessary loss of sample.

(n)   Database sample is a known blood or standard sample obtained from
      an individual whose DNA profile will be included in a computerized
      database and searched against other DNA profiles.

(o)   Examiner/analyst (or equivalent role, position, or title as designated
      by the laboratory director) is an individual who conducts and/or
      directs the analysis of samples, interprets data and reaches
      conclusions.

(p)   Known samples are biological material whose identity or type is
      established.

(q)   Laboratory is a government facility in which convicted offender DNA
      testing is performed or a government facility who contracts with a
      second entity for such testing.


                                   164
                                                                   Appendix 3


(r)    Laboratory support personnel (or equivalent role, position, or title as
       designated by the laboratory director) are individual(s) who perform
       laboratory duties and do not analyze samples.

(s)    NIST is the National Institute of Standards and Technology.

(t)    Polymerase Chain Reaction (PCR) is an enzymatic process by which a
       specific region of DNA is replicated during repetitive cycles which
       consist of: 1) denaturation of the template; 2) annealing of primers to
       complementary sequences at an empirically determined temperature;
       and 3) extension of the bound primers by a DNA polymerase.

(u)    Proficiency test sample is biological material whose DNA type has
       been previously characterized and which is used to monitor the
       quality performance of a laboratory or an individual.

(v)    Proficiency testing is a quality assurance measure used to monitor
       performance and identify areas in which improvement may be needed.
       Proficiency tests may be classified as: 1) Internal proficiency test is
       one prepared and administered by the laboratory. 2) External
       proficiency test, which may be open or blind, is one which is obtained
       from a second agency.

(w)    A Qualifying test measures proficiency in both technical skills and
       knowledge.

(x)    Quality assurance includes the systematic actions necessary to
       demonstrate that a product or service meets specified requirements
       for quality.

(y)    A quality manual is a document stating the quality policy, quality
       system and quality practices of an organization.

(z)    Quality system is the organizational structure, responsibilities,
       procedures, processes and resources for implementing quality
       management.

(aa)   Reagent blank control consists of all reagents used in the test process
       without any sample. This is to be used to detect DNA contamination
       of the analytical reagents.

(bb)   Reference material (certified or standard) is a material for which
       values are certified by a technically valid procedure and accompanied
       by or traceable to a certificate or other documentation which is issued
       by a certifying body.



                                    165
                                                                    Appendix 3


(cc)   Restriction Fragment Length Polymorphism (RFLP) is generated by
       cleavage by a specific restriction enzyme and the variation is due to
       restriction site polymorphism and/or the number of different repeats
       contained within the fragments.

(dd)   Review is an evaluation of documentation to check for consistency,
       accuracy, and completeness.

(ee)   Second agency is an entity or organization external to and
       independent of the laboratory and which performs DNA identification
       analysis.

(ff)   Secure area is a locked space (for example, cabinet, vault or room)
       with access restricted to authorized personnel.

(gg)   Subcontractor is an individual or entity having a transactional
       relationship with a laboratory.

(hh)   Technical manager or leader (or equivalent position or title as
       designated by the laboratory director) is the individual who is
       accountable for the technical operations of the laboratory.

(ii)   Technical review is an evaluation of reports, notes, data, and other
       documents to ensure an appropriate and sufficient basis for the
       scientific conclusions. This review is conducted by a second qualified
       individual.

(jj)   Technician (or equivalent role, position, or title as designated by the
       laboratory director) is an individual who performs analytical
       techniques on samples under the supervision of a qualified
       examiner/analyst and/or performs DNA analysis on samples for
       inclusion in a database.

(kk)   Traceability is the property of a result of a measurement whereby it
       can be related to appropriate standards, generally international or
       national standards, through an unbroken chain of comparisons.

(ll)   Validation is a process by which a procedure is evaluated to
       determine its efficacy and reliability for DNA analysis and includes:
       1) Developmental validation is the acquisition of test data and
       determination of conditions and limitations of a new or novel DNA
       methodology for use on samples. 2) Internal validation is an
       accumulation of test data within the laboratory to demonstrate that
       established methods and procedures perform as expected in the
       laboratory.



                                     166
                                                                     Appendix 3


3. QUALITY ASSURANCE PROGRAM

STANDARD 3.1 The laboratory shall establish and maintain a documented
quality system that is appropriate to the testing activities.

     3.1.1 The quality manual shall address at a minimum:
           (a) Goals and objectives
           (b) Organization and management
           (c) Personnel qualifications and training
           (d) Facilities
           (e) Sample control
           (f) Validation
           (g) Analytical procedures
           (h) Calibration and maintenance
           (i) Proficiency testing
           (j) Corrective action
           (k) Documentation
           (l) Review
           (m) Safety
           (n) Audits

4. ORGANIZATION AND MANAGEMENT

STANDARD 4.1 The laboratory shall:
    (a)  have a managerial staff with the authority and resources needed to
         discharge their duties and meet the requirements of the standards
         in this document.
    (b)  have a technical manager or leader who is accountable for the
         technical operations.
    (c)  have a CODIS manager or custodian who is accountable for CODIS
         operations.
    (d)  specify and document the responsibility, authority, and
         interrelation of all personnel who manage, perform or verify work
         affecting the validity of the DNA analysis.

5. PERSONNEL

STANDARD 5.1 Laboratory personnel shall have the education, training and
experience commensurate with the examination and testimony provided. The
laboratory shall:

     5.1.1 have a written job description for personnel to include
     responsibilities, duties and skills.

     5.1.2 have a documented training program for qualifying all technical
     laboratory personnel.


                                     167
                                                                    Appendix 3


     5.1.3 have a documented program to ensure technical qualifications are
     maintained through continuing education.

         5.1.3.1 Continuing education - the technical manager or leader,
         CODIS manager or custodian, and examiner-analyst(s) must stay
         abreast of developments within the field of DNA typing by reading
         current scientific literature and by attending seminars, courses,
         professional meetings or documented training sessions/classes in
         relevant subject areas at least once a year.

     5.1.4 maintain records on the relevant qualifications, training, skills and
     experience of the technical personnel.

STANDARD 5.2 The technical manager or leader shall have the following:

     5.2.1 Degree requirements: The technical manager or leader of a
     laboratory shall have, at a minimum, a Master's degree in biology-,
     chemistry-, or forensic science-related area and successfully completed a
     minimum of 12 semester or equivalent credit hours of a combination of
     undergraduate and graduate course work covering the subject areas of
     biochemistry, genetics and molecular biology (molecular genetics,
     recombinant DNA technology), or other subjects which provide a basic
     understanding of the foundation of forensic DNA analysis, as well as
     statistics and/or population genetics as it applies to forensic DNA
     analysis.

         5.2.1.1 The degree requirements of section 5.2.1 may be waived by
         the American Society of Crime Laboratory Directors (ASCLD) or other
         organizations designated by the Director of the FBI in accordance
         with criteria approved by the Director of the FBI. This waiver shall be
         available for a period of two years from the effective date of the
         standards. The waiver shall be permanent and portable.

     5.2.2 Experience requirements: A technical manager or leader of a
     laboratory shall have a minimum of three years of relevant problem
     solving or related analytical laboratory experience.

     5.2.3 Duty requirements:

         5.2.3.1 General: manages the technical operations of the laboratory.

         5.2.3.2 Specific duties:
                  (a)   Is responsible for evaluating all methods used by the
                        laboratory and for proposing new or modified
                        analytical procedures to be used by examiners.



                                     168
                                                                    Appendix 3


                 (b)    Is responsible for technical problem solving of
                        analytical methods and for the oversight of training,
                        quality assurance, safety and proficiency testing in the
                        laboratory.

         5.2.3.3 The technical manager or leader shall be accessible to the
         laboratory to provide on-site, telephone or electronic consultation as
         needed.

STANDARD 5.3 CODIS manager or custodian shall have the following:

     5.3.1 Degree requirements: A CODIS manager or custodian shall have, at
     a minimum, a Bachelor's degree in a natural science or computer
     science.

     5.3.2 Experience requirements: A CODIS manager or custodian shall
     have a working knowledge of computers, computer networks, and
     computer database management, with an understanding of DNA profile
     interpretation.

     5.3.3 Duty requirements:
           (a)   Is the system administrator of the laboratory's CODIS
                 network and is responsible for the security of DNA profile
                 data stored in CODIS.
           (b)   Is responsible for oversight of CODIS computer training and
                 quality assurance of data.
           (c)   Has the authority to terminate the laboratory's participation
                 in CODIS in the event of a problem until the reliability of the
                 computer data can be assured. The state CODIS manager or
                 custodian has this authority over all CODIS sites under
                 his/her jurisdiction.

STANDARD 5.4 Examiner/analyst shall have the following:

     5.4.1 Degree requirements: An examiner/analyst shall have, at a
     minimum, a Bachelors degree or its equivalent degree in biology-,
     chemistry-, or forensic science-related area and must have successfully
     completed college course work (graduate or undergraduate level) covering
     the subject areas of biochemistry, genetics and molecular biology
     (molecular genetics, recombinant DNA technology) or other subjects
     which provide a basic understanding of the foundation of forensic DNA
     analysis, as well as course work and/or training in statistics and
     population genetics as it applies to forensic DNA analysis.

     5.4.2 Experience requirements: An examiner/analyst shall have a
           minimum of six (6) months of DNA laboratory experience, including


                                     169
                                                                     Appendix 3


            the successful analysis of a range of samples typically encountered
            in convicted offender analysis prior to independent work using DNA
            technology.

      5.4.3 An examiner/analyst shall have successfully completed a qualifying
            test before beginning independent work responsibilities.

STANDARD 5.5 Technician shall have:

      5.5.1 on-the-job training specific to their job function(s).

      5.5.2 successfully completed a qualifying test before participating in DNA
      typing responsibilities.

STANDARD 5.6 Laboratory support personnel shall have:

      5.6.1 training, education and experience commensurate with their
      responsibilities as outlined in their job description.

6. FACILITIES

STANDARD 6.1 The laboratory shall have a facility that is designed to provide
adequate security and minimize contamination. The laboratory shall ensure
that:

      6.1.1 Access to the laboratory is controlled and limited.

      6.1.2 Prior to PCR amplification, evidence examinations, liquid sample
      examinations, DNA extractions, and PCR setup are conducted at
      separate times or in separate spaces.

      6.1.3 Amplified DNA product is generated, processed and maintained in
      a room(s) separate from the evidence examination, liquid blood
      examinations, DNA extractions and PCR setup areas.

      6.1.4 A robotic work station may be used to carry out DNA extraction
      and amplification in a single room, provided it can be demonstrated that
      contamination is minimized and equivalent to that when performed
      manually in separate rooms.

      6.1.5 The laboratory follows written procedures for monitoring, cleaning
      and decontaminating facilities and equipment.




                                       170
                                                                   Appendix 3


7. SAMPLE CONTROL

STANDARD 7.1 The laboratory shall have and follow a documented sample
inventory control system. This system shall ensure that:

     7.1.1 Offender samples are marked for identification.

     7.1.2 Documentation of sample identity, collection, receipt, storage, and
     disposition is maintained.

     7.1.3 The laboratory follows documented procedures that minimize
     sample loss, contamination, and/or deleterious change.

     7.1.4 The laboratory has secure areas for sample storage including
     environmental control consistent with the form or nature of the sample.

8. VALIDATION

STANDARD 8.1 The laboratory shall use validated methods and procedures for
DNA analyses.

     8.1.1 Developmental validation that is conducted shall be appropriately
     documented.

     8.1.2 Novel database DNA methodologies shall undergo developmental
     validation to ensure the accuracy, precision and reproducibility of the
     procedure.

           8.1.2.1 Documentation shall be available which defines and
           characterizes the locus.

     8.1.3 Internal validation shall be performed and documented by the
     laboratory.

           8.1.3.1 The procedure shall be tested using known samples. The
           laboratory shall monitor and document the reproducibility and
           precision of the procedure using human DNA control(s).

           8.1.3.2 Before the introduction of a procedure into database
           sample analysis, the analyst or examination team shall
           successfully complete a qualifying test.

           8.1.3.3 Material modifications made to analytical procedures shall
           be documented and subject to validation testing.




                                     171
                                                                     Appendix 3


9. ANALYTICAL PROCEDURES

STANDARD 9.1 The laboratory shall have and follow written analytical
procedures approved by the laboratory management/technical manager.

     9.1.1 The laboratory shall have a standard operating protocol for each
     analytical technique used.

     9.1.2 The procedures shall include reagents, sample preparation,
     extraction, equipment and controls which are standard for DNA analysis
     and data interpretation.

STANDARD 9.2 The laboratory shall use reagents that are suitable for the
methods employed.

     9.2.1 The laboratory shall have written procedures for documenting
     commercial supplies and for the formulation of reagents.

     9.2.2 Reagents shall be labeled with the identity of the reagent, the date
     of preparation and expiration, and the identity of the individual
     preparing the reagent.

     9.2.3 The laboratory shall identify critical reagents, if any, and evaluate
     them prior to use.

STANDARD 9.3 The laboratory shall monitor the analytical procedures using
appropriate controls and standards.

     9.3.1 The following controls shall be used in RFLP analysis:

           9.3.1.1 When required by the analytical procedure, standards for
           estimating the amount of DNA recovered by extraction shall be
           used.

           9.3.1.2 K562 as a human DNA control.

           9.3.1.3 Molecular weight size markers to bracket samples on an
           analytical gel. No more than five lanes shall exist between marker
           lanes.

           9.3.1.4 A procedure shall be available to monitor the completeness
           of restriction enzyme digestion. Interpretation of the
           autorad/lumigraph is the ultimate method of assessment but a
           test gel or other method may be used as necessary.

     9.3.2 The following controls shall be used for PCR database analysis:


                                      172
                                                                     Appendix 3


           9.3.2.1 When required by the analytical procedure, standards
           which estimate the amount of human nuclear DNA recovered by
           extraction shall be used.

           9.3.2.2 Positive and negative amplification controls.

           9.3.2.3 Contamination controls.

                 9.3.2.3.1 Samples extracted prior to the effective date of
                 these standards without reagent blanks are acceptable as
                 long as other samples analyzed in the batch do not
                 demonstrate contamination.

           9.3.2.4 Allelic ladders for variable number tandem repeat sequence
           PCR-based systems.

STANDARD 9.4 The laboratory shall check its DNA procedures annually or
whenever substantial changes are made to the protocol(s) against an
appropriate and available NIST standard reference material or standard
traceable to a NIST standard.

STANDARD 9.5 The laboratory shall have and follow written general guidelines
for the interpretation of data.

     9.5.1 The laboratory shall verify that all control results are within
     established tolerance limits.

10. EQUIPMENT CALIBRATION AND MAINTENANCE

STANDARD 10.1 The laboratory shall use equipment suitable for the methods
employed.

STANDARD 10.2 The laboratory shall identify critical equipment and shall have
a documented program for calibration of instruments and equipment.

     10.2.1 Where available and appropriate, standards traceable to national
     or international standards shall be used for calibration.

           10.2.1.1 Where traceability to national standards of measurement
           is not applicable, the laboratory shall provide satisfactory evidence
           of correlation of results.

     10.2.2 The frequency of the calibration shall be documented for each
     instrument requiring calibration. Such documentation shall be retained
     in accordance with federal or state law.



                                      173
                                                                      Appendix 3


STANDARD 10.3 The laboratory shall have and follow a documented program
to ensure that instruments and equipment are properly maintained.

      10.3.1 New critical instruments and equipment, or critical instruments
      and equipment that have undergone repair or maintenance, shall be
      calibrated before use.

      10.3.2 Written records or logs shall be maintained for maintenance
      service performed on instruments and equipment. Such documentation
      shall be retained in accordance with federal or state law.

11. REPORTS

STANDARD 11.1 The laboratory shall have and follow written procedures for
generating and maintaining documentation for database samples.

      11.1.1 The laboratory shall have written procedures for the release of
      database sample information.

12. REVIEW

STANDARD 12.1 The laboratory shall have and follow written procedures for
reviewing database sample information, results, and matches.

      12.1.1 The laboratory shall have a mechanism in place to address
      unresolved discrepant conclusions between analysts and reviewer(s).

STANDARD 12.2 The laboratory shall have and follow a program that
documents the annual monitoring of the testimony of laboratory personnel.

13. PROFICIENCY TESTING

STANDARD 13.1 Examiners and other personnel designated by the technical
manager or leader who are actively engaged in DNA analysis shall undergo, at
regular intervals of not to exceed 180 days, external proficiency testing in
accordance with these standards. Such external proficiency testing shall be an
open proficiency testing program.

      13.1.1 The   laboratory shall maintain the following records for proficiency
      tests:
             (a)   The test set identifier.
             (b)   Identity of the examiner.
             (c)   Date of analysis and completion.
             (d)   Copies of all data and notes supporting the conclusions.
             (e)   The proficiency test results.
             (f)   Any discrepancies noted.


                                       174
                                                                       Appendix 3


            (g)   Corrective actions taken. Such documentation shall be
                  retained in accordance with applicable federal or state law.

      13.1.2 The laboratory shall establish at a minimum the following criteria
      for evaluation of proficiency tests:
             (a)   All reported inclusions are correct or incorrect.
             (b)   All reported exclusions are correct or incorrect.
             (c)   All reported genotypes and/or phenotypes are correct or
                   incorrect according to consensus genotypes/phenotypes or
                   within established empirically determined ranges.
             (d)   All results reported as inconclusive or uninterpretable are
                   consistent with written laboratory guidelines. The basis for
                   inconclusive interpretations in proficiency tests must be
                   documented.
             (e)   All discrepancies/errors and subsequent corrective actions
                   must be documented.
             (f)   All final reports are graded as satisfactory or unsatisfactory.
                   A satisfactory grade is attained when there are no analytical
                   errors for the DNA profile typing data. Administrative errors
                   shall be documented and corrective actions taken to
                   minimize the error in the future.
             (g)   All proficiency test participants shall be informed of the final
                   test results.

14. CORRECTIVE ACTION

STANDARD 14.1 The laboratory shall establish and follow procedures for
corrective action whenever proficiency testing discrepancies and/or analytical
errors are detected.

      14.1.1 The laboratory shall maintain documentation for the corrective
      action. Such documentation shall be retained in accordance with federal
      or state law.

15. AUDITS

STANDARD 15.1 The laboratory shall conduct audits annually in accordance
with the standards outlined herein.

      15.1.1 Audit procedures shall address at a minimum:
            (a)   Quality assurance program
            (b)   Organization and management
            (c)   Personnel
            (d)   Facilities
            (e)   Sample control
            (f)   Validation


                                       175
                                                                   Appendix 3


           (g)   Analytical procedures
           (h)   Calibration and maintenance
           (i)   Proficiency testing
           (j)   Corrective action
           (k)   Documentation
           (l)   Review
           (m)   Safety
           (n)   Previous audits

     15.1.2 The laboratory shall retain all documentation pertaining to audits
     in accordance with relevant legal and agency requirements.

STANDARD 15.2 Once every two years, a second agency shall participate in the
annual audit.

16. SAFETY

STANDARD 16.1 The laboratory shall have and follow a documented
environmental health and safety program.

17. SUBCONTRACTOR OF ANALYTICAL TESTING FOR WHICH VALIDATED
PROCEDURES EXIST

STANDARD 17.1 A laboratory operating under the scope of these standards
will require certification of compliance with these standards when a
subcontractor performs convicted offender DNA analyses for the laboratory.

     17.1.1 The laboratory will establish and use appropriate review
     procedures to verify the integrity of the data received from the
     subcontractor including but not limited to:
           (a)   Random reanalysis of samples.
           (b)   Visual inspection and evaluation of results/data.
           (c)   Inclusion of QC samples.
           (d)   On-site visits.




                                     176
                                                                      Appendix 4


                          NDIS REQUIREMENTS

       The NDIS Requirements are found in the Memorandum of Understanding
(MOU) signed by the FBI and each NDIS participant. The MOU requires that
signatories comply with general requirements already established (i.e., federal
legislation, the Forensic and Offender Standards), as well as requirements
specific to the national index that accompany the MOU in three appendices:
NDIS Responsibilities (Appendix A); NDIS Data Acceptance Standards
(Appendix B); and the NDIS Procedures Manual (Appendix C). While the
Appendices include a multitude of individual requirements, we include in the
following examples from among the more significant of those requirements.

      Appendix A, NDIS Responsibilities, mandates that laboratories:

•     Comply with FBI requirements for physically and electronically
      safeguarding CODIS against unauthorized use, including providing an
      appropriate and secure site for the NDIS system.

•     Designate one agency within each state to be responsible for ensuring
      that conditions and standards for participation in the national index are
      met.

•     Designate one CODIS liaison within the state agency to handle
      communications with the FBI.

•     Ensure that appropriate personnel are provided copies of, understand,
      and abide by the NDIS Procedures Manual.

•     Identify in writing, in prescribed form, personnel approved to access
      CODIS and ensure that access to CODIS is limited to approved
      personnel.

•     Maintain records on personnel approved to access CODIS, including
      proficiency testing records and any other report required by the FBI, for a
      period of 10 years.

•     Conduct background investigations of personnel designated to input data
      to or access the national index.

•     Maintain a system of controls to ensure that DNA records are kept as
      long as they are substantiated by the laboratory’s internal records and
      are allowed to be retained by federal or state law, by judicial decree or by
      consent, and used in local, state, and national indexes in accordance
      with the Act, applicable state law, and for the national index, in
      accordance with the Privacy Act of 1974. This is the only NDIS



                                       177
                                                                   Appendix 4


     requirement that pertains to the convicted offender profile sample as well
     as the forensic profile sample.

•    Report on a monthly basis confirmed national index matches to the FBI
     in a form prescribed by the FBI.

•    Provide to the FBI a written report of deletions/modifications within 10
     business days of discovering a DNA record requires
     deletion/modification.

     Appendix B, NDIS Data Acceptance Standards, requires that:

•    Laboratories using STR technology must use an FBI-approved STR kits.

•    Laboratories must attempt analysis of all 13 STR chromosomal locations
     that constitute a complete DNA profile (see Appendix 3 for an example of
     a complete DNA profile that includes each of these 13 chromosomal
     locations) and must obtain results for a minimum of 10 of those
     locations for a forensic profile to be considered “complete” and be
     included in the national index. An STR convicted offender profile will not
     be included in the national index unless the laboratory tests and obtains
     results for all 13 chromosomal locations.

•    Only forensic profiles derived from crime scene evidence matching the
     suspected perpetrator(s) or an unknown individual can be uploaded to
     the national index. Profiles clearly matching the victim or any known
     person other than the suspected perpetrator(s) cannot be uploaded to the
     national index. However, if the forensic profile is a mixture that cannot
     be clearly separated into a portion matching the victim or other known
     person and the portion matching the suspected perpetrator, such a
     profile would be accepted.

       Appendix C, NDIS Procedures Manual, provides (among other
information) procedures for confirming and documenting potential matches
found in the CODIS databases, both for case-to-case matches as well as case-
to-offender matches. These procedures require that:

•    Potential or “candidate” matches be refuted or confirmed within 30
     business days.

•    In circumstances where a match is confirmed between two cases, the
     laboratory must notify, at a minimum, the law enforcement agencies
     investigating the cases.




                                     178
                                                              Appendix 4


•   A report must be generated and filed for each confirmed candidate
    match, including, at a minimum, the prescribed forms and information
    delineated in the procedures.




                                  179
                                                                    Appendix 5


                       SCIENTIST BIOGRAPHIES

Dr. Arthur J. Eisenberg

Dr. Eisenberg received a Ph.D. in Molecular Biology from the State University of
New York at Albany in 1984. He has worked in the field of DNA identification
testing for the past 20 years, and has helped in the development of many of the
reagents and methodologies used in the field. He currently serves as an
Associate Professor in the Department of Pathology and as the Director of the
DNA Identity Laboratory at the University of North Texas Health Science
Center, Fort Worth, Texas. The DNA Identity Laboratory, in addition to
performing parentage and DNA forensic testing, was designated by the Texas
Legislature in its 2001 legislative session to serve as the site for the state’s
Missing Person Database.

Dr. Eisenberg has been a member of the FBI’s Scientific Working Group on
DNA Analysis Methodologies for the past 14 years. He is also a member of the
College of American Pathologists/American Association of Blood Banks
Parentage Testing Proficiency Committee, and is a former member of the
American Association of Blood Banks Parentage Testing Standards Committee.
He was appointed to the United States DNA Advisory Board, an oversight group
created as a result of the DNA Identification Act of 1994, in the position of
Molecular Biologist and was later named Chairman.

Mr. William David Coffman

Mr. Coffman received his Bachelor of Science degree in Chemistry from the
University of Houston in 1982, and later completed additional coursework in
the subjects of Molecular Biology, Genetics, and Biochemistry. Mr. Coffman’s
professional career began with a serology position at the Houston Police
Department Crime Laboratory in 1984. After a variety of DNA experiences,
Mr. Coffman accepted in 1987 a position as a forensic biologist with the Florida
Department of Law Enforcement Tallahassee Regional Crime Laboratory. In
1990 Mr. Coffman was asked to establish the state of Florida's DNA
Investigative Support Database and in 1994 was promoted to his current
position as Crime Laboratory Analyst Supervisor, overseeing Florida's DNA
Investigative Support Database Program.

Mr. Coffman has served as an expert witness in the field of Forensic Biology in
the states of Florida, Texas, New Hampshire, and Wisconsin approximately 150
times, and has testified or given depositions on the subject of Forensic DNA
and cases related to DNA Databasing approximately 15 times.

Mr. Coffman has served in a variety of positions in the national professional
DNA community, including: Vice Chairman, Scientific Working Group of DNA


                                      180
                                                                    Appendix 5


Analysis Methods; Combined DNA Index System Subcommittee Chairman,
Scientific Working Group of DNA Analysis Methods; member of the FBI’s
Quality Assurance Standards Audit Review Panel; member of the Laboratory
Funding Working Group that functions as part of the National Commission on
the Future of DNA Evidence; member of the FBI’s DNA Advisory Board from
March 1997 to March 2000; member of the National DNA Database Pilot
Program conducted for the Combined DNA Index System administered by the
FBI; member of the American Academy of Forensic Scientists; member of the
Southern Association of Forensic Scientists; member of the Florida Sex Crimes
Investigators Association, and a Special Subcommittee member for the Missing
and Exploited Children Information Clearinghouse.

Dr. John H. Ryan

Dr. Ryan received his Ph.D. in Genetics in 1995 from the State University of
New York at Stony Brook. Dr. Ryan's professional experience began in 1995
when he accepted a position as a DNA technician at the Armed Forces DNA
Identification Laboratory (AFDIL). AFDIL provides worldwide scientific
consultation, research, and education services in the field of forensic DNA
analysis to the Department of Defense (DoD) and other agencies. During his 5-
year tenure at AFDIL, Dr. Ryan progressed to the position of Technical Leader
of the mitochondrial DNA section. Dr. Ryan accepted his current position as
the Director of Forensic Programs at Myriad Genetic Laboratories, Inc., in June
of 2000. The Forensic Programs at Myriad Genetic Laboratories provides
highly automated processing of DNA samples. In addition, Dr. Ryan currently
serves as a DNA Expert on the Scientific Advisory Board for the International
Commission on Missing Persons (ICMP) for the former Yugoslavia. The ICMP,
works to bring resolution to the families of those missing from the conflicts in
the former Yugoslavia.

Dr. Ryan has held a variety of positions in the national professional DNA
community, including President of the Human Identity Trade Association, a
member of the Mid-Atlantic Association of Forensic Scientists, a provisional
member of the American Academy of Forensic Scientists, and a Diplomat of the
American Board of Criminalistics.




                                      181
                                                                  Appendix 6


       CHECKLISTS AND GUIDANCE FOR SCIENTISTS

      This Appendix contains the definition of terms, guidance, and forms that
were used by the assessment team to determine which portions of the FBI
DNAUI written procedures and protocols were vulnerable to undetected
inadvertent or willful noncompliance.

      The document sections in the checklists track directly to the table of
contents of the various documents listed. Separate tables were completed for
both impact rankings and risk rankings, even though the following documents
show impact and risk on the same checklist.




                                     182
                                                                      Appendix 6



               FBI DNA Laboratory Vulnerability Assessment
                Instructions for Numeric Ratings of Impact

Impact is defined as the measure of how scientifically essential a particular
procedure or protocol is to producing a complete and accurate DNA profile.
Producing a complete DNA profile includes ensuring that available DNA
samples are efficiently and effectively processed for analysis. This definition
does not include a consideration of whether a procedure or protocol is
essential to the legal utility of a DNA profile.


Descriptions of Rating Criteria

Low Impact A procedure or protocol falling into this category is optional,
(Value = 1-3) and while it may be beneficial, it is not in any way required.
              The details of this procedure or protocol, and even whether it is
              adhered to, have little to no impact on the production of a
              complete and accurate profile. The general focus of the
              procedure or protocol is adherence to organization-specific
              guidelines, or to maintain efficient and consistent operations.
              Non-adherence has no direct impact on the integrity of the
              overall evidence or final conclusions.


Medium        A procedure or protocol falling into this category is required by
Impact        quality standards, and certain aspects of what it includes are
(Value = 4-7) specified by quality standards. Failure to fully adhere to the
              procedure or protocol could compromise the obtaining of
              complete and accurate DNA results, and could compromise the
              integrity of the overall evidence or final conclusions, but not
              necessarily.


High Impact A procedure or protocol falling into this category, as well as
(Value= 8-10) many of its specific contents, are specifically required by
              quality standards. Proper adherence to the procedure or
              protocol is essential to obtaining complete and accurate DNA
              results, as well as preserving the integrity of the overall
              evidence and the final conclusions.




                                       183
                                                                    Appendix 6



              FBI DNA Laboratory Vulnerability Assessment
                 Instructions for Numeric Rating of Risk

Risk is the measure of the sufficiency of existing controls to prevent both
inadvertent and willful noncompliance and to detect noncompliance when
it occurs. Willful noncompliance, in the context of this assessment, is
defined as the intentional circumvention of applicable procedures and
protocols. We applied this definition with the understanding that protocols
alone cannot prevent in the first instance malicious acts by staff members.


Descriptions of Rating Criteria

Low Risk    A procedure or protocol falling into this category has several
(Value = 1- mechanisms in place both to ensure staff compliance and to
2)          deter and detect noncompliance. Mechanisms could include
            hard-wired computerized controls, threshholds or sign-offs;
            checklists; forms; witnesses or reviews; separation of duties;
            random checks, etc. Mechanisms would almost exclusively be
            those in which the process is forced to stop until the
            procedure or protocol is properly adhered to, and would be
            very difficult to bypass without the deliberate collusion of
            staff.

Medium-       A procedure or protocol falling into this category has several
Low Risk      mechanisms in place to ensure staff compliance and to detect
(Value = 3-   noncompliance. Mechanisms will generally be those that halt
4)            the process until the procedure or protocol is properly
              adhered to, but could also be based somewhat on faith in staff
              compliance. These mechanisms most likely could not be
              bypassed by a single individual unless there is negligence by
              other staff.


Medium      A procedure or protocol falling into this category has a few
Risk (Value mechanisms that serve to ensure staff compliance or to detect
= 5-6)      noncompliance. However, the mechanisms generally rely on
            faith in staff compliance, and would not halt the process if not
            complied with. Mechanisms could be bypassed for a short
            time by a single individual if other unknowing staff are not
            consistently thorough in their oversight responsibilities.




                                      184
                                                                      Appendix 6



Medium-       A procedure or protocol falling into this category has minimal
High Risk     mechanisms to ensure staff compliance or to detect
(Value = 7-   noncompliance. Mechanisms that are in place rely on faith in
8)            staff to perform as expected without monitoring to detect
              otherwise, and could be bypassed for a lengthy time by a
              single individual, even if other staff are being thorough in
              their oversight responsibilities.


High Risk     A procedure or protocol falling into this category is not being
(Value= 9-    monitored and has no mechanisms to detect noncompliance.
10)           Staff are left to themselves to adhere to the procedure or
              protocol, and noncompliance could exist indefinitely unless
              another staff member happens to discover and disclose the
              noncompliance to management.




                                       185
                                                                                          Appendix 6


                              Impact/Risk Assessment Forms, Phase 1

                                                                        = Lab Wide    = Unit Specific
Instructions: rate each of the following major sections for impact and risk. The
rating should reflect the highest level of impact or risk of procedures/protocols
contained within the section. Put N/A if the section is informational only. If the
sections listed below contain subsections that cover too broad an impact or risk
range to be assessed as a whole (>3 values), an itemized assessment of each
subsection should be completed.

# of                               FBI Laboratory Division Quality Assurance Manual
Sections
       Laboratory Policies                                            1 2 3 4 5 6 7 8 9 10 N/A
1      Statements of Policy
2      Case Documentation Policy
3      Evidence Control Policy


       Operational Practices                                          1 2 3 4 5 6 7 8 9 10 N/A
4      Practices for Authorizing Deviations

       Notes:

                                     DNA Analysis Unit I Quality Assurance Manual
                                                                      1 2 3 4 5 6 7 8 9 10 N/A
5      Evidence Control


       Notes:


                                 FBI Laboratory Division Caseworking Procedures Manual
                                                                      1 2 3 4 5 6 7 8 9 10 N/A
6      Procedures for Processing a Request for Examination
7      Procedures for Case Assignment
8      Procedures for Inventorying & Identifying Evidence
9      Procedures for Recording & Acknowledging Evidence
10 Procedures for the Examination of Evidence

   Procedures for the Formatting and Content of a Report of
11 Examination
12 Procedures for Reviewing a Report of Examination
13 Procedures for Issuing a Report of Examination
14 Procedures for Shipping Evidence
15 Procedures for Transferring Evidence
16 Procedures for Retaining Case-Related Documentation
17 Procedures for Handling Drug and Valuable Evidence

       Notes:



                                                     186
                                                                                       Appendix 6

        Procedures for the Serological Identification of Biological Substances on Evidentiary Materials




     Routine Procedures


     Procedure for the Presumptive Identification of Blood             1 2 3 4 5 6 7 8 9 10 N/A
18                       Reagents and Supplies
19                       Quality Control Procedures
20                       Test Procedure
21                       References


     Procedure for the Confirmatory Identification of Blood            1 2 3 4 5 6 7 8 9 10 N/A
22                       Reagents and Supplies
23                       Quality Control Procedures
24                       Test Procedure
25                       References


     Procedure for the Preparation of Dried Bloodstains                1 2 3 4 5 6 7 8 9 10 N/A
26                       Reagents and Supplies
27                       Quality Control Procedures

                        Preparation of Dried Bloodstains from
28             Coagulated Whole Blood

                        Preparation of Dried Bloodstains from
29             Anticoagulated Whole Blood
30                       Reference


     Procedure for the Presumptive Identification of Semen             1 2 3 4 5 6 7 8 9 10 N/A
31                       Reagents and Supplies
32                       Quality Control Procedures
33                       Test Procedure
34                       References


     Procedure for the Extraction of Suspected Semen Stains Prior to
     OneStep ABACard PSA Test                                          1 2 3 4 5 6 7 8 9 10 N/A
35                       Reagents and Supplies
36                       Quality Control Procedures
37                       Questioned Stain Extraction Procedure
38                       Reference


     Procedure for Human Semen Identification by the OneStep
     ABACard PSA Test                                                  1 2 3 4 5 6 7 8 9 10 N/A
39                       Reagents and Supplies
40                       Quality Control Procedures
41                       Test Procedure




                                                   187
                                                                                         Appendix 6


42                       Interpretation of Results
43                       Disposal
44                       References


     Non-Routine Procedures
     Procedure for the Origin Determination of Stains                    1 2 3 4 5 6 7 8 9 10 N/A
45                       Reagents and Supplies
46                       Quality Control Procedures
47                       Test Procedure
48                       Interpretation of Results
49                       Disposal
50                       References

     Procedure for Evaluating the Specificity of Anti-Species Antisera
                                                                         1 2 3 4 5 6 7 8 9 10 N/A
51                       Reagents and Supplies
52                       Quality Control Procedures
53                       Test Procedures
54                       Interpretation of Results
55                       References


     Procedure for the Presumptive Identification of Blood Using
     Luminol                                                             1 2 3 4 5 6 7 8 9 10 N/A
56                       Reagents and Supplies
57                       Quality Control Procedures
58                       Test Procedure
59                       Interpretation of Results
60                       References


     Procedure for the Calibration of OneStep ABACard Tests for the
     Detection of p30                                                    1 2 3 4 5 6 7 8 9 10 N/A
61                       Detection of p30
62                       Reagents and Supplies
63                       Preparation of p30 Standard Solutions
64                       Tests of the p30 Standard Solutions
65                       Interpretation of Results
66                       Reference

     Procedure for the Microscopic Identification of Spermatozoa
                                                                         1 2 3 4 5 6 7 8 9 10 N/A
67                       Reagents and Supplies
68                       Quality Control Procedures
69                       Test Procedures
70                       References




                                                     188
                                                                                        Appendix 6


     Procedure for the Staining of Smear Slides with
     Kernechtrotpicroindigocarmine for the Microscopic Identification
     of Spermatozoa                                                     1 2 3 4 5 6 7 8 9 10 N/A
71                       Reagents and Supplies
72                       Quality Control Procedures
73                       Test Procedures
74                       References

     Procedures for the Detection of Amylase in Saliva Stains           1 2 3 4 5 6 7 8 9 10 N/A
75                       Reagents and Supplies
76                       Quality Control Procedures
77                       Test Procedures
78                       Interpretation of Results
79                       References
80                       Radial Diffusion Template


     Procedure for the Detection of Urea in Urine Stains                1 2 3 4 5 6 7 8 9 10 N/A
81                       Reagents and Supplies
82                       Quality Control Procedures
83                       Test Procedures
84                       Interpretation of Results
85                       References
86                       Radial Diffusion Template


     Laboratory Setup                                                   1 2 3 4 5 6 7 8 9 10 N/A
87                       Dedicated Equipment and Supply Items
88                       Dedicated Laboratory Space
89                       Equipment Calibration


     Notes:




                                                     189
                                                                                          Appendix 6



                         Impact/Risk Assessment Forms, Phase 2

                                                                             = Lab Wide   = Unit Specific
Instructions: rate each of the following major sections for impact and risk.
The rating should reflect the highest level of impact or risk of
procedures/protocols contained within the section. Put N/A if the section is
informational only. If the sections listed below contain subsections that cover
too broad an impact or risk range to be assessed as a whole (>3 values), an
itemized assessment of each subsection should be completed.

# of                          FBI Laboratory Division Quality Assurance Manual
Sections                                                                    1 2 3 4 5 6 7 8 9 10 N/A
1      Authorization and Approval Hierarchy
2      Laboratory Quality System


       Laboratory Policies                                                  1 2 3 4 5 6 7 8 9 10 N/A
3      Court Testimony Policy


       Operational Practices                                                1 2 3 4 5 6 7 8 9 10 N/A
4      Practices for Corrective Action
5      Practices for Court Testimony Monitoring
6      Practices for Document Control
7      Practices for Instrument Calibration and Maintenance
8      Practices for Internal Audits
9      Practices for Laboratory Security
10     Practices for Open Proficiency Testing

11     Practices for Scientific or Technical Casework Conflict Resolution
12     Practices for Validating Technical Procedures
13     Practices for Writing Standard Operating Procedures


       Notes:


                                DNA Analysis Unit I Quality Assurance Manual
                                                                            1 2 3 4 5 6 7 8 9 10 N/A
14     Mission Statement
15     Goals and Objectives
16     Organization and Management
17     Authority and Accountability

       Job Descriptions, Personnel Qualifications and Training/Continuing
18     Education



                                                       190
                                                                                              Appendix 6


                                                                                 1 2 3 4 5 6 7 8 9 10 N/A
19   Facilities (Security)
20   Documentation System
21   Standard Operating Procedures
22   Report Writing
23   Case Assignment, Documentation and Review
24   Quality Control of Reagents and Materials
25   Instrument Calibration and Maintenance
26   Validation
27   Court Testimony Monitoring
28   Addressing Complaints
29   Proficiency Testing
30   Audits
31   Corrective Action
32   Environmental Health and Safety


     Notes:


                                       Short Tandem Repeat Analysis Protocol


                                                                                 1 2 3 4 5 6 7 8 9 10 N/A
33   Scope: Principles of Forensic STR Typing Tests
34   Reagents and Supplies and Equipment
35                           Reagents and Supplies for Extraction
36                           Reagents and Supplies for Quantitation
                             Reagents and Supplies for Profiler Plus / Cofiler
                             Amplification and Detection by ABI Prism 310
37
38                           Equipment
39   Special Quality Control Measures
40                           Guidelines for Control Samples
41                           Equipment
                             Quality Control of Critical Supplies and
42              Reagents
43   Extraction
44                           Whole Blood or Bloodstains
45                           Vaginal Swabs or Semen Stains
46                           Saliva Stains
47                           Envelope Flaps or Stamps
48                           Cigarette Butts
49                           Tissues
50                           Hairs




                                                       191
                                                                                             Appendix 6


51                        Bone
52                        Teeth
53   Quantification by Quantiblot
54   Amplification
                                                                                1 2 3 4 5 6 7 8 9 10 N/A
55   STR Typing by Capillary Gel Electrophoresis
56                        Setting up the Instrument
57                        Setting up a Run
58   Genescan Analysis
59   Genotyper Analysis
60                        Before Applying Genotyper
61                        Using a template file
62                        Examining data
63   Interpretation
64                        Designation of Profiler Plus ID and Cofiler Alleles

65                        Preliminary Evaluation of Data
66                        Interpretation of Control Samples
67                        Interpretation of Specimens
                          Application of Population Frequency Data to
68                        Profiler Plus ID and Cofiler Typing Results
69                        Source Attribution
70                        Minimum Allele Frequency
71                        Allele Frequencies
72   Report Writing
73   Laboratory Set-up
                        DNA Extraction and Non-amplified DNA
74             Laboratory
75                        PCR Set-up
76                        Amplified DNA Analysis
77   References
78   Safety


     Notes:


                                          Miscellaneous Procedures
                                                                                1 2 3 4 5 6 7 8 9 10 N/A
79   Procedure for Monitoring Ultra-Violet Light Intensity
80   Procedure for Pipette Calibration
81   Procedure for One Point Thermometer Calibration


     Notes:




                                                    192
